<html>
<title> - CLIMATE CHANGE IMPACTS AND RESPONSES IN ISLAND COMMUNITIES</title>
<body><pre>[Senate Hearing 110-1153]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1153

                  CLIMATE CHANGE IMPACTS AND RESPONSES
                         IN ISLAND COMMUNITIES

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 19, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



















                  U.S. GOVERNMENT PRINTING OFFICE

75-205 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 19, 2008...................................     1
Statement of Senator Inouye......................................     1

                               Witnesses

Kim, Karl, Ph.D., Professor and Chair, Department of Urban and 
  Regional Planning, University of Hawai`i at Manoa..............    46
    Prepared statement...........................................    49
Leong, Ph.D., Jo-Ann C., Director, Hawai`i Institute of Marine 
  Biology, School of Ocean and Earth Science and Technology, 
  University of Hawai`i at Manoa.................................     7
    Prepared statement...........................................    10
Mackenzie, Ph.D., Fred T., Department of Oceanography, School of 
  Ocean and Earth Science and Technology, University of Hawai'i 
  at Manoa.......................................................    18
    Prepared statement...........................................    22
Rocheleau, Ph.D., Richard E., Director and Terry Surles, 
  Researcher, Hawaii Natural Energy Institute, University of 
  Hawaii at Manoa................................................    35
    Prepared statement...........................................    39
Thomas, Bill, Director, Pacific Services Center, NOAA, U.S. 
  Department of Commerce.........................................     2
    Prepared statement...........................................     4
Uehara, Dr. Goro, College of Tropical Agriculture and Human 
  Resources, University of Hawai`i at Manoa......................    51
    Prepared statement...........................................    53

                                Appendix

Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Karl Kim, Ph.D...............................................    93
    Jo-Ann C. Leong, Ph.D........................................    71
    Fred T. Mackenzie, Ph.D......................................    71
    Richard E. Rocheleau, Ph.D...................................    82
    Bill Thomas..................................................    87
    Dr. Goro Uehara..............................................    86

 
       CLIMATE CHANGE IMPACTS AND RESPONSES IN ISLAND COMMUNITIES

                              ----------                              


                       WEDNESDAY, MARCH 19, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                      Honolulu, HI.
    The Committee met, pursuant to notice, at 10 a.m. in room 
325, Hawaii State Capitol Building, Honolulu, Hawaii, Hon. 
Daniel K. Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I'd like to thank all of you for joining us 
today.
    Over the past year, climate change has become a topic of 
discussion, not only at the highest government levels, but 
throughout the world, and it's become a political issue.
    New important research and assessments continue to be 
produced, which allow the public and policymakers to make more 
informed decisions, and engage in more meaningful discussions.
    Speaking of discussions, I believe one of the most 
important ones was held last year at the United Nations Climate 
Change Conference in Bali. I considered this important enough 
to send some of my staff there.
    This meeting, as you may be aware, established a road map 
to develop a new approach that will serve as the logical 
extension of the Kyoto Protocol.
    Regardless of the causes of climate change, its effects are 
felt by everyone. That fact is never more apparent than for 
those who call this island community a home.
    Islands have unique characteristics that make them 
especially vulnerable to climate change and variability. While 
our island state faces distinct challenges, it also has 
significant opportunities when it comes to climate change, 
because we're blessed with the full spectrum of renewable 
sources of energy. We have multiple days of sunshine, we have a 
healthy trade wind, most of the time, we have great, world-
class waves, and geothermal hot spots, so we can decrease our 
dependence on fossil fuels.
    Hawaii's consumers have suffered from some of the highest 
fuel and utility costs in the Nation. In fact, a few days ago, 
Maui hit the first $4 a gallon in the Nation. By producing our 
electricity from renewable sources locally, we keep those 
dollars in the state. This also means we can reduce our carbon 
dioxide emissions.
    Clearly we possess the natural resources to lead the 
research, development and integration of clean, renewable 
energy technologies, and become a model for the rest of the 
Nation. We've already taken significant steps.
    Locally, Honolulu is one of the more than 170 local 
governments participating in the Cities for Climate Protection. 
At the state level, Hawaii is one of only three states that 
have passed laws establishing mandatory, economy-wide, 
greenhouse gas emission limits, requiring the states or the 
utilities to provide 20 percent of electricity production from 
renewable sources by 2020.
    In February, Hawaii partnered with DOE to produce 70 
percent of the state's energy from renewable resources by 2030. 
We're the only state to create this kind of partnership, so 
we're ahead of the curve.
    We're also addressing climate change issues beyond energy, 
for example, Hawaii has taken steps to lead in planning and 
adapting to the impacts of climate change and other natural 
disasters through the newly authorized National Disaster 
Preparedness Training Center, housed at the University of 
Hawai`i.
    So, I look forward to the testimony of the distinguished 
witnesses we have assembled here, to hear more about our 
involvement in understanding climate issues, and how we're 
responding to the opportunities and challenges.
    Our first witness is the Director of the Pacific Services 
Center, National Oceanic and Atmospheric Administration, Mr. 
Bill Thomas.
    Mr. Thomas, welcome, sir.

 STATEMENT OF BILL THOMAS, DIRECTOR, PACIFIC SERVICES CENTER, 
               NOAA, U.S. DEPARTMENT OF COMMERCE

    Mr. Thomas. Thank you, Senator. Good morning, Senator 
Inouye, Members of the Committee. I'm Bill Thomas, Director of 
NOAA's Pacific Services Center, and I'd like to extend my 
sincerest mahalo for the opportunity to testify on the impacts 
of climate change on the Hawaiian Pacific Islands, and those 
efforts to assist the region in managing their resources in the 
face of this challenge.
    It's well-documented in scientific literature and 
publicized in the media, that our changing climate will have 
impacts on a global scale, and as you stated earlier, island 
communities are particularly susceptible to climate change.
    In 2007, a NOAA-sponsored Coastal Zone Visioning Session 
held right here, in Hawaii, identified climate change as its 
number one issue. In addition, at a recent meeting of all 
island coastal managers, every jurisdiction set climate change 
as their most important area of concern.
    The Intergovernmental Panel on Climate Change's recently 
published Assessment Report, and other similar reports, have 
identified small island communities as particularly vulnerable 
to climate variability and change. The impacts highlighted in 
these reports include the following: sea level rise is expected 
to exacerbate coastal hazards, there's a projected reduction in 
water resources in many small islands--the Pacific and the 
Caribbean, alike--to the point where, by mid-century, resources 
may be insufficient to meet demand during low rainfall periods. 
Invasion of non-native species is expected to occur with rising 
temperatures, and other existing human influences on fisheries 
and marine ecosystems, such as over-fishing, habitat 
destruction, pollution and excess nutrients will be 
exacerbated.
    But currently scientists and decisionmakers in the Pacific 
are engaged in individual and collaborative efforts to 
understand the nature of the climate change impacts described 
in the IPCC's report, and explore our options for both 
mitigation, and adaptation.
    This shared effort involves NOAA, other Federal partners, 
state agencies, university scientists, community leaders, and 
non-governmental organizations. NOAA's Pacific Region is 
engaged in a number of initiatives to help our island 
communities both to collect atmospheric and oceanic data, and 
plan for, mitigate against, and adapt to climate change.
    I'll now highlight a few prominent efforts, I also have a 
longer list in my written testimony.
    Observations and data collection--NOAA is undertaking a 
number of critical climate programs and activities, including 
contributing to global and regional climate and ocean observing 
systems, providing operational forecasts on climate 
variability, and developing improved models that provide long-
term projections on climate change.
    In fact, NOAA's Mauna Lau Observatory has been measuring 
atmospheric gases for over 50 years, and the data has been 
instrumental in forming the basis for the theory of global 
atmospheric change.
    On a regional scale, NOAA has developed the Pacific Climate 
Information System, or PaCIS, an integrated organization that 
brings together NOAA's regional assets, as well as those of its 
partners, to provide a programmatic framework to integrate 
ongoing and future climate observations, forecasting services 
and climate projections, and outreach and communications that 
will address the needs of American flag, and U.S.-affiliated 
Pacific Islands.
    PaCIS will also serve as the United States contribution to 
the World Meteorological Organization's Regional Climate Centre 
for Oceania.
    Risk management decision-support tools--discussions with 
Pacific disaster management agencies and coastal managers over 
the past decade have highlighted concerns about sea level rise 
and coastal inundation as one of the most significant climate-
related issues facing our coastal communities in the Pacific.
    As a result, in 2003 NOAA formed the Pacific Risk 
Management `Ohana, or PRMO, which is a network of partners and 
stakeholders involved in the development and delivery of risk 
management-related information, products and services in the 
Pacific.
    This multi-agency, multi-organizational, multi-national 
group, brings together representatives from agencies, 
institutions and organizations involved in Pacific risk 
management-related projects and activities, with the overall 
goal of enhancing communication, coordination, and 
collaboration among the `ohana of partners and stakeholders 
involved in this work.
    As a result of this collaboration, several ideas that 
emerged over the years have led to the development of decision-
support and community planning tools that aid managers and the 
general public in better understanding risks, and in making the 
best possible socio-economic decisions.
    In conclusion, again, I'd like to thank you for the 
opportunity to appear before you today. NOAA's Pacific Region 
will continue to work with our island communities to develop 
tools, products and services, to move toward realizing NOAA's 
vision of an informed society that uses a comprehensive 
understanding of the role of the oceans, coasts, and atmosphere 
in the global ecosystem to make the best social and economic 
decisions. I'd be happy to answer any questions you may have.
    [The prepared statement of Mr. Thomas follows:]

 Prepared Statement of Bill Thomas, Director, Pacific Services Center, 
                   NOAA, U.S. Department of Commerce
Introduction
    Good morning, Senator Inouye and Members of the Committee. I am 
Bill Thomas, Director of the National Oceanic and Atmospheric 
Administration (NOAA) Pacific Services Center. I thank you for the 
opportunity to testify on the impacts of climate change on Hawaii and 
the Pacific Islands and NOAA's efforts to assist the region in managing 
their resources in the face of this challenge.
    Over the last 50 years, researchers at NOAA's Mauna Loa Observatory 
(MLO) in Hawai'i have been measuring the increasing concentrations of 
carbon dioxide and other greenhouse gases in the Earth's atmosphere. 
This long-term carbon dioxide record has been instrumental in forming 
the basis for the theory of global atmospheric change as well as acting 
as a catalyst for international policies. It is now well-documented in 
scientific literature and publicized in the media that our changing 
climate will have impacts on a global scale. Today, we must now begin 
to understand and address the impacts of climate change in highly 
vulnerable locations.
    Island communities, such as Hawai'i and other Pacific Islands, are 
particularly susceptible to climate change impacts. This was apparent 
to participants at a coastal zone visioning session held in Hawai'i in 
2007, organized by NOAA and sponsored by its Pacific Region, where 
climate change was identified as the number one issue. In addition, at 
a recent meeting of island coastal managers, every jurisdiction cited 
climate change as their most important area of concern.
Changing Climate and its Impacts on Pacific Islands
    The recently published Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change (IPCC-AR4) has updated the 
projections of changing climate conditions (i.e., temperature, 
rainfall, sea level, and extreme events) and the consequences for 
Pacific Islands and other small island states. IPCC-AR4 confirms the 
vulnerabilities identified in the 2001 Pacific Islands regional 
assessment and provides insights into then less widely understood 
climate-related challenges such as ocean acidification.
    The IPCC-AR4 and similar climate assessment reports identify small 
island communities like those in the Pacific as particularly vulnerable 
to climate variability and change. There are similar threads regarding 
small island impacts that run through such reports including:

  <bullet> Deterioration of coastal conditions is expected to affect 
        local resources and reduce their value as tourist destinations 
        (e.g., the combined effect of increased ocean temperatures and 
        ocean acidification on coral reef resources).

  <bullet> Sea level rise is expected to exacerbate coastal hazards 
        such as inundation, storm surge and erosion as well as 
        reduction of freshwater availability due to saltwater 
        intrusion, especially in low-lying islands.

  <bullet> Climate change is projected to reduce water resources in 
        many small islands (Pacific and Caribbean) to the point where, 
        by mid-century, resources may be insufficient to meet demand 
        during low rainfall periods.

  <bullet> Invasion of non-native species is expected to occur with 
        rising temperatures.

  <bullet> Climate change will exacerbate other existing human 
        influences on fisheries and marine ecosystems such as over-
        fishing, habitat destruction, pollution, and excess nutrients.
NOAA in the Pacific Islands: Developing Capacity to Deal with Climate 
        Change
    NOAA's Pacific Region is a hallmark of an integrated approach to 
problem-solving.
The Pacific Risk Management `Ohana (PRiMO)
    The Pacific Risk Management `Ohana (PRiMO) is a network of partners 
and stakeholders involved in the development and delivery of risk 
management-related information, products, and services in the Pacific 
and is led by the NOAA Pacific Services Center. Established in 2003, 
this multi-agency, multi-organizational, multi-national group brings 
together representatives from agencies, institutions, and organizations 
involved in Pacific risk management-related projects and activities 
with the overall goal of enhancing communication, coordination, and 
collaboration among the `ohana of partners and stakeholders involved in 
this work. As a result of this collaboration, several ideas that 
emerged over the years have led to the development of decision-support 
and community planning tools that aid a cross section from managers to 
the general public in better understanding risks and in making the best 
possible socio-economic decisions. Examples of these collaborations 
include:

Decision Support Tools

  <bullet> Hazard Assessment Tools (HATs) have been developed in 
        partnership with NOAA's Pacific Region, local governments in 
        American Samoa, Guam, and Hawai'i (County of Kaua'i). These 
        tools use Geographic Information Systems (GIS) maps to 
        integrate hazard risk information, such as sea level rise 
        projections, along with local information on infrastructure, 
        natural resources, and administrative boundaries to improve 
        both short and long term decisionmaking.

  <bullet> The Hazard Education and Awareness Tool (HEAT) is a template 
        which allows any organization the ability to create a simple 
        website which provides public access to local hazard maps for 
        their community. Additional information on appropriate response 
        and preparedness actions are also included.

  <bullet> Nonpoint Source Pollution and Erosion Comparison Tool (N-
        SPECT) is a decision support tool which allows coastal managers 
        to compare potential water quality impacts of land cover change 
        that may occur from changes in climate.

Data

  <bullet> The Coastal Change Analysis Program (C-CAP) is a nationally 
        standardized database of land cover and land change 
        information, developed using remotely sensed imagery, for the 
        coastal regions of the U.S. C-CAP products inventory coastal 
        intertidal areas, wetlands, and adjacent uplands with the goal 
        of monitoring these habitats by updating the land cover maps 
        every 5 years. Its primary objective is to improve scientific 
        understanding of the linkages between coastal wetland habitats, 
        adjacent uplands, and living marine resources. Land cover data 
        from C-CAP has been developed for Hawai'i from satellite images 
        acquired in both 2000 and 2005. High resolution elevation data 
        for Hawai'i was collected in 2005 using Interferometric 
        Synthetic Aperture Radar (IFSAR). This elevation data provides 
        resource managers with the highest resolution elevation data 
        currently available for Hawai'i. This data is invaluable for 
        determining potential impacts of changes in climate, such as 
        sea level rise, in areas where higher resolution data may not 
        be available.

Community Planning Tools

  <bullet> The Coastal Community Resilience (CCR) Guide presents a 
        framework for assessing resilience of communities to coastal 
        hazards. The work was the result of a partnership funded 
        through the Indian Ocean Tsunami Warning System Program and is 
        being piloted for application in Hawai'i. The framework, 
        developed in concert with over 140 international partners, 
        encourages integration of coastal resource management, 
        community development, and disaster management for enhancing 
        resilience to hazards, including those that may occur as a 
        result of climate change.
The Pacific Enso Application Center (PEAC)
    Pacific Island communities continually deal with dramatic seasonal 
and year-to-year changes in rainfall, temperature, water levels and 
tropical cyclone patterns associated with the El Nino-Southern 
Oscillation (ENSO) cycle in the Pacific. This dynamic system involving 
the Pacific Ocean and the atmosphere above it can bring droughts, 
floods, landslides, and changes in exposure to tropical storms. 
Fourteen years ago, NOAA joined forces with the University of Hawai'i, 
the University of Guam, and the Pacific Basin Development Council to 
begin a small research pilot project designed to develop, deliver, and 
use forecasts of El Nino-based changes in temperature, rainfall, and 
storms to support decisionmaking in the American Flag and U.S.-
Affiliated Pacific Islands. That pilot project--the Pacific ENSO 
Applications Center (PEAC)--continues its work today as part of the 
operational National Weather Service programs in the Pacific. The PEAC 
experience has demonstrated the practical value of climate information 
for water resource management, disaster management, coastal resource 
planning, agriculture, and public health.
The Pacific Climate Information System (PaCIS)
    The experience gained from PEAC has helped inform the emergence of 
a comprehensive Pacific Climate Information System (PaCIS). As an 
integrated organization that brings together NOAA's regional assets as 
well as those of its partners, PaCIS provides, on a regional scale, a 
programmatic framework to integrate ongoing and future climate 
observations, operational forecasting services, and climate 
projections, research, assessment, data management, communication, 
outreach and education that will address the needs of American Flag and 
U.S.-Affiliated Pacific Islands. Within this structure, PaCIS will also 
serve as a United States' contribution to the World Meteorological 
Organization's Regional Climate Centre for Oceania and represents the 
first integrated, regional climate service in the context of emerging 
planning for a National Climate Service.
    Scientists and decision-makers in Pacific Island communities are 
now engaged in individual and collaborative efforts to understand the 
nature of the climate change impacts described in IPCC-AR4 and explore 
our options for both mitigation and adaptation. This shared effort 
involves NOAA, other Federal programs, state agencies, university 
scientists, community leaders and nongovernmental organizations. 
Together they are bringing their unique insights and capabilities to 
bear on a number of critical climate programs and activities including: 
contributions to global and regional climate and ocean observing 
systems; operational forecasts of seasonal-to-interannual climate 
variability; development and analysis of improved models that provide 
long-term projections of climate change; multi-disciplinary assessments 
of climate vulnerability, climate data stewardship, the development of 
new products and services to support adaptation and mitigation in the 
Pacific, and education and outreach programs to increase the climate 
(and environmental literacy) of Pacific Island communities, 
governments, and businesses. One of the newest activities involves a 
summary of the most recently published work on climate change and 
vulnerability in key sectors such as agriculture, water resources, and 
coastal infrastructure in the context of a Pacific regional 
contribution to a new Unified Synthesis Report of the U.S. Climate 
Change Science Program. This work is being supported and led by NOAA 
through its Integrated Data and Environmental Applications (NOAA IDEA) 
Center in Honolulu. While led by the NOAA IDEA Center, the full range 
of regional assets of NOAA in the Pacific are being brought to bear on 
this critical issue.
    Future planning for a number of climate programs in the Pacific 
will be organized in the context of PaCIS including building upon the 
PEAC, the Pacific Islands Regional Integrated Science and Assessment 
(Pacific RISA) program and other related climate activities in the 
region. In addition to meeting the specific needs of U.S. affiliated 
jurisdictions in the Pacific, PaCIS will also provide a venue in which 
to discuss the role of U.S. contributions to other climate-related 
activities in the Pacific including, for example, observing system 
programs in the region, such as the Pacific Islands Global Climate 
Observing System (PI-GCOS) and the Pacific Islands Global Ocean 
Observing System (PI-GOOS), as part of an integrated climate 
information system.
    In order to further define the roles and capabilities of PaCIS, a 
steering committee has been selected incorporating PEAC, the Pacific 
RISA, PI-GCOS, U.S. National Weather Service Operations Service and 
Climate Services Division, and their partners, as well as experts and 
users of climate science and applications in the region. The PaCIS 
Steering Committee, made up of representatives of institutions and 
programs working in the fields of climate observations, science, 
assessment, and services in the Pacific, as well as selected 
individuals with expertise in similar regional climate science and 
service programs in other regions, will provide a forum for sharing 
knowledge and experience and guide the development and implementation 
of this integrated, regional climate information program.
The Pacific Region Integrated Coastal Climatology Program (PRICIP)
    Discussions with Pacific disaster management agencies and coastal 
managers over the past decade have highlighted concerns about sea level 
rise and coastal inundation as one of the most significant climate-
related issues facing coastal communities in the Pacific. In light of 
this need, NOAA, through its IDEA Center with support from the Pacific 
Services Center and working with colleagues throughout NOAA, the U.S. 
Army Corps of Engineers, U.S. Geological Survey and university 
scientists in Hawaii, Guam, Alaska, and Oregon, initiated the Pacific 
Region Integrated Coastal Climatology Program (PRICIP). PRICIP 
recognizes that coastal storms and the strong winds, heavy rains, and 
high seas that accompany them pose a threat to the lives and 
livelihoods of the people of the Pacific. To reduce their 
vulnerability, decision-makers in Pacific Island governments, 
communities, and businesses need timely access to accurate information 
that affords them an opportunity to plan and respond accordingly. The 
PRICIP project is helping to improve our understanding of patterns and 
trends of storm frequency and intensity within the Pacific Region and 
develop a suite of integrated information products that can be used by 
emergency managers, mitigation planners, government agencies, and 
decision-makers in key sectors including water and natural resource 
management, agriculture, fisheries, transportation, communications, 
recreation, and tourism.
    As part of the initial build-out, a PRICIP web portal is serving a 
set of historical storm ``event anatomies.'' These event anatomies 
include a summary of sector-specific socio-economic impacts associated 
with a particular extreme event as well as its historical context 
climatologically. The intent is to convey the impacts associated with 
extreme events and the causes of them in a way that enables users to 
easily understand them. The event anatomies are also intended to 
familiarize users with in situ and remotely-sensed products typically 
employed to track and forecast weather and climate.
Hawaiian Archipelagic Marine Ecosystem Research (HAMER)
    The Hawaiian Archipelagic Marine Ecosystem Research Plan (HAMER) is 
a collaborative planning process to develop sustainable conservation 
and management throughout Hawai'i's marine ecosystem through improved 
understanding of the unique physical and biological attributes of the 
Hawaiian archipelagic marine ecosystem, their interconnected dynamics, 
and their interactions with human beings. By using Hawai'i as a large-
scale archipelagic laboratory for the investigation of biophysical 
processes, comparing the protected Northwestern Hawaiian Islands to the 
heavily used Main Hawaiian Islands and integrating socioeconomic 
information, Hawai'i and comparable marine ecosystems worldwide should 
realize improvements in resource management and community response to 
changes in climate.
    While this project is in its formative stages, the information 
generated by this projected 10-year multi-agency, collaborative program 
will:

  <bullet> Fill critical and important research gaps in the underlying 
        science of marine ecosystem dynamics.

  <bullet> Complement national, international, and state ecosystem 
        research initiatives.

  <bullet> Improve understanding of the behavior of humans in a marine 
        ecosystem approach to conservation and management.

  <bullet> Formulate predictive theory of ecosystem dynamics relative 
        to physical and biological variables, and

  <bullet> Generate useful information for conservation managers.
Conclusion
    NOAA's Pacific Region is engaged in a number of ways to help the 
Pacific Islands plan for, mitigate against, and adapt to climate 
change. This is not an exhaustive list. I have highlighted efforts that 
are most prominent at this time. The development of NOAA's products and 
services as they relate to climate change is as dynamic as the issue 
itself.
    NOAA's Pacific Region will continue to work with our island 
communities to develop tools, products, and services to move toward 
realizing NOAA's vision of, ``An informed society that uses a 
comprehensive understanding of the role of the oceans, coasts and 
atmosphere in the global ecosystem to make the best social and economic 
decisions.''
    Thank you for the opportunity to appear before you today.

    The Chairman. I thank you very much, Mr. Thomas.
    Next witness is the Director of the Hawai`i Institute of 
Marine Biology, Dr. Jo-Ann Leong.
    Dr. Leong?

    STATEMENT OF JO-ANN C. LEONG, Ph.D., DIRECTOR, HAWAI`I 
INSTITUTE OF MARINE BIOLOGY, SCHOOL OF OCEAN AND EARTH SCIENCE 
         AND TECHNOLOGY, UNIVERSITY OF HAWAI`I AT MANOA

    Dr. Leong. Thank you.
    Good morning, Senator, and Members of the Committee. Thank 
you for the opportunity to speak before you on the impacts of 
climate change on Hawaii's species at the level of coral 
resilience and resistance to invasive species.
    Again, my name is Jo-Ann Leong, and I serve as Director of 
the Hawai`i Institute of Marine Biology and I represent a group 
of scientists whose major research effort includes a study of 
coral reef ecosystems.
    We also provide research for the new Papahanaumokuakea 
Marine National Monument through an MOA with the Pacific Island 
Regional Sanctuary Office.
    One of the fundamental questions being addressed by HIMB 
researchers for the Monument is, what factors are important in 
coral reef resilience? In particular, we are examining the role 
of biological connectivity in reef restoration, and the role of 
genetic and species diversity in the ability of reefs to bounce 
back after a disturbance.
    In today's testimony I would like to focus on the following 
points: One, thermal stress and bleaching, coral disease and 
ocean acidification are real threats to the coral reef 
ecosystem in Hawaii, and particularly, in the Northwestern 
Hawaiian Islands.
    Two, genetic analysis, coupled with spatial and physical 
measurements are needed to tell us about the role of genetic 
diversity and coral resistance to temperature stress.
    Three, biological connectivity studies indicate that we 
need to manage coral reefs as individual units, and not as a 
single chain of islands and atolls. Our studies show that these 
islands and atolls may not be biologically connected, and 
therefore capable of replenishing each other, should one member 
of the chain experience a stress event. And I'll get back to 
that.
    Now, recommendations for controlling the spread of invasive 
species have been developed for the Northwestern Hawaiian 
Islands, and I've provided copies for the Committee, in the 
back. And genetic technologies are useful in identifying the 
origin of invasive species to truly find out whether they're 
really invasive, or that the ecosystem has changed, and an 
epedemic has now begun to take over.
    Ocean acidification will affect the crustose coralline 
algae, as well as the stony corals, and that may have an even 
more dramatic effect on the future of coral reefs.
    Now, I offer these points in the context of what Hawaii can 
offer to this study. We have a Hawaiian archipelago, the 
largest living coral reef ecosystem in the United States. It 
stretches over a distance of 1,500-plus miles, with 132 islands 
and atolls, reefs, shallow banks, shoals and sea mounts. This 
lovely set of islands, from Kure Atoll in the Northwest, to the 
Big Island of Oahu in the Southeast, offers natural gradients 
in island evolution, and now, temperature regimes; and a 
gradient of anthropogenic stressors with dense human 
populations in the South, to the relatively pristine 
environment in the Northwestern Hawaiian Islands. This makes 
Hawaii a natural laboratory to study the effects of climate 
change on global coral reefs, and in that process, develop 
recommendations to protect those reefs. It really is our 
responsibility, sir.
    I have provided written testimony that far exceeds the 
amount of time I have before you today, so let me point out 
five findings that have bearing on our discussion.
    The role of species diversity at both the organismal and 
genetic level in reef resilience has not been determined.
    We assume from other ecological studies that redundancy in 
an ecosystem function offered by high species diversity will 
also work in a coral reef ecosystem. So, that if one goes out, 
you will have another to take its place. We are just beginning 
to conduct those studies, here in Hawaii. Scientists have 
finally put temperature monitors across a reef--so we've wired 
a reef--and sampled every coral in that reef, so that we know 
what the genotype of that coral is.
    So, what we found is that in a reef there are hot spots, 
and there are cool spots. So, the patchiness of a bleaching may 
be due to those physical change dynamics.
    The genotype and the symbiont in those corals are just 
being determined now, and I hope to be able to give you an 
update and a briefing in another 6 to 9 months.
    The incidents of coral disease appears to be increasing in 
Hawaii. At least 17 coral diseases have been described. 
Experience with bleached corals in other parts of the world 
indicates that we will see more disease among our corals, 
because we've already had three episodes of bleaching in 
Hawaii.
    The immunologic agents for these diseases have not been 
determined. Hawaii, and the Pacific Region, needs a safe 
facility for conducting studies that might identify these 
agents, and provide some methods for treating disease. We can 
not work on that--and we will not work on that--unless those 
safe facilities are available.
    Invasive species come in many forms, that's point number 
three, and it is the small ones that usually escape our eye. 
This is the case for micro-algal symbiont for corals. I have 
highlighted a study in my written testimony from Ruth Gates and 
Michael State at HIMB. They have identified a genotype of 
zooxanthellae which is the micro-algae in the coral, it's a 
symbiont and it belongs to what we call clade A. And clade A is 
a genotype you normally don't find in the Pacific. It is found 
in a jellyfish called cassiopeia, which is a foreign 
introduction into Hawaii, from the Caribbean.
    And what we found is that, we found this clade A in corals 
in the Northwestern Hawaiian Islands at French Frigate Shoals. 
And there was a high correlation with this Clade A in these 
corals, and disease susceptibility. So, we have to be careful 
at that level, about the introduction of invasive species.
    Now, please note that we have provided the Committee with 
20 copies of a plan for monitoring invasive species, and I've 
also provided these little booklets, or little cards, which 
contain coral diseases for the rest of the Committee. And 
they're provided from the Department of Aquatic Resources.
    You need to tell me if I'm going over time.
    Biological connectivity is one of the key factors that are 
used in the designs of marine protected areas. We work in the 
largest marine protected area in the United States, and we 
don't know whether this MPA can provide the protection to 
preserve these marine resources.
    Rod Toonen and Brian Bowen have been tracking the movement 
of the larvae of fish and invertebrates to ask when--are any of 
these atolls and islands can serve to replenish a neighboring 
island or system. We have found the answers to that question 
differs greatly among species, and that no one species can 
represent any other species in that taxa.
    So, I was going to refer you to my written testimony, which 
is showing on Figure 2. And in this it shows you blocks--yellow 
blocks--in the archipelago. And those yellow blocks identify 
barriers to gene flow exchange between one system and another 
system. That tells you that you have to be very careful in 
developing management of any ecosystem, because there might not 
be enough gene flow to replenish a system from another system 
that is protected in that area. And you need to know that 
information.
    OK, ocean acidification will affect Hawaii, on its northern 
end first. Some of the key studies on the effect of pH on 
calcification rates was done in Hawaii. One of the most 
interesting findings that has just emerged, is that ocean 
acidification will affect the crustose coralline algae. The 
coral reef glue that holds reef together, and provides the cues 
for the settlement of coral larvae on the reef.
    This is a critical finding, and we need to identify the 
effects of slight changes in pH on other marine calcifiers.
    To end this testimony, I ask the Committee to carefully 
consider the recommendations on page 16 [of this transcript], 
for critical research needs. I made a plea for the need for 
facilities to conduct studies on coral disease with native and 
non-regional corals of the Coral Conservation Program workshop 
last year.
    We also need, in the Pacific Region, sites where research 
will be able to conduct experiments on coral reef misocosms 
that can be replicated under controlled, measurable conditions. 
This is not available to anyone, anywhere.
    And, thank you again for this opportunity, Senator Inouye, 
and Members of the Committee, and I'm willing to take 
questions.
    [The prepared statement of Dr. Leong follows:]

    Prepared Statement of Jo-Ann C. Leong, Ph.D., Director, Hawai`i 
  Institute of Marine Biology, School of Ocean and Earth Science and 
               Technology, University of Hawai`i at Manoa
Introduction
    Good morning Senator Inouye and members of the Committee. Thank you 
for the opportunity to speak before you on the impacts of climate 
change on Hawai'i's myriad ocean species at the level of coral reef 
resilience and resistance to invasive species. My name is Jo-Ann Leong 
and I serve as Director of the Hawai'i Institute of Marine Biology. I 
represent a group of scientists whose major research effort includes 
the study of coral reef ecosystems and the biological connectivity 
between the islands and atolls of the Hawaiian Archipelago. We have a 
memorandum of agreement with the NOAA Pacific Regional Sanctuary office 
to provide research for the new Papahanaumokuakea Marine National 
Monument.
    Current models for sea surface temperature (SST) and seawater 
CO<INF>2</INF> saturation in the coming decades suggest that the 
Hawaiian Archipelago will experience rises in sea levels, increased 
episodes of coral bleaching, and decreased aragonite saturation in its 
ocean waters (Guinotte, Buddemeier, Kleypas 2003; IPCC, 2007 working 
group I report; E. Shea, Preparing for a Changing Climate, 2001). 
Higher sea surface temperatures produced severe bleaching events in the 
main Hawaiian Islands in 1996 and in the Northwestern Hawaiian Islands 
(NWHI) in 2002 and 2004. Climate experts are virtually certain that 
more episodes of coral bleaching are in store for Hawai'i. Moreover, by 
2049, ocean acidification is expected to have a marked effect in the 
waters surrounding Kure and Midway Atolls. These climate changes will 
have an impact on the marine resources of the Hawaiian Archipelago.
    One of the fundamental questions being addressed by the research at 
HIMB is what factors are important in coral reef resilience. In 
particular, we are examining the role of biological connectivity in 
reef restoration and the role of genetic and species diversity in the 
ability of reefs to bounce back after a disturbance. In today's 
testimony, I would like to focus the following points:

        1. Thermal stress and bleaching, coral disease, and ocean 
        acidification are real threats to the coral reef ecosystem in 
        Hawai'i and particularly in the NWHI.

        2. Genetic analysis coupled with spatial and physical 
        measurements are needed to tell us about the role of genetic 
        diversity in coral resistance to temperature stress.

        3. Biological connectivity studies indicate that we need to 
        manage coral reefs as individual units and not as a single 
        chain of islands and atolls. Our studies show that these 
        islands and atolls are not biologically connected and therefore 
        capable of replenishing each other should one member of the 
        chain experience a stress event.

        4. Recommendations for controlling the spread of invasive 
        species have been developed for the NWHI and genetic 
        technologies are useful in identifying the origin of invasive 
        species.

        5. Ocean acidification will affect the crustose coralline algae 
        as well as the stony corals and that may have an even more 
        dramatic effect on the future of coral reefs.
Coral Bleaching Events in Hawai'i
     Although coral bleaching due to high temperature was first 
described in Hawai'i by Jokiel and Coles (1974) off Kahe Point (O'ahu) 
electric generating station, the isolated subtropical location of 
Hawai'i was thought to be sufficient to protect its corals from the 
bleaching outbreaks that have ravaged coral communities elsewhere. 
However, in the late summer of 1996, the first large-scale bleaching 
event in the main Hawaiian Islands occurred (Jokiel & Brown, 2004) and 
another major bleaching event occurred in the Northwestern Hawaiian 
Islands (NWHI) in the Summer of 2002 (Brainard, 2002; Aeby et al., 
2003). In September 2004, a third Hawaiian coral bleaching event 
occurred at the three northern atolls (Pearl and Hermes, Midway, Kure) 
(Kenyon & Brainard, 2005). Clearly, Hawai'i is not immune to large 
scale coral bleaching events.
    Mean summer monthly temperatures in Hawaiian waters are 
approximately 27 <plus-minus> 1 +C. A 30-day exposure to temperatures 
of only 29-30 +C will cause extensive bleaching in Hawaiian corals 
(Jokiel & Coles, 1990). Combined with high irradiance (clear days) and 
low winds, water temperatures can be 1-2 +C higher in certain coastal 
regions. The ``degree heating weeks'' (DHW) (1 week of SSTs greater 
than the maximum in the monthly climatology) over a rolling 12 week 
period now serves as an indicator of the likelihood of bleaching. 
Whether the single factor of temperature increase is sufficient to 
predict coral bleaching is unclear since hind sight analysis of SST 
data note the absence of bleaching reports in Hawai'i when SST data 
indicated that there should have been bleaching in 1968 and 1974. 
Nevertheless, DHW is used by NOAA's Coral Reef Watch program because it 
gives a first alert to investigators and the public of possible coral 
bleaching events.
    Hawai'i's coral reefs did recover from the bleaching. During the 
1996 episode on O'ahu, the corals were closely monitored for recovery 
in Kane'ohe Bay. A month after the height of the bleaching episode, the 
slightly bleached corals regained pigmentation, and 2 months later, the 
completely bleached corals had recovered. Overall coral mortality 
during the event was less than 2 percent. The rate of recovery was 
related to bleaching sensitivity, i.e., the first corals to bleach were 
the last to recover. Most of the bleached corals at Kure, Midway and 
Pearl and Hermes involved in the September 2002 event also recovered by 
December 2002 except for the Montipora capitata. Estimates of 30 
percent of the montiporids did not recover from this bleaching event in 
the back reef sections of Midway, Pearl and Hermes Atolls (Kenyon and 
Brainard, 2006).
    A comparison of the sensitivity of different corals to bleaching is 
shown in Table 1. In general, the montiporid and pocilloporid corals 
were sensitive to thermal stress and the poritid corals were more 
resistant. But even these more sensitive corals have resistant members 
in a bleaching event and scientists are beginning to focus on these 
coral ``survivors'' for answers to the question of whether coral reefs 
will survive to 2100. The first question asked by Steve Karl, a 
researcher at HIMB, was whether the temperature gradients across a reef 
were uniform. Thus, if corals responded to thermal stress by bleaching, 
then perhaps those corals that did not bleach were those corals that 
inhabited cool spots on the reef. A careful study with miniature 
temperature monitors placed at 4 M intervals throughout a reef has 
shown that there are hot spots and cool spots within a reef and this 
may account for the patchiness of coral bleaching. In addition, Steve 
and his group have mapped every single coral in the reef and the 
genotype for each coral is being determined. The question being 
addressed is whether the corals are genetically distinct (produced by 
sexual reproduction) or clonally derived (produced by breakage and 
regrowth from a parent colony). This research may provide some answers 
regarding the role of genotype in thermal resistance. Steve's study is 
being carried out at Kane'ohe Bay, French Frigate Shoals, and Pearl & 
Hermes Atoll. In addition to the genotype analysis, Steve is working 
with HIMB researcher Ruth Gates to determine if there are differences 
in the zooxanthellae symbiont type in the resistant and sensitive 
corals. Symbiont type has been identified as a key factor in resistance 
to thermal stress in corals (Baker, 2004; Little, van Oppen, & Willis, 
2004; Berkelmans and van Oppen, 2006; Middlebrook, Hoegh-Guldberg, and 
Leggat, 2008)).

     Table 1. Relative Resistance of Corals to Bleaching in Hawai'i
------------------------------------------------------------------------
            Kane'ohe Bay 1996                     NWHI 2002, 2004
------------------------------------------------------------------------
Highly Resistance
------------------------------------------------------------------------
Porites evermanni                         Porites compressa
Cyphastrea ocellina                       Porites lobata
Fungia scutaria                           Montipora flabellata
Porites brighami

Moderate Resistance
------------------------------------------------------------------------
Porites compressa                         Porites evermanni (Maro,
                                           Laysan, Lisianski)
Porites lobata
Montipora patula                          Montipora patula (Maro,
                                           Laysan, Lisianski)
Montipora capitata

Low resistance (most sensitive to
 bleaching)
------------------------------------------------------------------------
                                          Montipora turgescens
Montipora flabellata                      Montipora patula
Pocillopora meandrina                     Montipora capitata
Pocillopora damicornis                    Pocillopora damicornis
Montipora dilitata.                       Pocillopora ligulata
                                          Pocillopora meandrina
------------------------------------------------------------------------
Compiled from Jokiel & Brown, 2004; Aeby, Kenyon, Maragos, and Potts,
  2003; Kenyon and Brainard, 2006.

Coral Disease in Hawai'i
    Coral diseases have emerged as a serious threat to coral reefs 
worldwide and Hawai'i has its own set of coral diseases. There are at 
least 17 described coral diseases in Hawai'i (Work & Rameyer 2001; Work 
et al., 2002; Aeby, 2006; Friedlander et al., 2005). In general, coral 
disease is found to be widespread on reefs but occurs at a low 
prevalence. However, disease outbreaks with more serious effects are 
starting to occur in Hawai'i. The white syndrome resulting from tissue 
necrosis and loss in Acropora cytherea has appeared at French Frigate 
shoals, a pristine area presumably free from anthropogenic stressors. 
In Kane'ohe Bay on O'ahu, Montipora capitata are showing progressive 
signs of tissue loss (Figure 1F). The etiology (cause) of these 
diseases has not been determined because no facility for the safe 
conduct on this research is available in the Pacific. Nevertheless, we 
must continue to monitor these outbreaks. Experiences with bleached 
corals in other parts of the world indicate that bleached corals are 
more susceptible to disease (Bally and Garrabou, 2007). If this is 
true, Hawai'i should expect more disease outbreaks.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Some coral disease found in Hawai'i. A. Porites 
trematodiases. B. Acropora white syndrome. C. Porites growth anomalies. 
D. Pocillopora white band disease. E. Acropora growth anomalies. F. 
Montipora white syndrome. H. Montipora multi-focal tissue loss 
syndrome. I. Montipora dark band. J. Dark spot disease caused by 
endolithic hypermycosis.
Genetics, Diversity, and Coral Reef Resilience
    Resilience of ecosystems was originally defined by C.S. Holling in 
1973 as the ability of systems to absorb, resist or recover from 
disturbances or to adapt to change while continuing to maintain 
essential functions and processes. For coral reefs, resilience is the 
term used to describe the ability of coral reefs to bounce back or 
recover after experiencing a stressful event such as bleaching. 
Resistance, in turn, refers to the ability of coral communities to 
remain relatively unchanged in the face of a major disturbance.
    Ensuring reef resilience is an important aim for all present and 
future marine protected areas in Hawai'i. The Nature Conservancy (TNC) 
has done an admirable job in developing a model of reef resilience. The 
four principles of reef resilience that TNC have identified are:

        1. Provide adequate replicates of habitat types to decrease the 
        risk of catastrophic events, such as bleaching, from destroying 
        the entire ecosystem.

        2. Identify as high priority conservation targets those areas 
        vital for the survival and sustainability of the coral reef 
        ecosystem, i.e., nursery habitats, regions of high diversity.

        3. Ensure connectivity among reefs to ensure replenishment of 
        coral communities and fish stocks to enhance recovery in case 
        of a catastrophic event.

        4. Reducing threats to the environment by effective management.

    In the HIMB-Monument research partnership, we are examining the 
issue of biological connectivity among the reefs and atolls in the 
Northwestern Hawaiian Islands and its possible connectivity to the Main 
Hawaiian Islands. The work of HIMB researchers Rob Toonen and Brian 
Bowen and their colleagues shows that the answer to this question 
differs greatly among species, and that single studies of individual 
species tell us little about how to manage any other population (Bird 
et al., 2007). Although these are preliminary results, the extensive 
survey currently underway suggests that many of the fishes are well-
connected throughout the archipelago. In contrast, the corals and other 
invertebrates that form the reefs are far more isolated, and must 
therefore be managed carefully on a local scale to persist. Despite the 
differences among species, however, some striking patterns of isolation 
emerge; there are consistent breaks in exchange of individuals across 
many species that divide regions of the Hawaiian Archipelago (Figure 
2). Notably, there is a consistent break between populations found at 
the Big Island, Kauai, and between the Main and NWHI, with the 
predominant direction of exchange being to the northwest rather than to 
the southeast. Additionally, even for fishes--which show the highest 
degree of connectivity in our studies--the rate of exchange is too low 
to subsidize fisheries stocks in the Main Hawaiian Islands, suggesting 
that regional or community-based management will be the most effective 
route for the future (Bird et al., 2007).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2. Shared genetic breaks among diverse species (including 
Spinner dolphins, sharks, opihi, tube snails, lobsters, and sea 
cucumbers) across the Hawaiian Archipelago. Although patterns of 
population structure differ by species in each case, the four regions 
highlighted in this figure appear to limit exchange across a broad 
range of marine taxa.

    A major contributor to reef resilience is species diversity at both 
the organismal level and the genetic level. Although we have a listing 
of the species found in the Hawaiian Archipelago to date, the actual 
species diversity in the NWHI is largely unknown. A recent Census of 
Marine Life Cruise to French Frigate Shoals uncovered 30-50 
invertebrate species new to science, 58 new ascidian records, 33 new 
records of decapod crustaceans, and 27 new opistobranch mollusks of 
record (R. Brainard, personal communication). It is clear that we don't 
know the extent of species diversity in the NWHI and it is critical 
that we find out if we are to understand how that ecosystem functions 
and what levels of redundancy in function are available (McClanahan, 
Polumin, and Done, 2002). HIMB scientists are beginning to examine the 
genetic diversity of different coral species in Hawai'i.
    Symbiont diversity, we are learning, is a vital factor in the 
resistance of corals to bleaching. The symbiotic dinoflagellate genus 
Symbiodinium is genetically diverse containing eight divergent lineages 
(clades A-H). Corals predominantly associate with clade C Symbiodinium, 
although clades A, B, D, F, and G are also found to a lesser extent in 
corals. There is ample evidence that some type of symbiont 
``shuffling'' occurs during the process of acclimatization of corals to 
higher thermal stress (Berkelmans and van Oppen, 2006; Middlebrook, 
Hoegh-Guldberg, and Leggat, 2008). In fact, there is growing evidence 
that corals with clade D symbionts are more resistant to thermal stress 
than the same species with clade C symbionts, the more common coral 
symbiont clade in the Pacific region. HIMB researchers Ruth Gates and 
Michael Stat found Symbiodinium clade A1, a rare symbiont type, and 
clade C associated with the Acropora cytherea corals at French Frigate 
Shoals. The A symbiont type is rare, and genetic evidence suggests that 
this clade was introduced with Cassiopea (Stat & Gates, 2007). 
Moreover, the presence of clade A was highly associated with disease. 
None of the diseased corals had clade C as the dominant symbiont (Stat 
& Gates, preliminary communication).
Invasive Species
    Living in KAne'ohe Bay, we are confronted daily by the invasive 
algae that impact our coral reefs. Our associates, Cindy Hunter, Celia 
Smith, the Division of Aquatic Resources, and The Nature Conservancy 
are part of an organized effort to keep the algae from taking over our 
reefs. As part of our efforts to prevent this from ever happening in 
the NWHI, we have developed a set of recommendations to restrict the 
transport of non-indigenous species to the NWHI. They include hull 
inspections for vessels planning to enter the NWHI and requiring 
treatment of ballast water. Copies of the document are provided for the 
members of the Committee: S. Godwin, K. S. Rodgers, and P. L. Jokiel 
(2006) Reducing Potential Impact of Invasive Marine Species in the 
Northwestern Hawaiian Islands Marine National Monument.
    The power of the genetic tools we use to detect invasive species 
can also be used to uncover the origins of invasive species and I 
provide this example for our discussion. When the snowflake coral, 
Carijoa riseii, was first observed growing at high densities on the 
black coral beds in Hawai'i, it was labeled as a foreign invasive from 
the Caribbean. It was thought to have been brought in by ships coming 
to Hawai'i from the continental United States. Genetic evidence no 
longer supports this finding (Concepcion et al., in review). Rather, 
the ``Hawaiian snowflake coral'' was closer genetically to the 
snowflake corals identified throughout the Pacific Islands, and that 
there are multiple species of Hawaiian snowflake coral (Concepcion et 
al., 2007). It is clear that this is not a Caribbean introduction and 
the data cannot rule out a natural colonization of Hawai'i by the 
snowflake coral. If that is the case, then the ecology of the black 
coral ecosystem has been altered to allow the snowflake coral to 
overgrow these precious coral beds.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fig. 3. Distribution of genotypes of Carijoa riseii. Each colored 
circle is characteristic for a specific genotype of Carijoa. Note that 
Hawai'i does not share any genetic types with the Caribbean.
Ocean Acidification
    Several models for changes in aragonite saturation at today's 
CO<INF>2</INF> concentration (375-380 ppm) to the projected saturation 
state for years 2040-2049 (465 ppm) indicate that Kure Atoll and Midway 
Island will be affected by rates of aragonite saturation that are 
marginal for coral growth (Guinotte, Buddemeier, & Kleypas, 2003; 
Hoegh-Guldberg et al., 2007). Experiments in mesocosms containing 
corals exposed to lower pH suggest that coral calcification rates will 
slow (Ries, Stanley, & Hardie, 2006; Marubini & Atkinson, 1999), and, 
in some cases, the corals will actually decalcify to form sea anemone-
like soft bodied polyps (Fine and Tchernov, 2007). Ilsa Kuffner and her 
colleagues at HIMB have shown that crustose coralline algae are 
dramatically affected by acidified ocean water (Figure 4). This is an 
important finding because members of this group of calcifying algae act 
as framework organisms, cementing carbonate fragments into massive reef 
structures, providing chemical settlement cues for reef-building coral 
larvae, and is a major producer of carbonate sediments (Kuffner et al., 
2008).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 4. Encrusting algal communities on experimental cylinders. 
Control cylinder on the left was exposed to normal seawater at pH 8.17 
and shows the pink crustose coralline algae colonies. On the right, 
this cylinder exposed to seawater at pH 7.91 shows growth of on non-
calcifying algae.

    Recommendations:

    Management strategies will need to focus on increasing coral reef 
resilience, usually by managing other stressors on reefs, i.e., 
nutrient overload, sediments, human induced disturbances, resource 
extraction. Management will also require:

        1. An accurate survey of the biodiversity of the coral reef 
        ecosystems in Hawai'i.

        2. A study of ecosystem function in these reefs to identify 
        keystone species and redundancy in the system.

        3. Management must be based on an accurate assessment of the 
        biological connectivity between the different reefs and atolls. 
        Temporal and spatial contributions to replenishment from 
        healthy reefs must be determined.

        4. Coral reef ecosystem management and fisheries management 
        must work together to provide sustainable harvest while 
        preserving habitat and ecosystem functions.

        5. Research needs include:

                a. Identification of the etiologic agents of coral 
                disease within an appropriate containment facility.

                b. Understanding the epizootiology of coral diseases 
                (transmission, rate of spread, virulence, etc.).

                c. Measurement of the impacts of reduced calcification 
                on a wide range of marine organisms including 
                pteropods, coccolithophores, foraminifera . . .

                d. Determine the calcification mechanisms across many 
                different calcifying taxa.

                e. Large mesocosms equipped with seawater that can be 
                regulated for temperature, flow rate, wave action, pH 
                and CO<INF>2</INF>, and light are needed to conduct 
                replicate studies on the effects of these thermal 
                stress and/or lowered pH on coral reefs.

        6. We support the recommendations of the report: Impacts of 
        Ocean Acidifcation on Coral Reefs and Other Marine Calcifiers: 
        A guide for future research. Authors: J. A. Kleypas, R. A. 
        Feely, V. J. Fabry, C. Langdon, C. L. Sabine, and L.L. Robbins.
References
    Aeby, G. S., J. C. Kenyon, J. E. Maragos, and D. Potts. (2003) 
First record of mass coral bleaching in the Northwestern Hawaiian 
Islands. Coral Reefs 22:256.
    Aeby, G. S. (2006). Baseline levels of coral disease in the 
Northwestern Hawaiian Islands. Atoll Research Bulletin 543:471-488.
    Baker, A. C., C. J. Starger, T. R. McClanahan, & P. W. Glynn. 
(2004). Corals' adaptive response to climate change. Nature 430:741.
    Baker, A. C. (2001). Reef corals bleach to survive change. Nature 
411:765-766.
    Bally, M. and J. Garrabou. (2007). Thermodependent bacterial 
pathogens and mass mortalities in temperate benthic communities: a new 
case of emerging disease linked to climate change. Global Change 
Biology 13:2079-2088.
    Berkelmans, R. and M. J. H. van Oppen (2006) The role of 
zooxanthellae in the thermal tolerance of corals: a ``nugget of hope'' 
for coral reefs in an era of climate change. Proceedings of the Royal 
Society of London, Series B., Biological Sciences, doi: 10,1098/
rspb.2006.3567
    Bindoff, N. L., J. Willebrand, V. Artale, A. Cazenave, J. M. 
Gregory, S. Gulev, K. Hanawa, C. Le Quere, S. Levitus, Y. Nojiri, G. C. 
Shum, L. D. Talley, and A. Unnikrishnan. (2007). Observations: Oceanic 
Climate Change and Sea Leve. In: Climate Change 2007: The Physical 
Science Basis. Contribution of the working Group I to the Fourth 
Assessment Report of the Intergovernmental Panel on Climate Change. 
(Solomon, S., D. Qin, M. Manning, Z. Chen, M. Marquis, K. B. Avery, M. 
Tignor, and H. L. Miller [eds]). Cambridge University Press, Cambridge, 
United Kingdom and New York, NY, USA.
    Bird, C. E., B. S. Holland, B. W. Bowen, and R. J. Toonen. 2007. 
Contrasting population structure in three endemic Hawaiian limpets 
(Cellana spp.) with similar life histories. Molecular Ecology 16 
(15):3173-3187.
    Brainard, R. (2002) Bleaching in NW Hawaiian Isalnds. Bleaching 
Report, National Environmental Satellite, Data, and Information 
Service. ORA/ORSPD Coral Reef Team, Coral Reef Bleaching Hotspots. 
http://www.osdpd.noaa.gov/PSB/EPS/SST/data/als_bleaching
.10.16.2002.
    Brown, B. E., R. Dunne, M. S. Goodson, and A. E. Douglas. (2000) 
Bleaching patterns in reef corals. Nature 404:142-143.
    Concepcion, G., M. Crepeau, D. Wagner, S. E. Kahng, & R. J. Toonen. 
2008. An alternative to ITS--a hypervariable, single-copy nuclear 
intron in corals, and its use in detecting cryptic species within the 
octocoral genus Carijoa. Coral Reefs. Online first, DOI: 10.1007/
s00338-007-0323-X.
    Concepcion, G., S. E. Kahng, M. Crepeau, E. C. Franklin, S. Coles, 
& R. J. Toonen. In Review. Molecular data refute a Caribbean 
introduction and suggest multiple origins for the invasive snowflake 
coral in Hawai'i. Molecular Ecology.
    Cooper, T. F., G. De'ath, K. E. Fabricius, and J. M. Lough. (2008) 
Declining coral calcification in massive porites in two nearshore 
regions of the northern Great Barrier Reef. Global Change Biology 14: 
529-538.
    Friedlander, A., G. Aeby, E. Brown, A. Clark, S. L. Coles, S. 
Dollar, C. Hunter, P. L. Jokiel, J. Smith, B. Walsh, and Wiltse, W. 
(2005) The State of Coral Reef Ecosystems of the Main Hawaiian Islands, 
pp. 222-269. In: J. Waddell (ed.), The State of Coral Reef Ecosystems 
of the United States and Pacific Freely Associated States: 2005. NOAA 
Technical Memorandum NOS NCCOS 11. NO AA/NCCOS Center for Coastal 
Monitoring and Assessment's Biogeography Team. Silver Sping, MD. 522 
pp.
    Guinotte, J. M., R. B. Buddemeier, and J. A. Kleypas. (2003). 
Future coral reef habitat marginality: temporal and spatial effects of 
climate change in the Pacific basin. Coral Reefs 22: 551-558.
    Holling, C. S. 1973. Resilience and stability of ecological 
systems. Annual Review of Ecology and Systematics 4:1-23.
    Jokiel, P. L., and S. L. Coles. (1974). Effects of heated effluent 
on hermatypic corals at Kahe Point, O'ahu. Pacific Sciences 28(1):1-16.
    Jokiel, P. L., and E. R. Brown. (2004) Global warming, regional 
trends and inshore environmental conditions influence coral bleaching 
in Hawai'i. Global Change Biology 10:1627-41.
    Jokiel, P. L., and S. L. Coles. (1990) Response of Hawaiian and 
other Indo-Pacific reef corals to elevated temperatures associated with 
global warming. Coral Reefs 8:155-162.
    Kenyon, J. C. and R. E. Brainard. (2006) Second Recorded Episode of 
Mass Coral Bleaching in the Northwestern Hawaiian Islands. Atoll Res. 
Bull. 543:505-523.
    Kuffner, I. B., A. J. Andersson, P. L. Jokiel, K. S. Rodgers, and 
F. T. MacKenzie. (2008) Decreased abundance of crustose coralline algae 
due to ocean acidification. Nature Geosciences 11:114-117.
    Little, A. F., M. J. H. van Oppen, and B. L. Willis. (20040. 
Flexibility to algal endosymbioses shapes growth in reef corals. 
Science 304:1492-1494.
    Marubini, F., and J. J. Atkinson. (1999). Effects of lowered pH and 
elevated nitrate on coral calcification. Marine Ecology progress Series 
188:117-121.
    McClanahan, T., N. Polumin, and T. Done. (2002). Ecological States 
and the resilience of coral reefs. Conservation Ecology 6(2):18.
    Middlebrook, R., O. Hoegh-Guldberg, and W. Leggat. (2008). The 
effect of thermal history on the susceptibility of reef-building corals 
to thermal stress. Journal of Experimental Biology 211:1050-1056.
    Ries, J. B., S. Stanley, and L. A. Hardie. (2006). Scleractinian 
corals produce calcite, and grow more slowly, in artifical Cretaceous 
seawater. Geology 34:525-528.
    Shea, E. L., G. Dolcemascolo, C. L. Anderson, A. Barnston, C. P. 
Guard, M. P. Hamnett, S. T. Kubota, N. Lewis, J. Loschnigg, and G. 
Meehl. (2001). Preparing for a Changing Climate: The Potential 
Consequences of Climate Variability and Change, Pacific Islands. Pub. 
East-West Center, Honolulu, HI. ISBN: 0-86638-197-X.
    Stat, M., and R. D. Gates (2008). Vectored introductions of marine 
endosymbiotic dinoflagellates into Hawai'i. Biological Invasions 
10(4):579-583.
    Van Oppen, M. J. H., and R. D Gates. (2006) Conservation genetics 
and the resilience of reef-building corals. Molecular Ecology.
    Work, T. M., and R. A. Rameyer. (2001). Evaluating Coral Health in 
Hawai'i. U.S. Geological Survey, National Wildlife Health Center, 
Hawai'i Field Station, 42 pp.
    Work , T. M., S. L. Coles, and R. A. Rameyer. (2002) French 
Frigates Shoals Reef Health Survey. U. S. Geological Survey, National 
Wildlife Health Center, Hawai'i field Station, 25 pp.

    The Chairman. I wish to assure all witnesses that your 
prepared statements will all be made part of the record, and 
other exhibits that you may have. We will study them when we 
get back.
    Our next witness is the Professor Emeritus, Department of 
Oceanography, School of Ocean and Earth Science and Technology 
at the University of Hawai`i, Dr. Fred T. Mackenzie.
    Dr. Mackenzie?

     STATEMENT OF FRED T. MACKENZIE, Ph.D., DEPARTMENT OF 
OCEANOGRAPHY, SCHOOL OF OCEAN AND EARTH SCIENCE AND TECHNOLOGY, 
                 UNIVERSITY OF HAWAI`I AT MANOA

    Dr. Mackenzie. Thank you, Senator Inouye.
    Senator Inouye, ladies and gentlemen, I want to thank you 
very much, a mahalo, for giving me the opportunity to address 
the Subcommittee.
    As you all know, just very recently the Intergovernmental 
Panel on Climate Change came out with their 2007 report on the 
physical science of climate change, but also with two volumes 
on adaptation and mitigation. All volumes were about the same 
size, 800 pages each.
    What I would like to do today is to show you some recent 
findings relevant to global warming and the Pacific Region, in 
terms of climate impacts that were not in the recent IPCC 
science report, and have come forward within the last couple of 
years.
    So the Intergovernmental Panel on Climate Change produced 
their last climate change science report in 2007. However, 
research was excluded from the 2007 document if it were 
controversial, not fully quantified, or not yet incorporated 
into models. Papers published after 2005 could not be used. 
Now, this is very important, the importance is shown below.
    Of importance to any discussion of Pacific Region climate 
impacts are the post-2005 observations. Land and ocean surface 
temperatures have risen relatively rapidly, just in this 
century. Global climate models had assumed that ice sheets 
would melt slowly in response to increased warmth. What really 
happens is that ice sheets fracture as they melt, and they 
allow water to penetrate rapidly toward the bottom of the 
sheet, with the result that the ice sheet surges and breaks up.
    The rate of ice loss in Greenland has more than tripled, 
just in this century, and there has been rapid loss of sea ice 
around Antarctica, and mass loss of ice in West Antarctica.
    A few other post-2005 observations are that: (1) global sea 
is rising about 50 percent faster in the early 21st century 
than in the recent past decades. This may be a sign of 
accelerated sea level rise.
    Based on recent predictions, sea level rise in 2100 is 
probably going to be about 1 meter under a business-as-usual 
emissions scenario. (2) Interestingly enough, it appears that 
the Gulf Stream has slowed about 30 percent between 1997 and 
2004. This Stream transports heat to high latitudes in the 
North Atlantic, and its slowing would have major climatic 
implications.
    (3) Arctic sea ice has decreased 15 percent just in this 
half-decade. In 2007, there was a record decrease in the area 
of sea ice, and the Northwest Passage was open for the first 
time in centuries.
    (4) The North Pacific Region around Hawaii, of relatively 
low productivity and nutrient-deficient surface waters, has 
expanded to the East as the surface water, ocean water has 
warmed, with poorly known consequences for pelagic fishes, like 
our tuna fisheries.
    (5) In certain regions of the ocean, the strength of the 
oceanic sink of anthropogenic carbon dioxide is weakening, as 
the partial pressure difference of carbon dioxide between the 
atmosphere and the ocean decreases. The oceans are the major 
reservoir besides terrestrial plants on land for uptake of 
anthropogenic carbon dioxide, and that reservoir, that sink, is 
weakening, in terms of taking up the carbon dioxide.
    Now, I would like to turn to regional projections of 
climate change variables on into this century. They're based 
mainly on climate models, and although these models are much 
improved, they are still not as robust as the global 
projections.
    Large deviations among models make regional estimates 
across the Pacific Region uncertain. However, the following 
diagrams that I'll show you for precipitation--temperature, 
precipitation, and sea level projections for this Century, for 
the Pacific Region, are based on the U.K.'s Hadley Centre for 
Climate Prediction and Research Model, HADCM2 General 
Circulation Model. After this, I will make a brief comment on 
storminess, and along with Dr. Leong, I will have something to 
say about ocean acidification.
    First, temperature--the 2007 global mean annual carbon 
dioxide concentration of 380 parts per million globally, and at 
Mauna Lau at present, 385 parts per million, is higher today 
than it has been in the past more than 600,000 years. And this 
is due to fossil fuel burning and land use changes.
    The global mean surface temperature has risen nearly 1 
degree centigrade since the 18th century. The global mean 
temperature anomaly between just the 5 years of 2000 and 2005, 
was about a half a degree centigrade. And that anomaly in the 
high latitudes of the Northern hemisphere was a whopping 2 
degrees centigrade. You wonder why Greenland is melting! You 
wonder why the permafrost is melting! This is the reason, it's 
getting warm in the high latitude of the North Atlantic.
    The 2007 IPCC science report concluded that the probability 
that the warming is caused by natural climatic processes alone 
is less than 5 percent. Most of the observed increase in global 
average temperatures since the mid-20th century is very likely 
due to the observed increase in anthropogenic greenhouse gas 
concentrations.
    I apologize to you, these maps do not show up as good as 
they do on the PC, but this one shows regional surface 
temperature changes between the end of the 20th century, and 
the end of the 21st century for the Pacific Region. Hawaii will 
be two to three, and probably 3 degrees centigrade warmer at 
the end of this century in a business-as-usual scenario of 
fossil fuel emissions. Note, importantly, the seasonal and 
geographical variability in the temperature changes. The real 
red harsh colors mean, are hotter, the yellows are not as hot.
    This shows the projections for Pacific rRgion changes in 
precipitation between the end of the 20th Century and the end 
of the 21st. Hawaii may be wetter, Hawaii may be drier--this 
will all depend on how the elevation of the trade wind 
inversion above Hawaii changes.
    If the inversion decreases in elevation, Hawaii will become 
drier, and that's the anticipation. If it increases in 
elevation, Hawaii will become wetter. Once more, I want you to 
note, the big variability seasonally, and geographically, in 
precipitation. The blues, very wet, the reddish color in here 
and here, dry.
    This slide shows the Pacific Region projections of sea 
level rise for two scenarios--late 20th to mid-21st century, 
late 20th to the end of this century. And you can see, from 
just this frame, that Hawaii under a business-as-usual, fossil 
fuel-emissions scenario, it's project to have at least 40 
centimetered high sea level in the latter part of this century.
    But, because of our recent knowledge on the rate of ocean 
thermal expansion, the rate of the melting of mountain and 
valley glaciers, and--and most importantly--the rate that the 
Greenland Ice Sheet is melting, we are now predicting a 1 meter 
rise in sea level by the year 2100.
    And just within the week, the National Research Council's 
Transportation Board has released a report demonstrating how 
vulnerable our transportation system will be to that 1 meter 
rise, including Hawaii.
    I live in Hawaii Kai--I drive Kalanianaole Highway. With a 
1 meter rise in sea level, and any kind of small storm surge, 
that highway will be under water, considerably, with a 1 meter 
rise in sea level.
    This slide shows what Waikiki and environs would look like 
with a 1 meter rise in sea level.
    My own personal feeling is that we in the state need to 
prepare for the possibility of a 1 meter rise in sea level. We 
will have to prepare by adaptation, since Hawaii does not emit 
much carbon dioxide into the atmosphere, mitigation is not 
going to play a big role.
    Storminess--this has been a big problem, it's still a 
problem today. There's still considerable uncertainty 
concerning how storm and hurricane frequency and intensity will 
change for the Pacific Region in a warmer world. Multi-model 
ensembles do not give a clear picture of how storms in the 
Pacific Region will be affected by temperature change, and 
water--hydrological--change.
    The Hadley Model projects increased storminess for the 
Hawaiian Islands, as well as the Federated States of 
Micronesia, and the Republic of the Marshall Islands. 
Storminess is projected to decrease for the region around Fiji, 
and the French Polynesian Islands.
    However, and very importantly, to date there is no rigorous 
observational proof that there is a trend in the intensity or 
frequency of hurricanes in the Atlantic or Pacific. Inter-
annual, El Nino/La Nina, and inter-decadal Pacific and Atlantic 
natural climate phenomena, I think, are masking whatever 
influence global climate change is having on storms, at the 
moment.
    Ocean acidification--and Dr. Leong went through this in 
quite detail, but I think it's worth emphasizing, because this 
is a very serious issue for us. Ocean acidification is simply 
due to emissions of carbon dioxide to the atmosphere, because 
of fossil fuel combustion, and land use changes. And their 
partial absorption in surface waters--this is a major 
environmental problem today. The observational record of 
surface ocean pH, measure of acidity, and model calculations--
those done on my own laboratory--show that since the 18th 
Century, the oceans have become more acidic.
    Accompanying the increase in acidity, is a decline in the 
carbonate saturation state of the world's surface oceans, with 
respect to all carbonate minerals. And thus, this makes it much 
more difficult for organisms to calcify.
    Under a business-as-usual emissions scenario, in the year 
2100, surface water pH could decrease to 7.85--its pristine, 
pre-industrial level was 8.1, 8.2. This will be accompanied by 
a 30 percent decrease in carbonate saturation state. Obviously, 
these decreases would very likely affect the calcification 
rates of both benthic coral and algae corals, pelagic flora, 
calcifying organisms--and be accompanied, and this is important 
by major changes in marine ecosystem communities, their 
structure, and ability to recruit.
    Coastal ocean acidification will be especially detrimental 
to the coral reefs of Hawaii, and the rest of the Pacific 
Region. Only 50 years from now, much of the surface water that 
bathes Pacific reefs will be more warm, and more acidic, and 
hence marginal for vigorous reef growth.
    Unfortunately, the only way to resolve this problem is by 
the reduction of anthropogenic carbon dioxide emissions to the 
atmosphere. I cannot emphasize that more--no matter what the 
climate does in the future, as long as we put carbon dioxide 
into the atmosphere, the oceans will continue to acidify.
    Finally, I have a list of key concerns and needs for Hawaii 
and Pacific Island communities, I'm not going to go through 
these in detail, they're written out in both of the handouts we 
have. I would, however, like to end by looking at these two 
down here with diamond symbols on the slide.
    I feel now there is a need for a new Pacific Region 
assessment of climate variability and change, in light of 
improved models, and these improvements are going on every 
year--and particularly the observations of the last 10 years, 
which are not documented well in the 2007 report of the IPCC. I 
would like to see regional-based climate information services 
established in the Pacific Region, and to some extent this is 
going on, but not to the extent that I perceive. It could be 
handled by UH, it could be handled by NOAA, to provide climate 
services that bridge the gap between local weather, and global 
climate information for island communities, for the people. 
These services should include community educational resources, 
such as the one that I have given out here, and is available 
for all of you--on climate change, its variability, and the 
anticipated impacts and vulnerability and adaptation to climate 
change and rising sea level for the Pacific Region.
    I'd like to thank you for giving me the opportunity to 
address the Committee, I know I ran a little over time, my 
apologies. I look forward to your questions.
    [The prepared statement of Dr. Mackenzie follows:]

     Prepared Statement of Fred T. Mackenzie, Ph.D., Department of 
    Oceanography, School of Ocean and Earth Science and Technology, 
                     University of Hawai'i at Manoa
Introduction
    Good morning, Senator Inouye, Members of the Committee, ladies and 
gentlemen. Thank you for giving me the opportunity this morning to 
speak to you on global climate issues and how they might impact island 
communities. My name is Fred Mackenzie and I am an Emeritus Professor 
in the Department of Oceanography at the University of Hawai'i. My 
research is quite broad in scope but focuses on the behavior of the 
Earth's surface system of oceans, atmosphere, land, and sediments 
through geologic time and its future under the influence of humans, 
including the problems associated with greenhouse gas emissions to the 
atmosphere, global warming, and ocean acidification. I have been an 
academician for more than 45 years and published more than 250 
scholarly publications, including six books and nine edited volumes in 
ocean, Earth and environmental science. Today you have asked me to 
comment on how climate change might affect island communities and on 
our recent work developing climate and sustainability case studies for 
Pacific island resources that can be used to educate and inform the 
community, including local decisionmakers.
    Many of my comments are derived from the report of the Pacific 
Islands Regional Assessment Group, for which I served as a member, 
entitled Preparing for a Changing Climate. The Potential Consequences 
of Climate Variability and Change (Shea et al., 2001), and the case 
study Climate Change, Water Resources, and Sustainability in the 
Pacific Basin: Emphasis on O'ahu, Hawai'i and Majuro Atoll, Republic of 
the Marshall Islands (Guidry and Mackenzie, 2006). I and my colleagues 
have used these materials and my books Our Changing Planet: An 
Introduction to Earth System Science and Global Environmental Change 
(Mackenzie, 2003) and Carbon in the Geobiosphere--Earth's Outer Shell 
(Mackenzie and Lerman, 2006) to educate the public and students at all 
levels in Hawai'i and elsewhere about climate change and its impacts. 
We also have run an immersion course for native Hawaiian students and a 
course for the Myron B. Thompson Charter School in Hawai'i employing 
these texts and an interactive website as resource materials.
General Comments on Climate Change
    The science of climate change has been assessed in a series of four 
reports by the Intergovernmental Panel on Climate Change (IPCC), a body 
of 2500 scientists that, as you are aware, shared the 2007 Nobel Peace 
Prize for their work on distilling the scientific community's research 
on the physical and biogeochemical basis for climate change into 
authoritative reports. Similar sized volumes on mitigation and impacts, 
adaptation and vulnerability have accompanied the more recent science 
volumes. The panel's latest 2007 physical science report Climate Change 
2007: The Physical Science Basis (IPCC, 2007) includes a full chapter 
on regional climate projections that for temperature, precipitation, 
and extreme weather projections are very similar to the Third 
Assessment Report (TAR) of the IPCC in 2001, as are the global climate 
assessments and projections. The major difference between the TAR and 
the 2007 report is that generally the projections have a higher level 
of confidence due to a larger number of simulations, improved models, a 
better understanding of model deficiencies, and improved detailed 
analyses of the results. It should be kept in mind that the 
distillation of the science of climate change by the IPCC in their 2007 
report only dealt with findings up until the year 2005. More recent 
findings from 2005-2007 studies are included in this testimony. Also it 
is still very difficult to take the information from the IPCC physical 
science report and use it to predict the future of regional and short-
lived annual events, like day-long high sea levels and floods, or even 
inter-annual (El Nino/La Nina) or decadal (North Atlantic and Pacific 
Decadal Oscillations) climate changes and their effects on 
precipitation, sea level, and hurricane frequency or intensity.
    At its most basic level, the balance between incoming solar 
radiation and outgoing infrared heat radiation determines Earth's 
climate. The absorption of the outgoing Earth radiation by atmospheric 
greenhouse gases of methane (CH<INF>4</INF>), nitrous oxide 
(N<INF>2</INF>O), and especially carbon dioxide (CO<INF>2</INF>) and 
the consequent heating of the lower atmosphere are what constitute the 
well-recognized ``greenhouse effect''. It should be kept in mind that 
water vapor (H<INF>2</INF>O) is the most potent greenhouse gas. The 
greenhouse gases have for most of planetary history resided in our 
atmosphere and by trapping outgoing Earth radiation have maintained the 
Earth at a temperature amenable to life. Thus, there has always been a 
greenhouse effect, but humans by adding greenhouse gases to the 
atmosphere are increasing the strength of the greenhouse effect. The 
Earth without greenhouse gases in the atmosphere would be -18 +C, 33 +C 
colder than the late pre-industrial global mean temperature of 15 +C. 
We have had an ``enhanced greenhouse effect'' operating since at least 
the beginning of the industrial era.
    It is well known and documented that the greenhouse gases of carbon 
dioxide (CO<INF>2</INF>), methane CH<INF>4</INF>), nitrous oxide 
(N<INF>2</INF>O), and chlorofluorocarbons (CFCs) have increased 
markedly in the atmosphere due to human activities. The global increase 
of atmospheric carbon dioxide from 1750 to 2007 has been about 36 
percent, from 280 ppm (parts per million) to 382 ppm globally and 385 
ppm at the Mauna Loa Observatory on the Big Island of Hawai'i. 
Atmospheric carbon dioxide levels are higher today than they have been 
in more than 600,000 years. The global increases in carbon dioxide 
concentration are mainly due to fossil fuel use and land use changes. 
The increases of methane from 715 to 1774 ppb (parts per billion) and 
nitrous oxide from 270 to 320 ppb are primarily due to agriculture. The 
concentrations of the potent synthetic halogenated greenhouse gases, 
like CFC-12, have risen from zero to hundreds of ppt (parts per 
trillion) concentrations. For example, CFC-12 has risen from zero to 
538 ppt. This rise is due to industrial activities and use of the 
compound as a coolant in refrigeration and air conditioning units. 
Another greenhouse gas, tropospheric ozone (O<INF>3</INF>) (not to be 
confused with stratospheric ozone), is formed from reaction of 
anthropogenic sources of nitrogen oxides and volatile organic compounds 
in the atmosphere derived from the burning of fossil fuels and biomass. 
The 1987 Montreal Protocol and its amendments have had a significant 
effect on slowing the rise of the chlorofluorocarbons in the 
atmosphere, but other halogenated compounds that have replaced the 
chlorofluorocarbons are rising in concentration in the atmosphere. With 
the well-documented rise in the concentrations of the greenhouse gases 
in the atmosphere, one would anticipate an increase in global 
temperatures. In addition, the anthropogenic greenhouse gases persist 
in the atmosphere for years to decades to centuries implying impacts on 
the climate far into the future.
    Natural and anthropogenic micrometer-sized aerosol particles in the 
atmosphere also affect climate directly or indirectly. In general, the 
aerosols in the lower atmosphere are removed on time scales of days to 
weeks and their climatic impacts are mainly that of cooling, 
particularly on a regional scale. The most notable of the aerosol 
compounds is that of sulfate (SO<INF>4</INF>) aerosol which may affect 
climate directly by reflecting sunlight back toward space or indirectly 
by acting as cloud condensation nuclei (CCN) and leading to cloud 
formation, the type and distribution of which affect climate. For 
example, the eruption of Mt. Pinatubo in the Philippines in 1991 that 
spewed sulfur compounds high into the upper atmosphere led to a cooling 
of the planet on a time scale of several years of about 0.5 +C. The 
burning of fossil fuels, particularly coal, generates sulfur gases that 
in the atmosphere are converted to sulfate aerosols and the cooling and 
cloud formation effects of these particles are considered in present 
climate models.
    Global dimming is the gradual reduction in the amount of direct 
solar irradiance at the Earth's surface that has been observed for 
several decades after the start of systematic measurements in the 
1950s. It appears to be caused by air pollution and the increase in 
particulates such as sulfur aerosols in the atmosphere due to human 
activities. The effect varies geographically. Worldwide it has been 
estimated to have resulted in a 4 percent reduction in irradiance 
between 1960 and 1990. The trend appears to have been reversed during 
the past decade, as the lower atmosphere has become less polluted in 
some regions. The dimming has affected the water cycle by reducing 
evaporation and likely was the cause of droughts in some areas. Dimming 
also creates a cooling effect that may have partially masked the 
enhanced greenhouse effect.
    The sun's output of solar energy also affects climate. In actual 
fact, during the past four billion years, the sun's luminosity has 
increased about 30 percent. More germane to the present global warming 
issue is that during periods of high sunspot activity, the Earth 
receives slightly more solar radiation at the top of Earth's 
atmosphere; the converse is true at times of low sunspot activity. The 
cool period of the Little Ice Age of 1350-1850 was probably due in part 
to a decrease in the amount of solar radiation received from the sun at 
the top of the Earth's atmosphere However, for the period 1750 to 2005, 
it appears that the sun's forcing on climate has only been about + 0.12 
(0.06-0.30) W m<SUP>-2</SUP> out of the total net anthropogenic forcing 
of +1.6 (0.6-2.4) W m<SUP>-2</SUP>. The global average radiative 
forcings on climate of the various major factors involved in climate 
change from 1750-2005 are shown in 
Figure 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Global average radiative forcing estimates (RF) and 
ranges in 2005 since 1750 for greenhouse gases and other agents and 
mechanisms (IPCC, 2007).

    The first report of the IPCC in 1990 suggested that the warming of 
0.3 +C to 0.6 +C during the twentieth century was reasonably consistent 
with projections from the climate models in operation at the time but 
also within the ballpark of natural climate variability. The 
attribution of the warming to human or natural causes was not 
definitive at that time. By 2007, the IPCC stated that there is a very 
high confidence that ``the global average net effect of human 
activities from 1750 to 2005 has been one of warming, with a radiative 
forcing of +1.6 (0.6-2.4) W m<SUP>-2</SUP> ''. This climatic forcing 
has led to a nearly 1 +C rise in temperature since 1750. This 
temperature change is remarkably close to that predicted for a climate 
system that has a climate sensitivity response to increasing greenhouse 
gas concentrations of 2-3 +C (best climate sensitivity estimate is 2.8 
+C) for a doubling of effective atmospheric carbon dioxide 
concentration over its 1850s concentration of 280 ppm. In addition, the 
IPCC concluded that the probability that the warming is caused by 
natural climatic processes alone is less than 5 percent. Most (>50 
percent) of the observed increase in globally averaged temperatures 
since the mid-twentieth century is very likely (confidence level >90 
percent) due to the observed increase in anthropogenic greenhouse 
concentrations (IPCC, 2007).
Recent Findings Relevant to Global Warming
    We should bear in mind in the material discussed in later sections 
that the IPCC has a very rigorous review process. However, research was 
excluded from the 2007 document if it were controversial, not fully 
quantified, or not yet incorporated into models. Furthermore, no papers 
published after 2005 could be discussed in the report.
    Positive feedbacks to the rate of atmospheric greenhouse gas 
accumulations and climate and ``tipping points'' (a point at which the 
climate system and biogeochemistry suddenly switch from one mode to 
another) were not always included in the IPCC 2007 chapter discussions. 
Of importance are the post-2005 observations that:

        1. Land and ocean surface temperatures have risen relatively 
        rapidly in the early twenty-first century (Figure 2). Ocean 
        temperatures down to 3000 meters are also on the rise.

        2. Current climate models assume that ice sheets will melt 
        slowly in response to increased warmth. Recent work shows that 
        ice sheets fracture as they melt, allowing water to penetrate 
        rapidly toward the bottom of the sheet with the result that the 
        ice sheet surges and breaks up. The rate of ice loss in 
        Greenland has more than tripled in this century (Velicogna and 
        Wahr, 2006) and there has been rapid loss of sea ice around 
        Antarctica and mass loss of ice in West Antarctica. If the 
        Greenland ice sheet melted completely, this would lead to a 6-7 
        meter rise in sea level. The Larsen B ice shelf collapsed in 
        2005. The melting of the West Antarctic ice sheet would add 5-6 
        meters of sea level rise.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Figure 2. Global land-ocean anomaly for 1880 to 2005 and the 2001-
2005 mean surface temperature anomaly. In just the latter period of 
time, the anomaly was 0.54 +C and of more importance is the fact that 
the anomaly over the high latitude of the Northern Hemisphere was up to 
2.1 +C. It is this abnormal heating that is the cause of the warming at 
high latitudes of surface seawater and the melting of the Greenland ice 
sheet and the permafrost.

        3. Global sea level is rising about 50 percent faster in the 
        early twenty-first century than predicted by the IPCC in their 
        2001 report, perhaps the first sign of accelerated sea level 
        rise. Average rates of sea level rise during the last several 
        decades were about 1.8<plus-minus>0.5 mm/yr, with a larger rate 
        of increase during the most recent decade of 3.1<plus-minus>0.7 
        mm/yr. However, the IPCC 2007 report in their worse case 
        scenario for global sea level rise reduced their sea level rise 
        estimates from 88 to 59 centimeters for the period 2000 to 
        2100, but the new observational findings of this century were 
        not incorporated in the models used in the IPCC 2007 report.

        4. It appears that the Gulf Stream has slowed about 30 percent 
        during the period 1957-2004. This is a crucial current in terms 
        of transporting heat to high latitudes in the North Atlantic 
        and its slowing would have major climatic implications and is a 
        key aspect of models of past climatic change and tipping 
        points.

        5. The positive feedback of the effect of rising temperatures 
        on the release of carbon dioxide and methane from soils, 
        permafrost, and the seabed were not considered in detail in the 
        2007 IPCC report. The permafrost is melting rapidly in western 
        Canada and Siberia. Indeed, standing bodies of water are 
        forming in the Siberian permafrost with high methane 
        concentrations.

        6. Arctic sea ice area has decreased about 15 percent since 
        October 2005 (Nghiem et al., 2006) and in 2007 there was a 
        record decrease in the area of sea ice and the Northwest 
        Passage was opened for the first time in centuries.

        7. Higher rates of precipitation are now observed at mid to 
        high latitudes and lower rates in the tropics and subtropics, 
        with corresponding changes in surface seawater salinities.

        8. The North Pacific region of relatively low productivity and 
        nutrient deficient surface waters has expanded to the east as 
        the surface ocean has warmed with poorly known consequences for 
        pelagic fishes, like tuna.

        9. Ocean surface water pH has fallen 0.1 pH unit (``ocean 
        acidification'') (Orr et al., 2005; Andersson et al., 2005) 
        (the pH scale is logarithmic so this represents a significant 
        increase in hydrogen ion concentration) since 1700, and the 
        projected rate of change in ocean surface water pH will 
        increase on into this century and beyond unless anthropogenic 
        emissions of carbon dioxide to the atmosphere are curtailed. 
        Invasion of carbon dioxide into the deeper ocean has resulted 
        in the shoaling of the depth at which the calcareous skeletons 
        of sinking pelagic organisms can be dissolved (Feely et al., 
        2004).

        10. In certain regions of the oceans, the strength of the 
        oceanic sink of anthropogenic carbon dioxide is weakening as 
        the partial pressure difference of carbon dioxide between the 
        atmosphere and the ocean decreases.
The Pacific Region Temperature, Precipitation, Sea Level and Storm 
        Projections
    Regional projections of climate change variables on into this 
century, based mainly on climate models, although much improved, are 
still not as robust as global projections. Large deviations among 
models make regional estimates across the Pacific region uncertain. 
However, the following diagrams show the temperature, precipitation, 
and sea level projections for this century for the Pacific region based 
on the United Kingdom's Hadley Centre for Climate Prediction and 
Research HADCM2 General Circulation Model (GCM). Notice that Australia 
and the Pacific tropics and subtropics are very likely to warm the 
most, with temperatures in Hawai'i in the late twenty-first century 
being 2-3 +C higher than at the beginning of this century. There are 
likely to be strong seasonal and geographical changes in temperature 
for the Pacific region induced by global warming.
    Annual rainfall is likely to increase in the equatorial belt of the 
Pacific on into this century and likely to decrease over southwestern 
Pacific islands, with Hawai'i perhaps being wetter or drier. The latter 
is more likely. Whether Hawai'i is wetter or drier in a globally warmer 
word is mainly a function of the behavior of the trade wind inversion 
above which rainfall decreases sharply.
    Sea level using the HADCM2 GCM is projected around Hawai'i to be 
about 40 centimeters higher in the late twenty-first century than at 
the beginning of this century. However, the HADCM2 model projections do 
not include the melting of the ice sheets, and it is likely because of 
ice sheet melting, warming of surface waters, and acceleration of the 
melting of valley and mountain glaciers that global mean sea level 
could reach a level one meter higher than in the year 2000 by the end 
of the twenty-first century. As with precipitation, the rise in sea 
level is not likely to be uniform throughout the Pacific region but 
geographically variable making regional estimates uncertain. Notice, 
however, that with a one-meter rise in sea level, areas like Waikiki in 
O'ahu, Hawai'i (a high Pacific island) will be drowned. New marshes 
would be formed and salt water during storms with inordinate daily high 
sea levels would be prevalent in sewer drains and an important 
component of the flooding. Beach erosion would intensify and the 
distribution of beach sand about the Hawaiian Islands would change. 
Homes close to the present shoreline would be more susceptible to 
flooding, erosion and damage. For low-lying Pacific islands like Majuro 
in the Republic of the Marshall Islands, a one-meter rise in sea level 
would have devastating consequences. For example, for the Laura atoll 
region of the Marshall Islands, the shoreline would retreat by about 
150 meters on each coast, which would result in a loss of more than 25 
percent of the atoll's surface area. In addition, approximately 50 
percent of the volume of Laura's freshwater lens would be salted out 
and unusable as a fresh water resource (Miller and Mackenzie, 1988; 
Holthus et al., 1992). The damage due to storms and resulting surges 
would be amplified considerably by the rise in sea level.
    There is still considerable uncertainty concerning how storm and 
hurricane frequency and intensity will change for the Pacific region in 
a warmer world. Multi-model ensembles do not give a clear picture of 
how storminess in the Pacific region will be affected by temperature 
and hydrologic changes. It is likely with global warming that the warm 
water (Pacific warm water pool) and intense atmospheric convection that 
are normally confined to the western equatorial Pacific will move 
eastward into regions that presently only experience warm waters during 
El Nino events. In part as a result of this, the HADCM2 model projects 
increased storminess in the Hawaiian Islands as well the Federated 
States of Micronesia and the Republic of the Marshall Islands. 
Storminess is projected to decrease for the Pacific region that 
includes Fiji and the French Polynesian Islands. It should be kept in 
mind that these findings are not as robust as we would like, but we do 
know that the patterns of storms will change in the Pacific region due 
to global warming.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Ocean Acidification
    The modern environmental problem of ocean acidification due to 
emissions of carbon dioxide to the atmosphere because of fossil fuel 
combustion and land-use changes and their partial absorption in surface 
ocean waters has been discussed in the literature since at least the 
early 1970s (Broecker et al., 1972). More recently the observational 
record of surface ocean water pH and model calculations show that 
surface water pH has declined about 0.1 pH unit since the 18th century 
(Caldeira, et al., 2005; Orr et al., 2005; Andersson, et al., 2005). 
Accompanying this decline in pH is a decline in the carbonate 
saturation state of the world's surface ocean waters with respect to 
all carbonate minerals. Model calculations show that under a Business 
as Usual emissions scenario (Intergovernmental Panel on Climate Change 
IS92a), surface water pH could reach 7.85 by the year 2100 accompanied 
by a 30 percent decrease in carbonate saturation state (Figure 3). Such 
a decrease would very likely affect the calcification rates of both 
benthic calcifying organisms, like corals and coralline algae, and 
pelagic calcifiers, such as foraminifera, pteropods, and 
Coccolithophoridae, accompanied by other major changes in marine 
ecosystem communities, structure and recruitment. Coastal ocean 
acidification will be especially detrimental to the coral reefs of 
Hawaii and the rest of the Pacific region. The only way this problem 
can be alleviated is by reduction of anthropogenic carbon dioxide 
emissions to the atmosphere.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3. pH and carbonate ion concentrations, a measure of 
carbonate saturation state, as predicted under various greenhouse gas 
emissions scenarios. Only radical innovation measures will prevent the 
oceans from becoming more acidic.
Conclusions and Recommendations
    Future global climate change and the resultant impacts to water 
resources are very serious problems for Pacific island communities. For 
small low-lying island communities like Majuro and large volcanic 
islands like the southern Hawaiian Islands, water is a most precious 
natural resource. Majuro and Hawai'i represent the end points for two 
different types of Pacific island communities. Majuro in the Republic 
of the Marshall Islands is a small low-lying atoll two to three meters 
above sea level. The impact of projected sea level rise on Majuro's 
water resources is potentially severe. The low-lying atoll lacks 
groundwater resources for its freshwater needs and relies primarily on 
rainwater catchment systems for freshwater supply. The groundwater 
reservoir does provide a freshwater source for times when rainfall is 
low and thus rainfall catchment is reduced. Rising sea level, 
exacerbated by storm activities, all due to climate change, will reduce 
Majuro's volume of fresh groundwater and that of other low-lying 
Pacific islands. In addition to climate change, rising population will 
place additional pressures on the groundwater resource. To undertake 
shoreline protection measures for low-lying Pacific islands is costly 
but will be necessary to protect its groundwater and land area 
resources from rising sea level and storm events. Desalinization is 
another measure that could be implemented to support, at least in part, 
present and future freshwater needs of both high- and low-lying Pacific 
islands, albeit at considerable cost.
    Compared to the low-lying atolls and island communities like 
Majuro, the island of O'ahu is a relatively large volcanic island with 
a peak elevation of over 1200 meters (3,936 feet) and a much larger 
groundwater resource. This groundwater resource already supplies O'ahu 
with 92 percent of freshwater use. The development and use of the 
groundwater system have reached the point where the sustainability of 
current and future water usage rates is in doubt. Even if future 
climate change were to lead to increased precipitation for O'ahu, the 
elevated temperature, via its influence on evaporation rate, could 
result in a reduction in groundwater recharge rates and thus a decrease 
in the groundwater reservoir size. Add to this the increased 
groundwater usage due to population growth and also the background of 
future sea level rise and O'ahu's groundwater resource could be 
significantly taxed. The future rise in sea level could also threaten 
the economy of Hawai'i by negatively impacting vital areas (e.g., 
airport runway and Waikiki) in close proximity to shorelines. The rise 
in sea level could also result in the flow of salt water from the ocean 
to land via the storm drainage system that during storm events can 
result in flood damage to areas such as the Mapunapuna industrial 
district.
    A summary of the some key concerns and needs for Hawai'i and 
Pacific island communities follows:

  <bullet> The adaptive capability of the human systems is generally 
        low for small islands and their vulnerability is high; small 
        island communities are likely to be among those regions most 
        seriously impacted by climate change.

  <bullet> The projected global sea level rise and its geographical 
        variability in this century will cause enhanced coastal 
        erosion, loss of land and property, dislocation of people, 
        increase risk from storm surges, reduced resilience of coastal 
        ecosystems, saltwater intrusion into freshwater resources, and 
        high resource costs to respond to and adapt to these changes.

  <bullet> Islands with very limited water supplies are highly 
        vulnerable to the impacts of climate change on their water 
        balance.

  <bullet> Coral reefs are likely to be negatively affected by 
        bleaching due to increasing temperature and by reduced 
        calcification rates due to higher carbon dioxide levels and 
        consequent ocean acidification; mangroves, sea grass beds, and 
        other coastal ecosystems and their associated biodiversity are 
        likely to be adversely affected by rising temperatures, 
        accelerated sea level rise, and increasing acidity of seawater.

  <bullet> Declines in the water quality and pH and increasing 
        temperatures of coastal ecosystems could negatively impact reef 
        fish and threaten reef fisheries, those who earn their 
        livelihoods from reef fisheries, and those who rely on the 
        fisheries as a significant food source.

  <bullet> Limited arable land and soil salinization make agricultural 
        practices for small islands, both for domestic food production 
        and cash crop exports, highly vulnerable to climate change.

  <bullet> Tourism, an important source of income and foreign exchange 
        for many islands, likely would face severe disruption from 
        climate change and sea level rise.

  <bullet> Island communities will mainly have to adapt to climate 
        change and its impacts. Mitigation of greenhouse gas emissions 
        is important from a strategic and sustainability viewpoint but 
        will have little effect on rising atmospheric greenhouse gas 
        concentrations.

  <bullet> There is a need for a new Pacific regional assessment of 
        climate variability and change in light of improved models and 
        observations made since the last assessment of 2001.

  <bullet> Regional-based climate information services should be 
        established for the Pacific region, perhaps by the University 
        of Hawai'i or by NOAA, to provide climate services that bridge 
        the gap between local weather and global climate change 
        information for island communities. These services should 
        include community educational resources on climate change and 
        variability and on the anticipated impacts and vulnerability 
        and adaptation to climate change and rising sea level.

    Thank you for giving me the opportunity to address the Committee. I 
look forward to answering your questions.
Selected References
    Andersson, A. J., Mackenzie, F. T. and Lerman, A., 2005, Coastal 
ocean and carbonate systems in the high CO<INF>2</INF> world of the 
Anthropocene. American Journal of Science, v. 305, p. 875-918.
    Broecker, W. S., Y.-H. Li and T. H. Peng., 1972, Carbon dioxide--
man's unseen artifact. In: D. W. Hood (ed.), Impingement of Man on the 
Oceans, Wiley Interscience, New York, p. 387-324.
    Caldeira, K. and M. E. Wickett, 2005, Ocean model predictions of 
chemistry change from carbon dioxide emissions to the atmosphere and 
oceans. Journal of Geophysical Research (Oceans), v. 110, C09SO4, doi: 
10.1029/2004JC002671.
    Feely et al., 2004, Impact of anthropogenic CO<INF>2</INF> on the 
C<INF>a</INF>CO<INF>3</INF> system in the oceans. Science, v. 305, No. 
5862, p. 362-366.
    Grossman, W., F. T. Mackenzie and A. J. Andersson, 2007, in 
preparation.
    Guidry, M. W. and F. T. Mackenzie, 2006, Climate Change, Water 
Resources, and Sustainability in the Pacific Basin: Emphasis on O'ahu, 
Hawai'i and Majuro Atoll, Republic of the Marshall Islands, University 
of Hawai'i NOAA Hawai'i Sea Grant Publication, Honolulu, Hawai'i, 100 
pp.
    Hansen et al., 2006, Global temperature change. Proceedings of the 
National Academy of Sciences, v. 103, No. 38, p. 14288-14293.
    Holthus P., M. Crawford, C. Makroro and S. Sullivan, 1992, 
Vulnerability Assessment for Accelerated Sea Level Rise. Case Study: 
Majuro Atoll, Republic of the Marshall Islands. SPREP Reports and 
Studies Series No, 60, 107 pp.
    IPCC, 2001, Climate Change 2001. The Physical Science Basis. 
Cambridge University Press, Cambridge, United Kingdom, 881 pp.
    IPCC, 2007, Climate Change 2007: The Physical Science Basis. 
Cambridge University Press, Cambridge, United Kingdom, 996 pp.
    Mackenzie, F. T., 2003, Our Changing Planet--An Introduction to 
Earth System Science and Global Environmental Change. Prentice Hall, 
Pearson Education, Inc., Upper Saddle River, New Jersey, 580 pp.
    Mackenzie, F. T. and A. Lerman, 2006, Carbon in the Geobiosphere--
Earth's Outer Shell. Springer, Dordrecht, The Netherlands, 402 pp.
    Miller, D. L. R. and F. T. Mackenzie, 1988, Implications of climate 
change and associated sea level rise for atolls. Proceedings of the 6th 
International Coral Reef Symposium, Australia, v. 3, p. 519-522.
    Nghiem, et al., 2006, Depletion of perennial sea ice in the East 
Arctic Ocean. Geophysical Research Letters, 10.1029/2006GL027198.
    Orr, J. C. et al., 2005, Anthropogenic ocean acidification over the 
twenty-first century and its impact on calcifying organisms. Nature, v. 
437, p. 681-686.
    Shea et al., 2001, Preparing for a Changing Climate. The Potential 
Consequences of Climate Variability and Change. Report of the Pacific 
Islands Regional Assessment Group, East-West Center, Honolulu, Hawai'i, 
102 pp.
    Velicogna, I. and J. Wahr, 2006, Acceleration of Greenland ice mass 
loss in spring 2004. Nature, v. 443, p. 329-331.
    Visbeck, M., 2008, From climate assessment to climate services. 
Nature Geoscience, v. 1, No. 1, p. 2-3.

    The Chairman. On behalf of the Committee, I thank all of 
you for your testimony. It's a bit frightening. However, I 
should tell you that in the past several weeks, articles 
prepared supposedly by scientists with various degrees have 
been circulated and distributed among Members of Congress, and 
these articles suggest that we are giving too much credit to 
the greenhouse gases for what is happening. They're suggesting 
that what is happening is a natural phenomenon. They point to 
the Ice Age, and the fact that the oceans have been there for 4 
billion years.
    Yesterday on my way into Hawaii, flying, there was a 
documentary on the screen, I believe it was prepared by a 
British company, that showed the drying out of the 
Mediterranean caused by the two continents coming together. It 
showed this warm belt that goes underneath, by Alaska, and 
that's been affected.
    It suggested the importance of one-cell plankton which, if 
reduced, would affect all living organisms in the ocean.
    What are your thoughts on these articles? Because although 
they are not taking hold in the Congress, it does provide 
certain people with arguments to slow it down. And all of you 
have been suggesting that now is not the time to slow down.
    Do you have any thoughts about this? Yes, sir?
    Dr. Mackenzie. I have considerable thoughts on them. As you 
well know, there's a move out there amongst certain scientists, 
working for certain organizations, to come up with information 
to try to falsify the hypothesis of global warming, and that's 
the way science works--we try to destroy the hypothesis, we try 
to tear it apart. That's the way that scientific method works. 
And so, some of them are doing it, I think, fairly, they're 
doing it, but others, I do think have certain political or 
other motivations.
    Having said that, let me backtrack in geologic time, and 
come forward to today, because I think it will answer your 
question about what we've seen in the past--and the past has 
been great, why is the future so frightening, maybe? Through 
the last 600 million years of Earth's history, we have had 
changing atmospheric carbon dioxide concentrations. Indeed, 400 
million years ago, carbon dioxide concentrations in our 
atmosphere were 18 times the present pre-industrial level of 
280 parts per million.
    Coming closer to today, during the Cretaceous, at 100 
million years ago, those concentrations were 8 to 10 times 
higher. During both of those periods, the Earth was warmer.
    Now, between those periods, we had carbon dioxide 
concentrations that looked much like those of the pre-
industrial age--concentrations much like what we had before we 
came into this human anthropogenic scene. And at that time, one 
was the so-called Permian Triassic, we had big glaciers. Now we 
have big glaciers. So, we are in a relatively cold period of 
Earth's history.
    During that whole time, as atmospheric carbon dioxide 
concentrations were changing, oxygen concentrations were 
changing, and sea water chemistry was changing dramatically. 
But, these were very slow changes--they weren't changes that 
occurred on a scale of tens of years to hundreds of years. 
These were changes on a scale of 5 million, to 10 to 100 
million years.
    Coming close to the present, during this last great Ice 
Age, the Pleistocene glaciation developed 1.8 million years 
ago. Since then, we have seen a series of warm and cold stages. 
The last glacial maximum ended 18,000 years ago, and we are 
currently in an inter-glacial, a warming phase of those great 
inter-glacial warm/cold cycles, each lasting about 100 million 
years.
    Those cycles had nothing to do with the anthropogenic 
CO<INF>2</INF>. Those cycles were driven mainly by what is 
known as the Milankovitch Hypothesis, which is a hypothesis 
which shows how much more or less radiation the Earth receives 
as it moves about its sun, and its orbit about the sun changes 
with time. Even then, when the Milankovitch 4 scene changed, 
the carbon dioxide, methane, and nitrous oxide levels in the 
atmosphere also changed. So that, during the ice ages, carbon 
dioxide was very low--on 180 parts per million by volume, 
18,000 years ago. Methane was low, nitrous oxide was low. Going 
back to the last, but ultimate, inter-glaciation, the converse 
was true--carbon dioxide was about 280 parts per million by 
volume, almost like late pre-industrial age time, methane was 
high, and nitrous oxide was high.
    But during this whole--the record now, the ice core record, 
which is the observational data for what I've just said--goes 
back more than 600,000 years. And at no time during that period 
of time, did we have atmospheric carbon dioxide concentrations 
above 280 parts per million. That only started when humans 
began to influence the system in the 18th century.
    And so, the rise in CO<INF>2</INF> from the late 19th 
century, on up until today, is totally due to fossil fuel 
burning, and land use activity. And anyone that denies that is 
sadly mistaken.
    The same is true for all of the other anthropogenic gases. 
They have risen far above their pristine levels in the 
atmosphere.
    The Chairman. Do most of the scientists involved in these 
studies agree that the sea level in the next 50 years will rise 
about a meter?
    Dr. Mackenzie. I think up until the recent news that we 
received, most people would have believed the IPCC, which in 
their 2001 report under a business-as-usual scenario, the 
largest rise they anticipated at that time was on the order of 
88 centimeters--almost a meter. They have reduced that in their 
2007 report to 58 centimeters.
    However, that report does not take in the recent evidence 
of melting of our ice sheets--not just Greenland, but West 
Antarctica, too. And they're melting at increasing rates, the 
ocean is warming quickly, and part of the rise in sea level is 
due to the warming of the ocean and its volume increase, 
because of isothermal expansion.
    I'm a mountaineer by avocation, I've climbed all over the 
world, and I can tell you that most of the valley and mountain 
glaciers are melting very rapidly. And so, all of that water is 
going into the ocean. So now the presumptive idea is that we 
are probably--let me, let me phrase in the way the IPCC 2007 
phrases it, it is very likely we will see a 1 meter rise in sea 
level by the year 2100.
    The Chairman. Dr. Leong, Mr. Thomas, do you agree or 
disagree?
    Dr. Leong. This is not in my field, so I can't speak as 
expert, as Dr. Mackenzie does. But I do agree that we have to 
plan for that, that this might happen. And we have to plan for 
thermal warming, because our coral reefs will have, within the 
next 10 years, many episodes of coral bleaching.
    Mr. Thomas. Perhaps I can put this more on a policy level, 
in how we integrate our science with policymaking.
    As you know, NOAA is a science agency, and we have a very 
public purposes. And we take our sense of mission very 
seriously. And as part of science, we have to ensure that what 
we do is justifiable, is defensible, is scientifically 
significant, and more importantly, it's socio-economically 
significant.
    So, I'd like to follow up on Dr. Mackenzie's comments by 
not only reiterating what he said, but also in addition to the 
historical data--this is something that is really on a global 
scale. And research takes a long time--to really determine what 
is scientifically significant.
    We have 50 years, and counting, worth of data that backs up 
everything that Dr. Mackenzie has said. And, you know, to the 
point where NOAA--and, you know, Federal agencies are 
reluctant, at times, to say things very unequivocally, but NOAA 
has come out very publicly, and said unequivocally that warming 
of the climate system is unequivocal, and most of the observed 
increase in global average temperatures since the mid-20th 
century is very likely due to the observed increase in 
greenhouse gases caused by humans. I mean, that is a very clear 
statement we have from NOAA based on its research.
    But there are uncertainties, I mean, with that statement, 
there's still a lot of things that we don't know. And, you 
know, things like the rate of warming, including the abrupt and 
extreme changes, I think, which is what some of the scientists 
that you've heard are referring to, as well as regional climate 
variations and change.
    But with that, also, goes the fact that we have to create 
policies that require some mitigation and adaptation, but we 
don't really know what the effect of those strategies will be. 
Those things are still uncertain. But, I think from our 
standpoint, based on our understanding of our own data, as well 
as the data of many other scientists, that we state 
unequivocally that global warming is here.
    The Chairman. As you may have concluded, most Members of 
Congress, on a bipartisan basis, are becoming a bit more 
concerned, and a little fearful of what may happen to us. We 
have passed laws that will set certain standards and levels.
    However, a recent report suggests that the two major 
culprits of greenhouse gas emissions are China and the United 
States. Scientists suggest that even if the U.S. and the rest 
of the world should decide to do something about it, but if one 
major country the size of China continues business-as-usual, it 
would be an effort that might not pay a dividends.
    Do you agree?
    Dr. Mackenzie. If I understand the question correctly, 
you're implying that perhaps the United States may take action 
but China would just continue on, and what that--just our 
taking action--have impact, if China did not. Is that, 
generally, the--?
    The Chairman. Well, Congress is now considering laws that 
may be considered unfriendly, such as if products being shipped 
into the United States have been produced without consideration 
of carbon dioxide emissions, they will not be permitted to be 
sold in the U.S. And hopefully, by doing that, influence 
producers of products. But we have no idea whether they will 
work or not.
    Dr. Mackenzie. This worries me, and it worries me mostly 
from the standpoint that global warming is not a regional 
issue, it's not a national, single nation issue, it's a global 
issue.
    China is not the only country that's moving forward 
quickly, and unfortunately in their case, using mainly their 
coal resource to burn, but they are also, now, importing oil. 
And I believe either this year or--well, probably this year, if 
they haven't already, because the statistics are hard to get--
China has passed the United States in total emissions of 
CO<INF>2</INF> to the atmosphere.
    But China's not the only one. India is growing very 
rapidly, all of Southeast Asia. So, if I were, myself, were 
doing anything, I would rather see global action on the 
problem, global agreement on how we deal with all of this, 
rather than individual nations being punitive, or taking 
actions simply on their own for whatever reason.
    You know, there's a lot of talk about mitigation here, in 
Hawaii, but you know, mitigation is not going to do this 
problem, global warming, one bit, in terms of Hawaiian 
mitigation. I think it's great from a sustainability 
standpoint.
    The Chairman. That's why we're hoping that the Kyoto 
Protocol would be a good first step, but the U.S. has not 
adopted it, completely, you know.
    Dr. Mackenzie. I think the other issue there is we've got 
to reign in the deforestation, because that's 20 percent of the 
carbon dioxide emissions. So, while we're looking at the fossil 
fuel issue, and how we're going to deal with that globally, we 
also have to be looking at the deforestation issue, which is 
mainly in the developing world, and how we're going to deal 
with that in an equitable way.
    The Chairman. We're aware of that, and we are concerned. 
I'd like to thank all of you for your participation here, and 
we will be submitting, if we may, questions that we hope you 
can respond to.
    Dr. Leong. Thank you.
    Dr. Mackenzie. Well, thank you for the invitation.
    The Chairman. We could have had an informal gathering and 
just have discussions, but because of the severity of the 
problem, we decided to at least give it an official mantle and 
so that it would be on the record.
    And we do intend to do the right thing, but as you may be 
aware, there isn't a single scientist in the Congress of the 
United States. We have no idea what's happening, but we have to 
take your word, so your answers to our questions will be very 
important.
    Thank you very much.
    Dr. Mackenzie. Thank you.
    Mr. Thomas. Thank you.
    The Chairman. Our next panel consists of the Director of 
the Hawaii Natural Energy Institute, School of Ocean and Earth 
Science and Technology, University of Hawai`i, Manoa; Dr. 
Richard E. Rocheleau, Dr. Karl Kim, Professor and Chair, 
Department of Urban and Regional Planning, University of Hawaii 
at Manoa; and Dr. Goro Uehara, Professor, Department of 
Tropical Plant and Soil Sciences, University of Hawai`i at 
Manoa.

  STATEMENT OF RICHARD E. ROCHELEAU, Ph.D., DIRECTOR, HAWAII 
NATURAL ENERGY INSTITUTE, SCHOOL OF OCEAN AND EARTH SCIENCE AND 
           TECHNOLOGY, UNIVERSITY OF HAWAI`I AT MANOA

    Dr. Rocheleau. I am the Director of the Hawaii Natural 
Energy Institute at the School of Ocean and Earth Science and 
Technology at the University of Hawai`i.
    And I just wanted to take one moment to acknowledge my co-
author on this testimony, Dr. Terry Surles, who prior to 
joining the HNEI faculty was the Associate Lab Director in 
charge of Energy at the Livermore National Laboratory, and has 
served on the National Academies of Science Committee examining 
federally funded energy research programs.
    Our faculty at HNEI conducts research on many technologies 
in the areas of renewable energy and ocean resources, including 
hydrogen fuel cells, conversion of biomass to fuels, and high-
value products, seabed methane hydrates, photovoltaics, battery 
technology and microbial systems. We are also leading the UH 
effort to establish an ocean energy center in Hawaii.
    Support for this work comes from a variety of government 
and private sources, and HNEI operates a number of laboratories 
to conduct this work. And I just wanted to say, information on 
these specific projects is available on our website, but that 
wasn't the focus of my talk today.
    While I was asked to discuss our work related to clean 
energy technologies, I want to make a few comments about the 
relation between global climate change and energy. These 
largely derive from the IPCC report that many people have 
referred to. And then to give a few concrete examples of the 
magnitude of this issue, in regards to managing CO<INF>2</INF> 
by transforming our energy infrastructure, and finally, talk 
about HNEI's efforts to develop partnerships to accelerate the 
development and deployment of renewable energy technologies.
    We've heard this before, but at the most basic level, the 
balance between incoming solar radiation and outgoing infrared 
radiation determines the Earth's climate. And greenhouse gases, 
including CO<INF>2</INF>, do affect this balance whether 
naturally occurring or from man.
    The most recent Intergovernmental Panel on Climate Change 
is unequivocal in its conclusion that the Earth is warming, and 
attributes this to greenhouse gas concentrations in the 
atmosphere. And the most often-cited evidence is the increase 
in the CO<INF>2</INF> concentration from the pre-Industrial 
Revolution level of 280 parts per million to today's level of 
380.
    The concerns about global climate change, global warming 
and CO<INF>2</INF> emissions has been much more publicly 
visible and of interest since the Kyoto meeting in 1997. In 
spite of this increased awareness, the rate at which carbon 
dioxide is being released into the atmosphere continues to 
increase, from around 6.4 billion tons per year in the 1990s to 
over 7 billion tons per year in the 2000-2005 time frame.
    In fact, a report that just came out today from U.S. DOE, 
or at least a citation of a report, reported that power plant 
carbon emissions in the U.S. went up 3 percent between 2006 and 
2007. So, in spite of the awareness, not much is being done to 
reverse the trend.
    We just heard from a panel that talked about the 
implications of this, and I'll simply state that the bottom 
line is that the impact on island nations is likely to be 
significant, and some island nations may simply cease to exist 
if the sea level rises that are predicted do occur.
    The magnitude of this problem is daunting. I noted just a 
minute ago that we currently emit about, worldwide, about 7.2 
billion tons of carbon per year. To put this in perspective, I 
want to talk about the energy infrastructure changes that would 
need to be made just to displace one of those 7 gigatons.
    We would need to replace seven hundred 1,000-megawatt coal 
plants that are currently in operation today with coal plants 
that include carbon capture and geological storage. Neither of 
those technologies are available today.
    We will have to install 150 times the current world 
capacity in wind turbines, or replace 2 billion 30 miles per 
gallon efficiency cars with 60 miles per gallon. And that would 
only make a 1 gigaton, or a 15 percent reduction in our annual 
output.
    So, the next question is, what would we need to do to make 
a significant impact on global emissions? The IPCC targets 
immediate action in an attempt to limit carbon dioxide in the 
atmosphere to 550 ppm, twice the pre-industrial level, and more 
than 50 percent of what we have today. To meet this goal--
basically to reduce--we will have to reduce our carbon 
intensity, which is the carbon emissions per dollar of 
productivity, to approximately 10 percent of what it is today--
it's a huge reduction.
    To give you some idea of what this would require, we will 
have to generate 75 percent of all our electricity from non-
fossil sources, we will have to increase energy end-use 
efficiency by 1 percent per year, every year, and nearly double 
the efficiency of our electricity generation, and also increase 
average passenger car mileage up to 50 miles per gallon. Even 
then, we will need additional technological breakthroughs to 
get to the 10 percent carbon intensity level. So, the magnitude 
of the problem is huge.
    People talk about potential solutions, obvious ones are use 
less energy--helpful, it won't do it all by itself. Carbon 
sequestration--necessary, not yet available. And significant 
increases in renewable and nonfossil-based energy. And the 
numbers you just heard show how daunting that task is, but we 
basically need to try to make progress in all areas.
    So now I'm just going to discuss for a few minutes, 2 
minutes or so, remaining, some of the HNEI efforts.
    As we've already heard, Hawaii imports a majority of its 
energy, about--over 90 percent. Well, it's characterized by an 
unusually high dependence on oil for power generation. And this 
reliance on fossil fuel is juxtaposed against an abundance of 
renewable resources which could be used for energy. And so, our 
position is, you know, with this--and other people in the 
sdtate--with this array of renewable resources, and the 
opportunity for high-productivity energy crops in Hawaii, 
renewable electricity and bio-derived fuels offers great 
promise for Hawaii to reduce its dependence on fossil fuel, and 
for Hawaii to serve as a model to demonstrate the ability to do 
this for the rest of the Nation.
    As the Chair has already noted, this potential has 
attracted the attention of the Department of Energy, which 
recently signed an MOU with the state identifying 70 percent of 
our energy from renewable resources by 2030, as a goal, and the 
state has, itself, enacted renewable portfolio standards, 
targeting 20 percent of our electricity by renewables by 2020.
    Given today's energy system, and some of the difficulties, 
even the more modest goal is going to be a challenge. HNEI is 
committing its resources to developing partnerships which will 
help provide analysis and tools to help identify paths 
forward--ways to make the proper decisions to move forward, and 
to identify critical projects that can demonstrate the ability 
to integrate today's technologies into the grid. The ultimate 
goal is to use Hawaii as a model for high-penetration renewable 
energy generation. And I'm going to speak very briefly about 
two projects that have been underway and are continuing today.
    As documented in my written testimony where I summarize 
some of the energy technologies, there are a number of 
commercial and emerging technologies--wind, solar, ocean energy 
systems--that do offer the potential for large-scale 
penetration into our grid. However, these are inherently more 
variable and less dispatchable than conventional energy.
    The utilities, the operators, and planners will have to 
change the way they do business. HNEI has partnered with the 
local utility, with GE Global Research, with the state and with 
the U.S. Department of Energy to identify solutions to this 
problem. The thrust of this is to develop models and other 
tools that can be used to direct future development of 
renewable energy systems on the islands. This was initiated on 
the Big Island, now includes Maui and this year is expected to 
move to O'ahu and Kauai.
    These tools are providing information on approaches for 
placing more renewable energy into the mix, and it will help 
identify enabling technology so the utility can do so.
    The Department of Energy is interested in this because our 
current stability/reliability issues on these islands will 
eventually be faced on the mainland, as well.
    In the biomass arena, we do do work on basic research, but 
again, we are trying to develop partnerships to move our 
technologies forward, using partly what is available today.
    Researchers at HNEI and the College of Tropical Agriculture 
are working collaboratively on new energy production systems. 
This includes crop screening for high-productivity, high-
yielding crops and conversion technologies that can be 
integrated for the maximum energy production potential. The 
economic feasibility of the integrated bio-energy systems will 
be used to select the appropriate technology to move forward.
    We are also working with local and national industry to try 
to demonstrate promising biofuels technologies in a small-
scale, tropical bio-refinery. This effort is in its infancy, 
but the eventual goal will be a pre-commercial demonstration of 
a tropical bio-refinery system, which could then be replicated 
in many of the high-production, high-productivity tropical 
regions around the world, to provide biofuels.
    A quick note--one of the key tools to moving forward with 
new energy technologies is policy, and HNEI is working closely 
with the Department of Energy, the PUC, state energy office, 
and the energy providers to provide unbiased information to 
help develop appropriate policy to move the state forward.
    Just kind of going back and repeating again--Hawaii 
provides--and in closing--a very unique environment that will 
allow quantitative evaluation of grid integration and 
commercialization of renewable technologies, and it can be a 
model for our state and our county. It's really unlikely that 
the public or the private sectors alone will be able to solve 
this--it's going to take an integrated, concerted effort.
    Just as a note, the issue today was global warming, but the 
issues associated with renewable energy also impact our energy 
security both in the state and in the Nation, so these are 
objectives we should try to meet regardless of your position on 
global warming. And, as I said, this is going to require 
concerted and collaborative effort among all of the partners, 
and continuity of funding to move this forward in the national 
interest, and thank you very much for this opportunity to 
testify.
    [The prepared statement of Dr. Rocheleau follows:]

 Prepared Statement of Richard E. Rocheleau, Ph.D., Director and Terry 
  Surles, Researcher, Hawaii Natural Energy Institute, University of 
                            Hawai`i at Manoa
Introduction
    Good morning, Chairman Inouye and Members of the Committee. Thank 
you for the opportunity to testify on this very important matter--
Climate Change Impacts and Responses in Island Communities. My name is 
Richard Rocheleau. I am Director of the Hawaii Natural Energy Institute 
(HNEI). The Institute is an organized research unit in the School of 
Ocean and Earth Science and Technology at the University of Hawai`i at 
Manoa. HNEI's faculty and staff conduct a range of research in the 
areas of renewable energy and ocean resources and manage several larger 
public-private partnerships to accelerate the acceptance and deployment 
of renewable energy technologies into Hawaii's energy mix. Our primary 
areas of emphasis includes development and deployment of hydrogen and 
fuel cell technologies, conversion of biomass into fuels and other high 
value products, advanced batteries and their applications, 
photovoltaics, seabed methane hydrates, and analysis of integrated 
energy systems to facilitate high penetration of intermittent renewable 
energy technologies into electrical grid systems. As the renewable 
technologies mature, the ability to deploy them in an economic and 
environmentally sound manner without negatively impacting the 
reliability of our energy systems becomes of paramount importance.
    My own personal research has been in the areas of photovoltaics, 
hydrogen technology and fuel cells. As Director, I have focused 
considerable effort on development of public-private partnerships 
directed toward the implementation and deployment of renewable energy 
technologies into the islands' energy mix. My coauthor of this 
testimony, Dr. Terry Surles, is a member of the HNEI faculty. Prior to 
joining HNEI he was the Associate Lab Director at Livermore National 
Laboratory for Energy, was General Manager of Environmental Programs at 
Argonne National Laboratory, was the head of the Public Interest Energy 
Research Program at the California Energy Commission, and served on a 
National Academy of Sciences committee examining prospective benefits 
of federally funded energy research. Dr. Surles' primary interests are 
integrated energy systems as they relate to solutions for global 
climate change and energy security issues.
    I have been asked by this Committee to discuss our work related to 
clean energy technologies. Hawaii is very concerned about global 
climate change and energy security. It is unique among the 50 states in 
its dependence on oil for the production of electricity--about 86 
percent of Hawaii's electricity is produced from oil. The grid systems 
are small by mainland utility standards and on the neighbor islands are 
relatively sparse leading to high costs for transmission and 
distribution. These factors, and Hawaii's abundant supply of renewable 
energy resources, offer a unique opportunity for Hawaii to serve as a 
``living laboratory'' to identify the achievable limits for the 
deployment of renewable energy systems and to evaluate the impacts, 
benefits, and issues associated with such deployment to ameliorate 
global climate change and petroleum dependency.
    The problems are not simple. Even renewable energy systems can have 
a CO<INF>2</INF> footprint--some such as ethanol from corn can be 
almost as large as that from petroleum. Due to intermittency and 
reliability, there are practical limits to the penetration of renewable 
systems on the grid. Can these limits be pushed sufficiently far and 
fast enough to have a significant impact on emissions and global 
climate change? HNEI and its partners are attempting to address these 
issues. In the last section of this testimony I do describe a few of 
HNEI's activities in this area, ones which if successful will impact 
not only the state but also the Nation. However, before describing what 
HNEI's activities are, I would like to take a few minutes to address 
global climate change and energy from the larger context. This 
discussion comes largely from the recent reports of the 
Intergovernmental Panel on Climate Change (IPCC) and related publically 
available studies.
Energy and Global Climate Change
    At the most basic level, the balance between incoming solar 
radiation and outgoing infrared radiation (as heat) determines Earth's 
climate. Earth, it should be noted, is a greenhouse gas planet. 
Greenhouse gases, which include water vapor, absorb this infrared 
radiation, thus trapping heat near the earth's surface. Other gases, 
such as carbon dioxide, methane, and nitrous oxide, are also greenhouse 
gases. While these occur naturally, anthropogenic emissions of these 
gases, as well as man-made greenhouse gases (i.e., 
chlorofluorocarbons), have substantially increased the amount of these 
heat trapping gases in the atmosphere.
    Warming of the earth, according to the most recent 
Intergovernmental Panel on Climate Change (IPCC, 2007), is unequivocal, 
as is now evident from observations of increases in global average air 
and ocean temperatures, widespread melting of snow and ice, and rising 
global mean sea levels. The IPCC attributes this warming to the 
increase in greenhouse gas concentrations in the atmosphere. For 
example, the concentration of carbon dioxide, arguably the most 
important greenhouse gas, in the atmosphere has increased from about 
280 parts per million (ppm) in the atmosphere prior to the Industrial 
Revolution to over 380 ppm at present. The continuously recorded data 
at the Mauna Loa Observatory demonstrate a seasonal, but monotonic, 
increase from about 315 ppm in 1958 to today's levels.
    There are arguments that these changes are part of the natural 
climate cycles of the earth and not attributable to human factors. 
However, paleo-climate information supports the interpretation that the 
warmth of the last 50 years is unusual over at least the last 1,300 
years. The last time the Polar Regions were this warm for an extended 
period was about 125,000 years ago. Vostok (the Russian research 
station in Antarctica) ice core data suggest that the earth may be as 
warm as it has been in the past 400,000 years.
    Recent data also support the fact that the past 10 years contain 
many of the warmest years since weather data were being recorded. In 
fact, despite the increasing concerns about climate change and global 
warming, the rate at which carbon dioxide is being released into the 
atmosphere continues to increase from 6.4 Gigatonnes carbon (GtC) per 
year (6,400,000,000 tonnes C/yr) during the 1990s to about 7.2 GtC per 
year between 2000 and 2005, an increase in the rate of emission release 
of over 10 percent in 10 years.
    The IPCC report provides projections for the future of earth's 
climate which include significant continued increases in temperature. 
For temperature change, the models are reasonably consistent in 
predicting increased temperatures based on the amount of carbon dioxide 
being emitted over this coming century. Since carbon dioxide will 
remain in the atmosphere for a very long time, even an aggressive 
response for reducing emissions is expected to result in an increase in 
temperature. Thus, a best case estimate for a low emissions and related 
temperature rise scenario will be between 1.1 +C to 2.9 +C (a global 
temperature increase of about 3 +F) by 2100. Other scenarios predict 
likely temperature increases in the range of 2.4 +C to 6.4 +C (a global 
temperature increase of about 7 +F) by 2100.
    The implications of this considerable increase in temperature have 
been documented in numerous peer reviewed journal articles. Some of 
these impacts would include changes in cropping patterns due to an 
increase in drought and precipitation in agricultural areas. Other 
impacts on our food supply can include the introduction of invasive 
species, such as plant and animal pests as the climatic conditions may 
change. Additional impacts may be related to human health as tropical 
diseases become prevalent in formerly temperate climates.
    The impacts of the changing climate are now beginning to manifest 
themselves. Over the past decade, we have seen increased precipitation 
in the mid-latitudes, further drying of lower latitudes (leading to 
increased desertification), and more intense and longer droughts in the 
tropics and sub-tropics. The lack of water will potentially impact 
Pacific Island nations in the nearer-term. There is reasonable 
expectation for these precipitation trends to continue.
    In the longer term, some island nations may simply cease to exist 
due to rising sea levels associated with melting land-based glaciers 
and sea water expansion due to increased water temperature. 
Conservative projections for sea level rise, even under the best of 
circumstances, are for a rise of slightly over three feet over the 
course of this century. For many low lying islands, this amount of sea 
level rise would have a substantive impact. Sustained temperature 
increases that are implied in the higher scenarios, described in the 
preceding paragraph, could eventually--over the course of this 
century--melt the Greenland ice sheet, causing a sea level rise on the 
order of twenty feet.
    A substantial amount of carbon dioxide emissions is due to our use 
of energy. The onset of the Industrial Revolution is generally equated 
with the start of large-scale burning of coal in England. The majority 
of today's carbon dioxide emissions arise from the burning of fossil 
fuel including coal, oil, and natural gas. In the mainland U.S., coal-
fired power plants, the worst emitters, account for slightly more than 
50 percent of the electricity generation. In Hawaii, about 86 percent 
of electricity is provided by oil-fired generation and 7.4 percent is 
provided by coal-fired generation.
    For transportation, the situation is similar and possibly even 
worse. Almost all of our Nation's transportation fuel is derived from 
petroleum. It should be noted that this dependence on petroleum is also 
a key contributor to our Nation's energy security issues as well as the 
foreign debt/balance of payments problems. Thus, there is clear reason 
for linking security and climate change issues for our country's well-
being.
    The magnitude of this problem is daunting. For example, we 
discussed the fact that the world is currently emitting 7.2 gigatonnes 
of carbon a year. To put this into perspective we offer some examples 
of the changes to our energy infrastructure that would be required to 
reduce emissions of carbon dioxide by one gigatonne per year (from R. 
Socolow, Stanford Hydrogen Workshop, 2003). These include:

  <bullet> Install 700 1000 MW coal-fired power plants that include 
        carbon capture and geological storage (not even available yet);

  <bullet> Install two thousand times (2000<greek-e>) the world's 
        current supply of photovoltaics.

  <bullet> Install 150 times (150<greek-e>) the current worldwide 
        capacity of wind turbines;

  <bullet> Replace two billion 30 mpg efficiency cars with 60 mpg 
        efficiency cars.

    The implication of climate change mitigation is that we must try to 
stabilize the concentration of carbon dioxide in our atmosphere to a 
doubling of pre-industrial concentrations in order to not suffer 
unknown, but potentially catastrophic effects. In other words, we need 
to take immediate action to limit carbon dioxide in the atmosphere to a 
concentration of 550 ppm. Since we are already seeing impacts at 380 
ppm concentrations, even this may be too high. However, as discussed in 
the preceding paragraph, the changes in our energy infrastructure 
required to control carbon dioxide emissions are daunting. In order to 
achieve and maintain a 550 ppm atmospheric concentration of carbon 
dioxide by the end of the century, we will need to reduce our carbon 
intensity to less than 10 percent of what it is today. (Carbon 
intensity is the measure of carbon dioxide emitted to the atmosphere 
divided by the gross domestic product.)
    Projected requirements to achieve this 10 percent goal include 
accomplishing all of the following:

  <bullet> Generate 75 percent of all electricity from non-fossil 
        sources.

  <bullet> Increase end-use energy efficiency increases by 1 percent 
        per year every year.

  <bullet> Increase electricity generation efficiency to 67 percent 
        (currently about 35 percent) by 2050.

  <bullet> Increase passenger car mileage to average 50 mpg by 2050.

    Even if all of these are achieved, we will need additional 
technological breakthroughs to achieve a carbon intensity goal of less 
than 10 percent of our current value and even that will only limit the 
planet to a doubling of its atmospheric carbon dioxide concentrations 
from pre-industrial times.
    For our country and for our state, we must pursue all technology 
solutions. The most effective solution is to simply use less energy. 
The highest priority for many state public utility commissions starts 
with end-use energy efficiency. This needs to involve not only the 
request to change lifestyles, but to develop and commercialize new end-
use technologies that are more energy efficient in meeting the demands 
of the economy.
    Another mechanism is to sequester (capture and store) carbon 
dioxide from coal-fired power plants. This is currently a technology 
under development that still faces a number of environmental, 
engineering, and financial challenges before reaching any stage of 
commercialization. Recent estimates report that CO<INF>2</INF> capture 
may require at least 25 percent of a pulverized coal-fired power 
plant's total output (C&E News, March 3, 2008). Newer technologies, 
such as oxy-combustor and integrated gasification/combined cycle 
systems, may allow for the continued use of coal and the more cost-
effective capture and geological storage of carbon dioxide. This will 
allow our country to continue to utilize indigenous national energy 
resources.
    Another approach--and one which will now be discussed at greater 
length--is the increased utilization of renewable energy resources. The 
greater use of these indigenous resources will allow us to reduce our 
dependence on foreign energy resources, while at the same time reducing 
carbon dioxide emissions for the amount of energy we consume. As noted 
earlier, the carbon emissions for any renewable resource technology are 
not zero. When one takes the technology's life cycle into 
consideration, carbon dioxide and other greenhouse gases are emitted 
during the fabrication or operation of these technologies.
    As indicated, if we are to make progress against increasing 
CO<INF>2</INF> emissions, the solutions will necessarily be 
multifaceted. Renewables offer one potential solution for reduction of 
fossil fuel usage in both the electricity and transportation sectors. 
With its wealth of renewable resources, renewables can be a 
particularly effective approach for the state of Hawaii. The issue 
before the state is how to utilize these resources in an economic, 
environmentally-sensitive, and societal-acceptable manner. The next 
section provides a very brief summary of the status of various 
renewable energy resources and issues related to the deployment of 
related commercial technologies.
Renewable Energy Technologies
    Hawaii is blessed with almost every renewable energy resource 
imaginable. With its high cost of electricity and fuels, wealth of 
renewable resources, and stand-alone grid systems, Hawaii can serve as 
a model system for the rest of the Nation in the deployment of 
renewable energy systems. However, before moving onto the Hawaii energy 
situation and HNEI's energy activities, I would like take a few minutes 
to provide a very brief review of the status, potential and unresolved 
challenges associated with the various renewable energy technologies.
Wind
    Other than conventional hydroelectric power, wind is arguably the 
most developed of the renewable technologies. Megawatt (MW) sized wind 
turbines are available from a number of suppliers and have been shown 
to be cost effective where siting and integration are not issues. 
However, wind is characterized by restrictive operational constraints 
in terms of its intermittency (on both a second-by-second and day-by-
day basis) that can have a substantive effect on the stability and 
reliability of the electricity grid limiting the allowable penetration 
onto the grid system. Siting can also be a challenge. Resource maps for 
wind can be useful, but wind is a localized resource. These resources 
are not always located where the electricity load is. Thus, long 
distance transmission is a challenge. Additionally, there can be 
localized opposition to wind due to perceived visual, noise, and 
aesthetic effects. Off-shore wind development has been proposed as an 
answer to land-use issues, but deployment is limited to relatively 
shallow regions which open the door for visual impact concerns. This 
has been part of the on-going discussions over the development of a 
wind farm in the near-shore area of Cape Cod in Massachusetts. Wind 
capacity factors (percent of energy relative to nameplate) are 
typically around 35 percent and only 45 percent in best wind regimes. 
Thus, as with other intermittent renewable resources, the utility must 
have nearly equal back-up capacity for each MW of wind. Even when the 
operating utility has spinning and regulating reserve on line to 
control power quality and to allow rapid response to sudden losses in 
wind, sudden changes in wind speeds can destabilize the grid. Power 
quality and response issues increase non-linearly as wind penetration 
increases and become significant at percentages in the 10 to 20 percent 
range. Issues, as we are finding in Hawaii, are seen first on smaller 
grid systems. However, even on a large continental-based grid, 
reliability issues may arise. For example, just 2 weeks ago, the Texas 
grid system almost went down when there was a sudden and significant 
loss of wind.
Biomass
    Biomass, organic matter of biogenic origins, is currently used as a 
feedstock for the production of fuels, chemicals, power, and heat. This 
flexibility to serve both fuels and power applications is a major 
difference between biomass and other renewables. The three primary 
sources of biomass in the U.S. today are wood, waste (e.g., Municipal 
Solid Waste), and crops for alcohol and plant oil based fuels. The 
first two groups are used almost exclusively for the generation of heat 
and power, and in 2005 accounted for 82 percent of biomass consumption 
on an energy basis. (EIA, http://www.eia.doe.gov/cneaf/
solar.renewables/page/biomass/biomass.html).
    The current development efforts for biofuels in the U.S. has 
focused primarily on ethanol produced from corn and biodiesel produced 
from soybeans. Ethanol production from corn approached 5 billion 
gallons in 2006 (3 percent of overall gasoline consumption) and is 
expected to show continued growth. Biodiesel production was 
significantly less at 100 million gallons representing only about 0.25 
percent of distillate fuel consumption. The impacts of rising petroleum 
prices and growth in demand for biofuels have resulted in increased 
biofuel production and, even at these modest levels of production, have 
led to competition with food supplies. Unlike electricity, where 
several renewable technologies can be used to displace fossil fuel 
power generation, renewable liquid transportation fuels are expected to 
come almost exclusively from biomass.
    It is generally agreed that current biofuels systems (crops and 
conversion technology) are not sustainable, certainly not at the scale 
needed to impact long-term energy security or climate change. To 
achieve sustainable biofuels systems, production of biomass will need 
to focus on the use of marginal agricultural lands, improved crop 
yields, reduced production inputs (i.e., water, fertilizer, etc.), 
development of non-agricultural biomass resources, and improved biofuel 
production technologies and end-use efficiency. The transition from 
fossil fuels to biofuels will only be achievable with development of 
appropriate policy that will provide the sustainability and stability 
needed for long-term investment at all points along the value chain.
    The development of technology to produce transportation fuels from 
materials less valuable than corn or sugar has focused on using fiber 
(i.e., wood, straw, bagasse, etc.) as the feedstock. Integrated 
biochemical and thermo-chemical technologies currently under 
development are positioned for use in bio-refineries of the future and 
show great promise. However considerable time and investment in R&D and 
commercialization are required. These efforts need to be afforded a 
high priority.
Photovoltaics
    Solar photovoltaics are reliable and commercially available but 
continue to suffer from high costs. The current market is dependent on 
subsidies and/or tax credits with a significant part of the commercial 
sales taking place in only a few places (Germany, California, and New 
Jersey) where aggressive subsidies are provided. The majority of the 
market today is served by some form of silicon wafer but a number of 
thin-film and 3rd and 4th generation materials are under development. 
Since a PV system includes the other module components, hardware for 
mounting and installation, and balance of plant for integration to the 
household or grid; cost of the actual semiconductor is only one of the 
cost factors that must be addressed. Integration into the grid is 
simpler than for wind (predictability better) but the relatively high 
cost is likely to limit deployment except in locations with high 
electricity costs such as Hawaii.
Solar Thermal
    This technology is of interest in that it can provide for the use 
of power even when the sun isn't shining through the use of heat 
transfer and storage fluids in its system. Currently, these systems are 
in use in parts of the world, such as the Negev Desert, where there is 
little scattering of the incident light. Their potential, while 
considerable in Hawaii, still awaits further reductions in operational 
costs and in confirmation of longer term efficacy of stable operation.
Geothermal
    This is a proven technology where the resource allows use of 
conventional power generation technologies, i.e., geothermal resource 
provides steam for power generation. Newer technologies such as 
engineered geothermal systems (EGS) which use water injection to 
utilize dry geothermal heat for steam production are under development. 
There are positive projections of cost for EGS, but these systems have 
not yet been demonstrated in a commercial setting. Under heavy use, 
long term viability of a geothermal resource can be an issue. Siting 
for naturally occurring geothermal fluid systems is an issue in that 
they are only available in a limited number of locations. EGS systems 
however have a much greater area upon which to draw and could form the 
basis of a distributed generation system. Unlike most other renewable 
technologies, intermittency is not an issue. Thus, geothermal energy 
can be used for base load power.
Ocean Energy Technologies
    Ocean Thermal Energy Conversion (OTEC)--Net power production has 
been demonstrated from OTEC but questions remain about the efficiency 
of the process, cost, demonstrated lifetime, and design efficiency. In 
addition, there is limited potential for the mainland U.S. without some 
form of chemical energy transfer which today is too expensive. At the 
gigawatt scale, this technology uses enormous amounts of deep sea and 
surface sea water which may have significant long term environmental 
impacts.
    Wave --There are many (up to 40) competing wave energy technologies 
worldwide. While there has been significant progress in recent years, 
many ocean deployments to validate system performance have met with 
limited success. Capital, including installation costs, is a 
significant factor. One point that is seldom made, although obvious, is 
that the ocean environment is harsh from both corrosion and simple wear 
and tear. Therefore, longer term efficacy related to O&M needs to be 
demonstrated. Intermittency will require back-up energy generation 
technology, but rapid transients such as those associated with wind are 
not expected to be apparent. Thus, high penetration is theoretically 
possible.
Hydrogen and Fuel Cells
    Hydrogen is an energy source, such as the sun or a fossil fuel. 
Rather, hydrogen is an energy carrier like electricity. While hydrogen 
is the most plentiful element in the universe it does not occur freely. 
It must be manufactured from compounds in which it is bound. Hydrogen 
can be produced by electrolyzing water and from the gasification of 
biomass.
    Hydrogen can be used to generate electrical power electrochemically 
in a fuel cell or to produce mechanical energy by thermo-chemical 
combustion in an internal combustion engine. In the case of a fuel 
cell, the product of combustion is pure water; in an engine it is water 
and some nitrogen oxide. Economics dictate that renewable electricity 
is best utilized to power the utility grid with any surplus used for 
hydrogen production via electrolysis.
    When considering hydrogen as a potential energy carrier, all of the 
elements making up the system must be considered. These elements 
include the production, storage, and transport requirements, plus the 
end-use utilization of the hydrogen. Although considerable progress has 
been made over the past 10 years, all of these components of the 
hydrogen system are in the development stage and not yet commercial. 
However as the price of oil increases, the value of clean energy 
solutions becomes more important, and technical progress is made, 
hydrogen is expected to become an important component of future energy 
systems, and Hawaii could be one of the earliest adopters.
HNEI Activities Related to Clean Energy Technologies
    Hawaii imports fuel for generation of the majority of its energy 
(93 percent) characterized by an unusually high dependence on oil for 
power generation. This substantial reliance on fossil fuels is 
juxtaposed against an abundance of renewable resources which could be 
used for energy. With this array of renewable resources and the 
opportunity for high productivity energy crops; renewable electricity 
and bio-derived fuels offer great promise to reduce the states' 
dependence on fossil fuels and for Hawaii to demonstrate for the 
Nation, the potential of energy independence through renewable energy. 
This was recognized in the recent MOU between the State of Hawaii and 
U.S. Department of Energy where a goal of 70 percent of the state's 
energy from renewable sources by 2030 was announced. While an admirable 
goal, and arguably one that is necessary nationally and internationally 
if we are to impact CO<INF>2</INF> emissions and climate there are very 
significant hurdles--technical, economic, and policy--to be overcome if 
there is to be significant progress toward this goal within the 
critical 10 to 15 year time-frame in which consensus estimates agree 
that world-wide conventional oil and gas resources will not meet 
demand. Although the goals are less aggressive, in 2004, the State 
enacted a new Renewable Portfolio Standards law (S.B. 2474) setting a 
renewable energy goal of 20 percent for 2020. However, implementation 
even at this modest level of penetration remains a challenge.
    As summarized in the introduction, HNEI conducts research and 
development in a number of technology areas. HNEI has also committed 
substantial resources and effort to development of public-private 
partnerships which will: (1) provide for development of analysis and 
tools to identify the optimal path(s) forward and (2) identify critical 
projects to validate key renewable technologies and the ability to 
integrate these technologies into the energy mix. It is these latter 
integration activities which can most quickly effect change in the 
state and for that reason, will be the focus on my discussion today of 
HNEI activities.
    Renewable Energy Deployment: There are a number of commercial and 
emerging technologies such as wind, solar, and ocean energy systems 
that offer the potential for large scale penetration of renewable 
electricity into the grid. However, each of these technologies is 
inherently more variable and less dispatchable than conventional 
generation. Their implementation will require utility system planners 
and operators to adopt new technology and new strategies to ensure 
reliable and efficient electric grid operation. HNEI, in partnership 
with the local utility, GE Global Research Center, the state, and U.S. 
DOE, has developed a substantial program to identify potential 
solutions to high penetration of renewables. HNEI holds a unique 
position in being able to merge interests and funding from a variety of 
public and private resources.
    The thrust of this current project is to develop models and other 
analytical tools that can be used to evaluate the future development of 
renewable energy systems on each of the islands, addressing specific 
island energy systems and resources. This effort was initiated on the 
Big Island, now includes Maui, and is expected later this year to 
include Oahu and Kauai. Using the Big Island effort as an example, 
operations and modeling show that the electricity that is available 
from existing wind power on the island can compromise the stability and 
reliability of the grid. At the same time, the state Renewable 
Portfolio Standard is mandating additional renewable energy 
installation between now and 2020 and independent power producers are 
pushing for increased use of wind by the utility. Use of these scenario 
analysis and management tools is providing information on approaches 
for placing more renewable energy systems on the Big Island. These 
analyses also demonstrate the need for development, demonstration, and 
deployment of enabling technologies for renewable systems. These 
enabling technologies will necessarily include electricity storage 
systems (for both second-by-second response and for bulk storage), 
advanced power electronics, and demand-response technologies.
    These scenario analysis and management tools also allow 
characterization of the benefits, costs, performance issues, 
environmental and societal issues, and impacts of various solution 
scenarios for each of the main islands.
    Additional projects in these areas have been proposed using the 
existing partnerships to leverage resources to validate technology 
integration solutions through field demonstrations. As discussed in 
more detail below, these analyses also help provide robust policy 
analysis to support legislative solutions to ensure a systematic and 
reliable transformation of Hawaii's energy systems. The Department of 
Energy is interested in this work, since the current stability and 
reliability issues facing the Big Island are expected to be replicated 
on the mainland.
    Tropical Biofuels: In the biomass arena, there are numerous 
technologies in various stages of development in Hawaii and elsewhere 
with potential to contribute to Hawaii's energy solutions. Analogous to 
the integration issues being addressed for high penetration of 
renewables onto the electricity grid, cost-effective deployment of 
these emerging biomass conversion technologies for power or fuels 
production require substantial integration to effectively utilize the 
biomass resource. Additionally, many of the biomass resources and 
conversion technologies are yet to be validated for commercial 
deployment. HNEI has embarked on a number of partnerships to address 
these issues.
    Researchers in HNEI and the College of Tropical Agriculture and 
Human Resources are working collaboratively to develop new bioenergy 
production systems for Hawaii. Crop production research activities 
include screening candidate crops suited for the tropics under 
different soil and climatic conditions (benchmark locations) and 
selecting for high yielding varieties with the greatest energy 
production potential. The feedstock properties that are important in 
bioenergy conversion vary between crops and may depend on environmental 
factors. These properties are quantified for selected candidate 
feedstocks and conversion tests are performed in laboratory or bench-
scale equipment to optimize biomass conversion methods across the range 
of fuel properties. The economic feasibility and energy productivity of 
an integrated bioenergy system based on the production of candidate 
crops and selected conversion technology options are evaluated. This 
integrated approach provides necessary analysis in support of bioenergy 
systems development.
    Finally, HNEI is working with private industry to demonstrate 
promising biofuel technologies in small scale tropical biorefinery. 
Under this activity, HNEI is undertaking technology assessment 
including models of resource requirements for crop production and 
conversion technologies, integrated systems evaluation including 
characterization of benefits, costs, performance issues, and 
environmental and societal impacts of various systems. The eventual 
goal of this work is pre-commercial demonstration of a tropical 
biorefinery system.
    The latter activity will be used to validate key process components 
and production targets and provide continuous, operational data at a 
scale sufficient to lower the technical risks associated with financing 
future commercial plants. All three tasks will seek to build 
partnerships with entities (land owners, businesses, State agencies, 
etc.) in the Hawaii biomass community and with groups from outside 
Hawaii that can provide technology, capabilities, and significant 
leveraging of project funds to help overcome the technical, economic, 
and resource barriers which have, to date, prevented significant 
progress in the development of new bioenergy projects in Hawaii.
    Policy: HNEI is working closely with the U.S. DOE, the State Energy 
Office, the PUC, and energy providers to provide unbiased information 
for development of a set of policies which can help move the state 
forward. This project effort and other HNEI activities allow for the 
integration of knowledge gained from technology assessment with public 
policy analysis. One of the most efficient paths forward for 
commercializing new technology in this area is to link technology 
advances with public policy tools and initiatives. The information 
gained from this effort will provide the state Public Utilities 
Commission, for example, with information on how new power purchase 
agreements may be configured to reduce costs to the rate payer. This 
project can also provide information to commercial technology interests 
on how best to modify and configure their technologies for emerging 
electricity markets that are increasingly dependent on renewable and 
distributed energy. In short, there are many means and mechanisms for 
how public policy initiatives and technology development can be linked 
to provide benefits to consumers and--more broadly--to the state and 
nation. HNEI is working on ensuring that these mechanisms are as 
effective as possible.
Closing Remarks
    Hawaii can and should be a ``living laboratory'' to explore the 
potential for validating the performance of various renewable energy 
technologies in commercial deployment. Our state also can provide a 
unique environment to allow for a quantitative evaluation of grid 
integration and commercialization of new technologies, not only for our 
state, but for the country as a whole. The active interest by state 
government, Congress, the energy community and the private sector 
allows for the integration of technology, commercial deployment and 
policy. While these are initially directed to Hawaii, in the future 
they can be applicable to national needs. This is particularly 
important for many of the larger scale issues facing our energy 
systems. It is unlikely that either the public or the private sectors 
can solve any of the large scale issues independently of the other. 
These issues--global climate change, energy security, grid 
modernization, and critical infrastructure, to name a few--require 
concerted and collaborative efforts and continuity of funding to be 
solved in the national interest.

    The Chairman. Thank you.
    Dr. Kim?

       STATEMENT OF KARL KIM, Ph.D., PROFESSOR AND CHAIR,

           DEPARTMENT OF URBAN AND REGIONAL PLANNING,

                 UNIVERSITY OF HAWAI`I AT MANOA

    Dr. Kim. Good morning, Senator Inouye. Thank you very much 
for this opportunity to testify. I'm honored to have this 
opportunity to speak about the impacts of climate change, and 
the response in island communities.
    I'm also happy to follow my distinguished colleagues which 
make my testimony all that more easy.
    I've just come from Tokyo, and the United Nations 
University, where I've been participating in meetings related 
to climate change, sustainability, disaster management and 
renewable energy. I'm also engaged in some research related to 
the modeling of efforts to reduce carbon emissions through 
urban planning and transportation, with the National Institute 
for Environmental Studies in Japan, and I'd like to report to 
you that these organizations are very much concerned about the 
anthropogenic sources of greenhouse gases.
    Earlier today there was mention of a report issued by the 
Transportation Research Board, National Research Council, which 
I'm a member of. Next year, they will be focusing on the 
impacts of climate change on transportation infrastructure. 
I've prepared a paper for presentation at that meeting, so I 
want to again reiterate that there are many science-based 
organizations that are taking, very seriously, these issues of 
climate change, global warming and sea level rise.
    Much of my research involves modeling the impacts of 
climate change, especially on critical infrastructure and on 
the social and economic life of communities, particularly in 
Hawaii. Cities or urban areas are, at once, both a cause and a 
solution to the problem of climate change.
    On the one hand, as we've heard this morning, they consume 
tremendous amounts of land, resources, and energy, and generate 
vast amounts of greenhouse gases--cities store heat and are 
constructed of impervious surfaces contributing to runoff, 
flash-flooding and other ecological problems. And urban 
expansion, then, has also meant, globally, the loss of forests, 
agricultural lands, and other sinks for carbon sequestration.
    So, but at the same time, cities also provide opportunities 
for increased density of development--reduction of travel 
distances for work, shopping, education, and opportunities to 
use new technologies for energy, communications, commerce and 
economic development. Adoption of sustainable, renewable green 
design planning and building techniques will not only help 
reduce the ecological footprint of cities and urban areas, but 
will also provide a pathway for continued growth and 
prosperity.
    And it's really critical that our planning regime, 
including our comprehensive plans, our general plans, our 
development plans, our zoning codes, our building codes and 
other various community plans and project plans are realigned 
to address the conditions and needs created by climate change. 
If we start now, we can change this regime.
    There have been some really important recent studies that 
have looked at, for example, the costs and benefits of 
hardening the shoreline versus managed realignment strategies, 
in which you encourage development to occur further inland. 
This is work that we can do now over the long term that will 
make a lot of sense.
    And there are obvious technological issues, as well as 
political and social issues associated with these policy 
changes. And I think our University can play a critical role, 
in not just developing these technologies, but also working to 
re-train planners and other policymakers that are involved in 
this type of forward-thinking, forward decisionmaking.
    As you've noted in your introductory comments, and as we've 
heard this morning, already, climate change greatly impacts 
island communities. In my written testimony, I've summarized 
some of the key research. Fortunately, most of it was published 
after 2005, so I feel safe with it.
    Some of the pieces that I cited were done in 1998, and 
before the more dire predictions of sea level rise were 
identified. The way that I look at this is, even back before 
these dire predictions came out, the impacts upon Pacific 
Islands, on small island settings, were well-noted. So, it can 
only get worse.
    In order to lessen the probability of these natural events, 
and climate-induced events from turning into disasters, there's 
a need to develop effective programs, training and an 
integrated system of disaster preparedness, response, and 
recovery. An integrated system includes Federal, State and 
local governments, as well as international agencies, non-
governmental organizations and the private and volunteer 
sectors.
    A comprehensive approach includes consideration of all 
phases of the disaster cycle, including preparedness response, 
recovery, mitigation, development and adaptation to 
environmental change.
    While there's been research and training on various aspects 
of response and preparedness, there's a need for more research 
and training on adaptation, and addressing the vulnerabilities 
of populations exposed to natural hazards. There is particular 
need to address natural hazards in the Pacific Region, and in 
many areas throughout the Nation.
    With the creation of the Department of Homeland Security, 
significant effort has gone toward the prevention and response 
to acts of terrorism. The National Domestic Preparedness 
Consortium was established in September 1998, and reconfirmed 
in public law in 2001. The original members, the Center for 
Domestic Preparedness, LSU, Nevada Test Site, New Mexico Tech, 
Texas A&M--these original members of the consortium addressed 
counterterrorism preparation needs, within the context of 
chemical, biological, radiological and explosive weapons of 
mass destruction. Not a one of these centers is focused on 
natural hazards.
    Reauthorized in the Homeland Security legislation in 2007 
through 2011, the consortium was expanded, as you know, to 
include all hazards, including technological and natural 
hazards. The two new members that were added include the 
Transportation Technology Center in Colorado, and the National 
Disaster Preparedness Training Center at the University of 
Hawai`i. And, within the DHS, the consortium is located within 
FEMA now, under the National Preparedness Directorate.
    The focus of our center, the National Disaster Preparedness 
Training Center, is on building community resiliency to all 
hazards, by developing and providing training to first 
responders, decisionmakers, policy analysts and urban planners. 
Our center will partner with key Federal, State, local, 
international partners to develop and implement training on 
disaster preparedness, response, recovery, relevant to the 
special needs and conditions of Pacific Island communities, and 
others at risk from natural and technological hazards.
    We will provide training consisting of formal degrees and 
certificate programs, as well as specialized courses, 
workshops, conferences, and coordinate the sharing of data and 
information related to preparedness, mitigation, response and 
recovery, and serve as an incubator for new ideas, 
technologies, businesses and partnerships between the 
University, business and government.
    To date, we have attended two meetings, two quarterly 
meetings, of the consortium, to learn about the training 
activities of the other six centers. We've also had productive 
and informative meetings with the Emergency Management 
Institute under FEMA, and others within the Department of 
Homeland Security.
    We've interacted with the Natural Hazards Center at the 
University of Colorado, Boulder, as well as other national and 
international training partners.
    We've also been working very closely with entities and 
organizations within Hawaii, involved with disaster management 
to become a model of how information and technology can be 
shared across our community. And it is evident that the Center 
will play an important role in addressing the needs of both 
island communities as well as other coastal communities and 
those affected by natural disasters throughout the Nation.
    I want to, on behalf of the University and the State and 
others involved in this area, I want to thank you for your 
efforts in this area, in creating the National Disaster 
Preparedness Training Center.
    [The prepared statement of Dr. Kim follows:]

Prepared Statement of Karl Kim, Ph.D., Professor and Chair, Department 
     of Urban and Regional Planning, University of Hawai`i at Manoa
Introduction
    Good morning, Senator Inouye and Members of the Committee. I am 
Karl Kim, Professor and Chair of the Department of Urban and Regional 
Planning at the University of Hawaii. I am honored to have this 
opportunity to speak to you about the impacts of climate change and 
responses in island communities. I have just come from Tokyo and the 
United Nations University where I have been participating in meetings 
related to climate change, sustainability, disaster management, and 
renewable energy. I am also engaged in research related to modeling of 
efforts to reduce carbon emissions through urban and transportation 
planning with the National Institute for Environmental Studies in 
Japan. I also serve as an Advisor to the Korea office of the 
International Council of Environmental Initiatives, which is focused on 
sustainable development in the Asia-Pacific region. I would also note 
that I am a member of the Transportation Research Board, National 
Research Council which will also be addressing the impacts of climate 
change on transportation at its Annual Meeting in 2009. I am currently 
working on a study estimating the impacts of climate change and sea 
level rise on coastal roadways and business activities in Hawaii. My 
current research also involves modeling evacuation decision-making in 
coastal communities. Much of my research over the past two decades has 
involved sustainable development and urban and transportation planning.
Climate Change and Urban Planning
    Cities are both a cause of and a solution to the problem of climate 
change. They consume tremendous amounts of land, resources and energy 
and generate vast amounts of greenhouse gases. Cities store heat and 
are constructed of impervious surfaces, contributing to urban runoff, 
flash flooding, and other ecological problems. Urban expansion has also 
meant the destruction and loss of forests, agricultural lands, and 
other sinks for carbon sequestration. Cities also provide opportunities 
for increased density of development, reduction of travel distances for 
work, shopping, and education, and opportunities to utilize new 
technologies for energy, communications, commerce, and economic 
development. Adoption of sustainable, renewable, green design, 
planning, and building techniques will help to not only reduce the 
ecological footprint of cities, but also provide a pathway for 
continued economic growth and prosperity. It is critical that the 
planning regime, including comprehensive and general plans, development 
plans, zoning and building codes and various community and project 
plans, is realigned to address the conditions and needs created by 
climate change. Turner, et. al. (2007) have recently examined the costs 
and benefits of hardening the shoreline versus managed realignment of 
development further inland. There are technological issues with obvious 
political and economic consequences to these policy changes. The 
University of Hawaii plays a critical role in not just developing but 
also applying new technologies to the planning and design of human 
settlements. Islands provide a unique opportunity for studying the 
impacts of climate change, and, more importantly, for designing and 
implementing appropriate responses.
Climate Change Greatly Impacts Island Communities
    Island communities are disproportionately affected by climate 
change. See Huang (1998) for a summary of the vulnerabilities of small 
islands to the impacts of climate change and State of Hawaii (1998) for 
a comprehensive discussion of the impacts of climate change in Hawaii. 
Like all coastal communities, the effects of sea level rise in terms of 
erosion and inundation of roadways, urban infrastructure, and coastal 
assets have become a matter of national concern. In addition to the 
potential loss of beaches and other areas important to our island 
economy, sea level rise also threatens our water system and increases 
the risk of sewage spills and toxic releases into our environment 
(Schiedek, et. al., 2007). Climate change means increased variability 
in weather conditions with an increase in extreme events such as both 
heavy rainstorms and also periods of drought. See New Scientist (2007) 
for a discussion on how climate change will lead to more wild weather. 
Heavy rainfall increases the probability of urban floods while drought 
increases the risk of wildfire. Native trees, especially in rainforest 
areas are not as resistant to either drought or wildfire, so climate 
change can also affect the make-up of forests and in turn affect 
wildlife habitat. Drought also increases municipal and agricultural 
ground water use which increases the chance of salt water intrusion 
into the aquifer. Increased temperatures as well as prolonged rainfall 
can also contribute to the increase in vector-borne diseases such as 
dengue fever which is also spread by both urbanization and the 
increased movements of human hosts between remote locations across the 
planet. See Haines, et. al. (2006) for more discussion of the impacts 
of climate change on public health.
    In the Pacific region, climate change, global warming, sea level 
rise, and extreme weather events have increased the risk of natural 
events becoming disasters. Because more people and activities have 
located in coastal and other hazard prone areas, the risks of weather 
and natural events (hurricanes, storms, tsunamis, earthquakes, floods, 
droughts, wildfires, and others) turning into disasters where people 
are killed, injured, or lose their homes, property, businesses, jobs, 
and other assets are increased. Worldwide, there is increasing concern 
about the impacts of climate change on visitor destinations (Phillips 
and Jones, 2006). More people living and working in hazard prone areas 
means more exposure to disaster. The International Red Cross/Red 
Crescent describes a disaster as ``an exceptional event which suddenly 
kills or injures large numbers of people.'' The Center for Research on 
the Epidemiology of Disasters (CRED) defines a disaster as a 
``situation or event which overwhelms local capacity, necessitating a 
request to a national or international level for external assistance.'' 
Because of the increased risks of natural disaster, there is need for 
further efforts focused on preparedness, response, relief, recovery, 
and mitigation in the region.
Response to Climate Change
    In order to lessen the probability of natural events turning into 
disasters, there is a need to develop effective plans, training 
programs, and integrated systems of disaster preparedness, response, 
and recovery. An integrated system includes Federal, state, and local 
governments as well as international agencies, non-governmental 
organizations, and the private and volunteer sectors. A comprehensive 
approach involves consideration of all phases of the disaster cycle 
including: (1) preparedness; (2) response; (3) recovery; (4) 
mitigation; (5) development; and (6) adaptation to environmental 
change. While there has been research and training on various aspects 
of response and preparedness, there is need for more research on 
adaptation and vulnerability (Smit and Wandel, 2006). Each of these 
phases require different tools, methods, technologies, resources, and 
commitments. It should be noted that an ``all-hazards'' approach is one 
in which many of the same concepts, methods, and resources are 
transferable across different natural, technological, and human caused 
disasters.
    There is a particular need to address natural hazards in the 
Pacific region and in many areas throughout the Nation. With the 
creation of the Department of Homeland Security (DHS), significant 
effort has gone toward the prevention of and response to acts of 
terrorism. The National Domestic Preparedness Consortium was 
established by Congressional Mandate in September 1998 (House 
Conference Report [H.R. 2267]) and reconfirmed in Public Law 107-273 in 
2001. The original members (Center for Domestic Preparedness, Louisiana 
State University, Nevada Test Site, New Mexico Institute of Mining and 
Technology, and Texas A&M University) of the Consortium addressed 
counterterrorism preparedness needs of our Nation's emergency 
responders within the context of chemical, biological, radiological, 
and explosive (Weapons of Mass Destruction [WMD]) hazards. Re-
authorized in Homeland Security legislation (H.R. 1) in 2007 through FY 
2011, the Consortium's mission was expanded to include all hazards, 
including technological and natural hazards. Two new members were added 
to the Consortium (Transportation Technology Center, Inc. and the 
National Disaster Preparedness Training Center at the University of 
Hawaii). Within DHS, the Consortium is located within the Federal 
Emergency Management Agency (FEMA) under the National Preparedness 
Directorate.
National Disaster Preparedness Training Center
    On August 3, 2007, President Bush signed H.R. 1 ``Implementing 
Recommendations of the 9/11 Commission Act of 2007'' which authorized 
the establishment of the National Disaster Preparedness Training Center 
(NDPTC) at the University of Hawaii. Housed at the University of 
Hawaii, a premier research university, the NDPTC is uniquely positioned 
to develop and deliver natural disaster preparedness training to 
governmental, private, and non-profit entities, incorporating urban 
planning with an emphasis on community preparedness and at-risk 
populations.
    The focus of the NDPTC is on building community resilience to all 
hazards by developing and providing training to first responders, 
decisionmakers, policy analysts and urban planners.
    The NDPTC will partner with key Federal, state, local and 
international partners to develop and implement training on disaster 
preparedness, response, and recovery relevant to the special needs and 
conditions of Pacific island communities and others at risk from 
natural and technological hazards.
    The NDPTC will provide training consisting of formal degrees and 
certificate programs, as well as specialized courses, workshops and 
conferences; coordinate the sharing of data and information related to 
disaster preparedness, mitigation, response and recovery; and serve as 
an incubator for new ideas, technologies, business and partnerships 
between academia, business and government.
    As a land, sea, and space grant institution with national and 
international recognition for its academic and research excellence in 
the fields of urban planning and earth sciences, the University of 
Hawaii has the expertise and research and training programs in the 
fields of disaster management and related topics to conduct research 
and develop specific models and tools for monitoring natural hazards 
and evaluating risk to urban areas. Planning for the response, recovery 
and reconstruction of communities affected by natural disasters will 
include a special emphasis on islands and at-risk, vulnerable 
populations.
    To date, we have attended two quarterly meetings of the Consortium 
to learn about the training activities of the other six centers. We 
have also had productive and informative meetings with the Emergency 
Management Institute (FEMA) and others within the Department of 
Homeland Security involved with training and community preparedness, 
response and recovery. We have also interacted with the Natural Hazards 
Center at the University of Colorado, Boulder as well as other national 
and international training and research partners. We have been also 
working closely with other entities and organizations within Hawaii and 
the region involved with disaster management. It is evident that the 
work of the NDPTC will play an important role in addressing needs of 
both Pacific island communities and also other coastal communities as 
well as those affected by natural disasters throughout the Nation.
References
    Haines, A., R.S. Kovats, D. Campbell-Ledrum, and C. Corvalan. 
(2006) Climate Change and Human Health: Impacts, Vulnerability and 
Public Health. Public Health. 120. Pp. 586-596.
    Huang, J.C.K. (1998) Climate Change and Integrated Coastal 
Management: A Challenge for Small Island Nations. Ocean and Coastal 
Management. Vol. 37. No. 1. Pp. 95-107.
    New Scientist (2007). 2100: A World of Wild Weather. January 20, 
2007. Pp. 6-7.
    State of Hawaii (1998). Hawaii Climate Change Action Plan. 
Department of Business, Economic Development and Tourism, Energy, 
Resources and Technology Division and Department of Health, Clean Air 
Branch. State of Hawaii. Honolulu. HI.
    Phillips, M.R. and A.L. Jones (2007) Erosion and Tourism 
Infrastructure in the Coastal Zone: Problems, Consequences and 
Management. Tourism Management. 27. Pp. 517-524.
    Schiedek, D., B. Sundelin, J. Readman, and R. Macdonald. (2007) 
Interactions Between Climate Change and Contaminants. Marine Pollution 
Bulletin. 54. Pp. 1847-1856.
    Smit, B. and J. Wandel. (2006) Adaptation, Adaptive Capacity and 
Vulnerability. Global Environmental Change. 16. Pp. 282-292.
    Turner, R.K., D. Burgess, D. Hadley, E. Coombes N. Jackson. (2007) 
A Cost-Benefit Appraisal of Coastal Managed Realignment Policy. Global 
Environmental Change. 17. Pp. 397-407.

    The Chairman. Dr. Uehara?

 STATEMENT OF DR. GORO UEHARA, COLLEGE OF TROPICAL AGRICULTURE 
      AND HUMAN RESOURCES, UNIVERSITY OF HAWAI`I AT MANOA

    Dr. Uehara. Thank you, Senator Inouye for this opportunity 
to describe some opportunities and challenges when climate 
change hits us.
    Agriculture in Hawaii is undergoing constant change, and 
for over the 30 years we have been involved in finding new 
crops in new locations in Hawaii, and involved in obtaining 
grants with your help, and looking at international transfer of 
technology from one location to another.
    And, basically, in the past these changes have been 
compelled and forced upon Hawaii by economic reasons. From here 
on, we will be forced to look for new crops, because of climate 
change. This presents new challenges for agriculture.
    One of the crops we are currently looking for in Hawaii is 
to replace, not only food and fiber crops, but to begin to 
introduce energy crops to Hawaii. We feel that Hawaii presents 
tremendous opportunity with new technologies to provide Hawaii 
with alternative feedstock for biofuels production, as Dr. 
Rocheleau has indicated.
    Hawaii and the Pacific Islands vary in environments, 
greatly. Hawaii's environment ranges from balmy beaches, to 
snow-capped mountains. It ranges from drenching rainforests to 
scorching deserts, and we must find different crops for these 
environmental niches. The question is, how do we do this?
    Hawaiians--the early Hawaiians brought taro and sweet 
potato, they brought ulu. And over the years, over 100 years, 
they were able to transform the few taro varieties they brought 
to Hawaii, into 100 varieties. So, we have the capacity to find 
new crops for new locations.
    There are three ways to find new crops for new locations, 
we call this matching the biological requirements of crops to 
the physical characteristics of land. Climate change will bring 
about a mismatch between crops and environment, and we now must 
find new crops to match the changing environment.
    The three ways of matching crops to land is one, the most 
common way, is trial and error. Now, we have been doing this 
for years, since Captain Cook, we have been introducing 
hundreds of varieties to Hawaii--pineapple, papaya, sugar 
cane--these are all introduced crops. We have also introduced 
hundreds of other crops which are, today, invasive species. We 
can no longer depend on the slow and costly process of 
introducing new crops to Hawaii by trial and error.
    There is a second way of looking for new crops when climate 
changes. This is called ``transfer by analogy.'' We must travel 
around the world, look for similar environments, and see what 
grows in different environments that are similar to Hawaii's. 
And we have been introducing crops to Hawaii from different 
parts of the tropics based on this analogy concept. And if you 
travel around the world, you also see Hawaiian sola papaya, you 
see Hawaiian pineapple, you see Hawaiian macadamia nut, and how 
would these technologies take into different areas? By analogy. 
So, we have trial and error, and we have analogy.
    Unfortunately, these methodologies are too slow and too 
costly, and will not allow us to accommodate the rapid changes 
that climate change will bring about.
    There is a third way of bringing technology and crops to 
Hawaii, and this is called systems analysis and simulation, 
using crop models. And some 20 years ago, the University of 
Hawai`i established an international project to begin to use--
not trial and error experiments to find new crops, but to use 
knowledge--to capture and condense this knowledge in computer 
simulation models, to show how crops will perform in different 
environments at different times.
    There are two things that are needed to drive these 
simulation models, and I have given in my written testimony, an 
example of how we have used these techniques to try to locate 
new crops for Hawaii by this method. It is fast, it is simple, 
and it is relatively accurate.
    Unfortunately, this method requires historical weather as 
inputs into the simulation models. The historical weather gives 
you a full range of variability in the climate, it needs a 
mean, the average climate, and the variance, extremes, the 
tails of the distributions, the storminess. Means and 
variances.
    Unfortunately, these models which are currently used, these 
models developed by the University of Hawai`i, currently used 
by NOAA, it's also used by world meteorological organizations, 
used widely, globally today, will not be useful during climate 
change, because we can no longer use historical weather to 
drive these models. It's the problem of stationariness, 
scientists call this.
    So, I will just simply close that we have trial and error, 
we have analogy, and we have system simulation. We will all use 
these three methods to find new crops for Hawaii. However, the 
success and the capability of Hawaii and the Pacific Islands to 
find replacement crops for Hawaii will depend not on what 
agricultural scientists do and what economists do, but it will 
depend on atmospheric science to be able to forecast with a 
high degree of accuracy, means and variances of climate in the 
future.
    Thank you very much.
    [The prepared statement of Dr. Uehara follows:]

Prepared Statement of Dr. Goro Uehara, College of Tropical Agriculture 
          and Human Resources, University of Hawai`i at Manoa
    Agriculture cannot remain constant in the face of climate change 
and thus must change as climate changes. The question, therefore, is 
when and how this change will occur, and what options decisionmakers 
ranging from policymakers to producers will have to meet this 
challenge. But before we answer this question, we need to know the bio-
physical factors that link agriculture to climate.
    Agriculture is the art and science of matching the biological 
requirements of crops (plants and animals) to the physical 
characteristics of land. Farming is about minimizing mismatches between 
crops and environment to optimize agricultural performance, and abrupt 
changes in the amount and distribution of rainfall and temperature will 
widen mismatches and lower performance.
    It is important to note that reduced yields associated with climate 
change will not necessarily be caused by diminished land quality, but 
will primarily be a consequence of mismatches between crops and land 
characteristics currently cultivated on a given parcel of land. In fact 
climate change may transform land now too dry or cold into prime 
agricultural land to expand the land area suitable for food production. 
The issue therefore is to have in hand, effective methods to match crop 
requirements to changing land characteristics in a timely and cost-
effective manner.
    There are three ways to match crops to suitable agro-environments. 
The first and most frequently used method is by trial-and-error. Our 
ancestors carried seeds of their favorite crops as they migrated to new 
unoccupied lands, and preserved seeds of those plants that performed 
well in the new location. Some wise farmers saved seeds from the best 
performing plants, and were able to improve farm productivity by 
repeating this process for many plant generations. The early Hawaiians 
were able to produce over a hundred taro varieties through this 
process. But the Hawaiians had centuries to complete this task and taro 
is no longer the primary food staple in Hawaii. The trial-and-error 
method of matching crops and crop varieties to locations with suitable 
growing conditions is too slow and costly. With climate change already 
upon us, we no longer have the luxury of time and resources to conduct 
endless trial-and-error field trials.
    There is second and better ways to find crops that will do well on 
your land. This method called matching by analogy depends on assuming 
that crops that perform well on land similar (analogous) in soil and 
climate to your land will perform well on your land. This approach is 
possible in the U.S. and Hawaii because the entire country has been or 
is in the process of being inventoried and mapped in detail according 
to soil type and climate. This system of inventorying our land 
resources on the basis of soil and climate was developed by the Natural 
Resource Conservation Service of USDA (USDA Staff, 1999). Using this 
method, one can search for crops that are suitable for a particular 
location in Hawaii by looking for analogous soils in Botswana, Guam, 
India or Panama and see what crops perform well there. In 1974, the 
University of Hawai`i conducted a 10-year project to test the 
applicability of the approach on an international scale and showed that 
test crops not only performed well in similar soils and climates in 
Brazil, Indonesia, Cameroon, Philippines and Hawaii, but responded to 
similar management practices to attain high grain yields (Silva, 1985). 
The limitation of matching crops to land characteristics by analogy is 
its exclusion of crops that have never been grown in that particular 
type of environment. We need a method that enables growers to evaluate 
the profitability of growing the widest possible range of crops on 
their land quickly and at prices they can afford.
    This brings us to the third methods of identifying crops to replace 
those that have become unprofitable from the effects of climate change. 
It is worth repeating that a crop or crop variety that performs poorly 
in one location can regain its yield potential in another location 
where its biological requirements are more adequately met. Climate 
change does not require us to abandon or discard existing crops and 
crop varieties, but requires finding new environments for them. In 
Hawaii this may mean growing Kapoho papaya in Mountain View. Does this 
also imply that Mississippi soybean can be transferred to Minnesota 
with global warming? Unfortunately Mississippi and Minnesota differ in 
day length and photoperiod sensitive soybean that performs well in the 
southern U.S. will not do well in the northern states. But should 
climate change shift moisture from Mississippi to Arizona, it should be 
possible to transfer photoperiod sensitive crops between the two 
states.
    Mismatches between crops and land characteristics caused by climate 
change will not only cause yields to decline but most probably will 
also cause yield variances to increase. Every grower's goal is to 
produce high yields and profit, and to avoid high yield variances, or 
feast to famine fluctuations in yield and profit. High yield variance 
adds risk and uncertainty to farming and is sufficient in itself to 
cause farmers to abandon farming. Random, uncontrollable meteorological 
factors introduce risk and uncertainty to farming and compel decisions 
to gamble with nature.
    Gambling is a risky game of probabilities. Thus, to determine how a 
crop will perform in a new climate requires many years of testing to 
expose hidden dangers which one or 2 years of on-farm trials cannot 
reveal. Since the risk of crop failure and income loss resides in the 
tails of probability distributions, climate change requires scientists 
to develop tools capable of generating whole probability distributions 
of production outcomes.
    Whole probability distribution cannot be generated by conducting 
trial-and-error experiments or by searching for crops in analogous 
environments. Whole probability distributions can only be generated by 
systems analysis and simulations using dynamic, process-based models. 
There are too many factors that influence means and variances of crop 
yield and profit, and there are insufficient resources and time to 
conduct experiments to explore even a fraction of the range of 
outcomes.
    In the next three to four decades, the world must double production 
with a new kind of agriculture to feed, cloth and house a global 
population that will increase not only in size but in aspirations. It 
will be challenging enough just to double production, but we are now 
being asked to do so without compromising the stability and resiliency 
of the ecosystem, and to complicate matters even more, this increased 
production will now need to be achieved in the context of uncertain 
global climate change. It is not surprising then, that there is now 
widespread agreement that business as usual will not do and a new kind 
of agriculture will need to be created to meet the challenge of food 
security for all.
    In 1983, the College of Tropical Agriculture and Human Resources of 
the University of Hawaii established a project called the International 
Benchmark Sites Network for Agrotechnology Technology Transfer (IBSNAT) 
project with Federal funds to produce a software called Decision 
Support System for Agrotechnology Transfer (DSSAT) capable of 
predicting the growth, development and yield of the major food cereal, 
grain legume and root crops anywhere in the world using historical 
weather data to drive the model.
    DSSAT generates whole probability distributions of outcomes based 
on simulated crop yields taking into account daily, seasonal and annual 
weather variations over many decades. This ability to generate and 
display means and variances of production outcomes enables users to 
analyze risk and seek alternative crops and/or crop management 
strategies to maintain high yields and minimize risk. DSSAT not only 
generates information on crop yields, days to maturity, crop responses 
to rate and timing of inputs, but enables users to compute cost of 
production and perform economic analysis.
    The capability of DSSAT is illustrated by the attached paper 
(Ogoshi et al., 1998), which describes the authors' response to a 
request to assess the economic feasibility of producing soybean on land 
formerly used to grow sugar cane. To simulate performance in different 
locations of the land area, DSSAT needed input information on soil, 
weather and soybean varieties. Since no soybean study had been 
conducted in the area, DSSAT was asked to determine the best variety 
based on yields obtained at multiple locations, planted at 12 different 
date, at several different planting densities. A typical task DSSAT 
would be asked to perform might be to evaluate 4 varieties at 6 
locations at 12 (monthly) planting dates and 4 population densities for 
30 consecutive years. DSSAT can complete this task in a few hours, but 
a trial-and-error field experiment would involve installing 34,560 
field plots over a 30 year period.
    As powerful as DSSAT is today, climate change adds a new dimension 
to the task of matching crops to land and compels DSSAT to look for 
help to remain relevant and useful. DSSAT now operates on the 
assumption that historical weather data mimics means and variance of 
current weather. Climate change will invalidate this assumption.
    DSSAT is a product of agricultural scientists and economists. It 
now needs the help of atmospheric scientists to develop climate models 
that can generate means and variances of weather conditions that apply 
to a given parcel of land. Our capacity to match crops to land will 
depend on the climate forecasting capability of atmospheric science.
References
    USDA, Staff. 1999. Soil Taxonomy. A basic system of soil 
classification for making and interpreting soil surveys. 2nd ed. U.S. 
Government Printing Office, Washington, D.C. 20402.
    Silva, J.A. ed. 1985. Soil-based Agrotechnology Transfer. Benchmark 
Soils Project, Department of Agronomy and Soil Science, Hawaii 
Institute of Tropical Agriculture and Human Resources, University of 
Hawaii. 292 pp.
    Ogoshi, R.M., Tsuji, G.Y., G. Uehara, and N.P. Kefford. 1998. 
Simulation of Best Management Practices for Soybean Production in 
Hawaii. Cooperative Extension Service, College of Tropical Agriculture 
and Human Resources, University of Hawaii.
                                 ______
                                 

   Soil and Crop Management--Oct. 1998--SCM-2--Cooperative Extension 
     Service--College of Tropical Agriculture and Human Resources, 
                     University of Hawai`i at Manoa

   Simulation of Best Management Practices for Soybean Production in 
                                 Hawaii

   Ogoshi, R.M,\1\ Tsuji, G.Y.,\1\ G. Uehara,\1\ and N.P. Kefford \2\
---------------------------------------------------------------------------

    \1\ Department of Agronomy and Soil Science.
    \2\ Rural Economic Transition Assistance program.
---------------------------------------------------------------------------
    A method is presented that assesses economic profit, management 
practices, and risk involved with soybean production for three 
locations on the North Shore of Oahu, Hawaii, where soybean has not 
been planted before. Simulations of soybean growth and economic 
analysis using 768 combinations of cultivar, plant density, irrigation, 
and planting date over 20 seasons for each of three locations were made 
using the computer program Decision Support System for Agrotechnology 
Transfer (DSSAT. v. 3.0). Economic profit was calculated as the 
difference between revenue generated from grain yield and the total 
cost incurred from water, seed, labor, and other inputs. High economic 
profit and low variation of the profit from season to season were the 
criteria that identified the best management scheme out of the 768 for 
each location. Results from the simulations indicate profitable soybean 
production at each location is possible if a cultivar adapted to the 
mid-Atlantic states, ``Bragg,'' is planted in the spring. In addition, 
high plant density and irrigation are necessary. Revenue from increased 
yield outweighed the costs accrued from extra seed and water. The 
expected economic profit ranged from $789 to $829 per hectare (2.47 
acres; see conversions). Agronomic modeling with economic analysis was 
shown to be an effective tool for the rapid generation of knowledge 
necessary for decision-making on crop production based on expected 
economic profit and an assessment of risk. Such decisions are key to 
the timely selection of alternative crops and practices in areas 
previously planted to other crops.
Introduction
    Two critical objectives in any agricultural enterprise are to 
minimize cost and maximize production. Economic feasibility of the 
enterprise depends on revenue being greater than cost. Other worthy 
objectives such as minimizing environmental impact or maintaining 
biodiversity may be included, but for this study, minimizing cost and 
maximizing revenue are the objectives.
    Minimizing cost and maximizing production depend on the local 
environment where the crop is grown. An effective way to minimize cost 
is to match crop growth requirements to the biophysical environment, 
which includes soil fertility, rainfall, and temperature. With a good 
match, inputs and their associated costs are minimized. However, 
environments seldom match crop requirements perfectly. Irrigation, 
fertilization, and liming are often necessary to correct fertility or 
moisture deficiencies, or an alternative location must be used to 
fulfill temperature requirements. At each location, the combination of 
these interventions to correct mismatches is probably unique. 
Therefore, determination of the best management practices to produce 
crops will require information on the crop, weather, and soil; the 
effects of particular management practices; and their combined impact 
on yield.
    Information needed to manage environmental mismatches for crop 
production is generated in one of two ways: through trial-and-error 
field experimentation or systems simulation. The scope of the 
information generated in these two ways is different. In field 
experiments, the scope includes the specific responses of a crop to the 
environment as influenced by genetics, plant competition, and soil 
amendments at a particular time and place. Field experiments seldom 
integrate climate with crop response to soil and soil amendments 
because this involves multi-year and multi-location experiments, which 
are extremely expensive. Because field experiments can rarely be 
conducted over many years and locations, simulated outcomes of such 
experiments are useful. Crop simulation models are designed to imitate 
the behavior of real plants by integrating their known response to 
weather, soil, and amended conditions. Models can estimate crop 
production under many conditions to define precise differences that can 
occur from year-to-year or location-to-location, or as a consequence of 
finely graded management practices. Specific field experiments are 
still necessary to generate the new information on crop responses to 
factors that are not included or not well simulated in the model. 
Trial-and-error experiments and systems simulations generate 
information that are complementary. Field experiments produce new data 
that improves our understanding of plant and soil processes. Crop 
models integrate the improved understanding into new knowledge of crop 
performance.
    The purpose of this study was to determine the agronomic and 
economic feasibility of soybean (Glycine max L. Merr.) production at 
selected sites on the North Shore, Oahu, Hawaii, as part of a rural 
stabilization program based on alternative crops for former sugarcane 
land. Feasibility will be appraised with projections from a soybean 
simulation model. Since large-scale soybean production has never been 
done on the North Shore, the model will be used to estimate yields that 
result from management decisions such as location, planting date, 
cultivar, plant density, and irrigation. With this information, the 
combination of management practices likely to give high, stable yield 
and economic profit will he determined.
Procedure
    Predicting soybean yield requires a biophysical description of the 
sites to give the model information on the environmental factors that 
affect soybean growth. Kawaihapai, Waialua, and Opaeula, sites on the 
North Shore, were selected for simulating soybean growth and yield 
(Fig. 1). Based on experience with soybean production outside Hawaii, 
these three locations were assessed to contain the fewest constraints.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Records characterizing the unique weather and soil of each site 
were found in the archives of the Hawaii Agricultural Research Center 
(Osgood, personal communication) and Ikawa et al., (1985). All sites 
have a weather pattern typical of low-elevation, leeward areas in 
Hawaii. Solar radiation and temperature are high in the summer months, 
and rainfall is high in the winter months. Annual solar radiation is 
highest at Waialua, while Kawaihapai and Opaeula have similar, lower 
values (Fig. 2). Mean daily temperature is highest at Kawaihapai and 
lowest at Opaeula throughout most of the year (Fig. 3). Opaeula 
receives the most rainfall, 1046 mm a year, while Kawaihapai and 
Waialua receive 880 and 846 mm, respectively. (Fig. 4). Soil texture, 
bulk density, pH. and organic carbon content determine the amount of 
water the soil can hold, water movement in the soil profile, and root 
penetration. These soil attributes are derived from soil physical and 
chemical characteristics in each layer of the soil profile at 
Kawaihapai (Ustollic Camborthid, fine, kaolinitic. isohyperthermic), 
Waialua (Vertic Haplustoll, very fine, kaolinitic, isohyperthermic), 
and Opaeula (Tropeptic Eutrustox, clayey, kaolinitic, isohyperthemic) 
(Table 1). Each combination of weather and soil characteristics 
establishes the environmental conditions in which soybean growth was 
simulated.
Climatic conditions at the three study sites.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 ------------------------------------------------------------------------

 Table 1. Soil physical and chemical characteristics of the top layer of
                        soils at the test sites.                                         Site
             -----------------------------------------------------------------------------------------------------------------------------------
Soil               Kawaihapai y           Waialua z           Opaeula z
 characteris
 tic
Clay %                     n.a.                51.1                43.7
Silt %                     n.a.                38.9                37.7
Sand %                     n.a.                10.0                18.6
Bulk density               1.33                1.28                1.31
 (g/cm\3\)
Organic                     2.0                 4.1                 1.5
 carbon %
pH                          7.7                 7.2                 5.2
y SCS 1976, z Ikawa et al., 1965

    After specifying the environmental conditions, management practices 
can he chosen to test how well soybean would yield under a prescribed 
set of practices. Options for management practices may include 
cultivar, plant density, irrigation regime, planting date, 
fertilization, row spacing, and organic residue application. For this 
study, cultivar, plant density, irrigation, and planting date were 
combined in the simulations to identify the best management scheme to 
grow soybean on the North Shore. Four cultivars (cvs. `Evans', `Clark', 
`Bragg', and `Jupiter'), four plant densities (150, 300, 450, and 600 
thousand plants per hectare with rowspace 0.6 m), four irrigation 
regimes (no irrigation, 25 percent trigger, 50 percent trigger, and no 
stress), and 12 planting dates (the first day of every month) were 
combined for a total of 768 schemes (equal to 4 <greek-e> 4 <greek-e> 4 
<greek-e> 12). The four cultivars represent types that are grown in 
latitudes from Minnesota (cv. `Evans') to Florida (cv. `Jupiter'). The 
irrigation regimes of 25 percent trigger, 50 percent trigger, and no 
stress were implemented by allowing the soil water-holding capacity at 
a 20 cm depth dry down to 25 percent, 50 percent, and 99 percent of 
field capacity, then irrigation was applied to reach field capacity. 
The 99 percent trigger was used as a control treatment and will be 
referred to as ``no stress.'' Soybean growth was simulated for each of 
the 768 possible schemes over 20 unique weather sequences.
    Predicted soybean growth and yield were simulated using CROPGRO-
soybean (Hoogenboom et al., 1994a). CROPGRO-soybean simulates soybean 
progress through its life cycle at a daily time-step and is dependent 
on the cultivar, temperature, and daylength. Photosynthesis is 
simulated through the capture and conversion of sunlight and carbon 
dioxide to carbohydrate, the building material for plant tissue. 
Protein production is simulated from nitrogen uptake through the roots 
and biological nitrogen fixation. CROPGRO-soybean distributes the 
carbohydrate and protein among plant organs (roots, stems, leaves, 
pods, and seeds) as affected by the stage of its life cycle, water or 
nitrogen stress, daylength, and temperature. At the end of the 
simulated season, the final seed weight is designated to be the yield. 
CROPGRO-soybean was designed to mimic soybean behavior and has been 
successfully tested under a wide range of environments (AVRDC 1991, 
Egli and Bruening 1992, Hoogenboom et al., 1994b, Swaney et al., 1983).
    Simulation of the 768 combinations of cultivar, plant density, 
irrigation, and planting date over 20 seasons was facilitated with the 
software package Decision Support System for Agrotechnology Transfer 
v3.0 (DSSAT v3) (Tsuji et al., 1994).
    To decide which management scheme was best, a mean-variance 
analysis was conducted for each location. This technique presumes that 
the two important factors in deciding which strategy is best are the 
amount of economic profit and its riskiness. Economic profit is simply 
the revenue generated from selling the grain minus the cost of its 
production. Since the alternative to producing soybean in Hawaii is 
shipping grain from Seattle, Washington, the price of soybean grain was 
assumed to be the market price of the grain on the U.S. mainland plus 
shipping, or $449 per metric ton of dry grain in March 1997. Local 
production cost scenario was based on a 300 hectare farm on leased land 
and equipment purchased with a loan (M. McLean, personal communication) 
(Table 2). The basic production cost for the non-irrigated and 
irrigated farm was $1,602 and $1,772 per hectare. The costs for 
irrigation water, irrigation application, and seed were $0.10 per 1,000 
gallons, $1.30 per application, and $0.66 per kg, respectively (M. 
McLean, personal communication). The riskiness of a strategy is 
represented by the standard deviation of profit derived over the 20 
years.
 ----------------------------------------------------------------------------------------------------------------

         Table 2. Base production cost for producing irrigated soybean in Waialua on a 300-hectare farm. 
----------------------------------------------------------------------------------------------------------------
Operating costs
A. Pre-harvest costs                             units/ha            in units              $/unit   $ cost/ha
  1. Land preparation
    a. Labor to clear land                            6.7               hours                  20         134.00
    b. Machinery to clear land                        6.7               hours                  35         234.50
  2. Planting
    a. Labor to plant seed                            3.7               hours                  20          74.00
    b. Machinery to plant seed                        1.9               hours                  35          66.50
  3. Pest control
    a. Herbicide: Roundup                             1.4             gallons                  75         105.00
    b. Labor to spray                                2.47               hours                  20          49.40
    c. Sprayer operation                             2.47               hours                  35          86.45
  4. Irrigation
    a. System setup costs                               3           sprinkler                  20          60.00
B. Harvest costs
  1. Harvesting
    a. Labor to harvest                               1.2               hours                  20          24.00
    b. Combine operation                              1.2               hours                  35          42.00
  2. Commission and excise tax                    294,852             $ gross              0.0417          40.98
Ownership costs
A. Management resource                            gross $                                 % gross
  1. Management                                   294,852                                       5          49.14
  2. Office overhead                              294,852                                       2          19.66
B. Capital resources
  1. Depreciation (est.) on                    invested $      % depreciation      depreciation $
    a. Machinery and equipment                    270,000                  14              37,800         126.00
    b. Irrigation system                          300,000                   5              15,000          50.00
                                                   loan $          % interest          interest $
  2. Interest expense on loan                     270,000                  10              27,000          90.00
                                                 equity $            % equity       opportunity $
  3. Opportunity cost on equity                   300,000                   6              18,000          60.00
C. Land resource                               assessed $               % tax                 tax
  1. Property tax                                 300,000                   1              30,000         100.00
                                                premium $
  2. Property insurance                            16,000                                                  53.33
                                                payment $
  3. Leasehold                                     92,000                                                 306.67
Total                                                                                                    1771.63

    With the mean profit and its standard deviation, the best strategy 
to produce soybean can he found based on a few assumptions. Mean-
variance analysis assumes that most people prefer high profit and low 
risk, and most are willing to accept a lower profit if risk can he 
reduced to a ``comfortable level.'' When the mean profit is plotted 
against the standard deviation, the best strategies are those with high 
mean and low standard deviation found in the upper left corner of the 
graph (e.g., Fig. 9).
    Further discrimination among the remaining strategies was done with 
stochastic dominance analysis (Thornton et al., 1994). Ultimately, only 
one strategy was selected as best for each location.
Outcome
Results from the Simulation
    The simulation showed that differences in the daylength sensitivity 
of cultivars profoundly affected yield. The yield differences result 
from increases in the time from planting to flowering as daylength 
increases, i.e., in spring (Fig. 5). This permits more leaf growth, 
which supports greater yield. `Jupiter', the cultivar adapted to low 
latitudes, is the most daylength-sensitive cultivar as seen in its 
greatly prolonged time to flowering when planted in the summer months. 
The least daylength sensitive cultivar, `Evans', had a relatively 
constant time to flowering regardless of planting date (Fig. 5).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The greatest yield for the daylength-sensitive cultivars was 
obtained with spring planting dates, while the lowest was with fall 
planting dates (Fig. 6). Meanwhile, the daylength-insensitive cultivar 
`Evans' had a relatively stable yield regardless of planting date. The 
close relation between yield and time to flowering suggest that yield 
depends on leaf area. However, yield differences among cultivars across 
planting dates were not completely dependent on leaf area differences. 
For any planting date, `Jupiter' was a larger plant than `Bragg' (data 
not shown), yet `Bragg' had greater yield than `Jupiter' in the spring 
plantings (Fig. 6). The yield reduction in the spring for `Jupiter' 
resulted from nitrogen deficiency stress that may have been induced by 
excessive top growth. So, the best yielding cultivar changes with 
planting date: `Bragg' had the highest yields when planted from March 
to June, while `Jupiter' produced the highest yields for other planting 
dates.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Increased plant density can increase yield, but seed costs make the 
yield gain expensive. At all planting dates, increased plant density 
raised soybean yield (Fig. 7). The mean yield for plant densities was 
1,739 kg/hectare at 150,000 plants/hectare, 2,059 kg/hectare at 300,000 
plants/hectare, 2,286 kg/hectare at 450,000 plants/hectare, and 2,437 
kg/hectare at 600,000 plants/hectare. The diminishing gain in yield for 
each increase in plant density indicates that yield per plant was 
greatly lowered as plant density was raised. The reduced yield per 
plant resulted from increased competition among plants for water, 
sunlight, and nutrients.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While irrigation generally increased yield over raided soybean, 
efficient water use in soybean production depended on the planting date 
and location. Except for the fall plantings, which had virtually the 
same yield for all regimes, irrigation increased yield over rainfed 
crops for all planting dates (Fig. 8). The 25 percent trigger 
irrigation regime gave a larger yield than the rainfed crop, but 
smaller than the 50 percent trigger and no stress regimes. The 50 
percent trigger irrigation regime generated yield nearly the same as 
the no stress regime, but was sometimes higher, probably due to 
waterlogged conditions in the no stress regime. The most water-use 
efficient irrigation regime to produce soybean can be calculated from 
irrigated yield minus rainfed yield, divided by the amount of 
irrigation water used (Table 3). With the ratios 8.23 and 8.40 kg/
hectare per mm of water, the 25 percent trigger regime was most 
efficient for producing soybean grain at Kawaihapai and Opaeula. At 
Waialua, the 50 percent trigger irrigation regime was the most 
efficient at 7.90 kg/hectare per mm of water.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 ------------------------------------------------------------------------

Table 3. Ratio of difference between irrigated soybean grain and rainfed
 yield (kg/ha) to irrigation water used (mm) for soybean grown at three
                             sites on Oahu.                            Ratio (kg/ha per mm of water) z
             -----------------------------------------------------------------------------------------------------------------------------------
Location            25% trigger         50% trigger           No stress
Kawaihapai                 8.23                7.74                4.57
Waialua                    7.80                7.90                3.41
Opaeula                    8.40                7.77                4.19
z Yields and irrigation water averaged over four cultivars, four plant
  densities, and 12 planting dates.

Agronomic Interpretation of the Simulation Results
    In summary, simulated soybean yields varied with site and the 
management practices of cultivar, plant density, irrigation, and 
planting date.
    Daylength sensitivity among the cultivars had the greatest effect 
on yield. Soybean flowers earlier in short days, and delays flowering 
in long days resulting in a larger plant with more leaves capable of 
supporting greater yield. However, too much vegetative mass can divert 
carbohydrate and protein resources away from grain growth. Hence, the 
cultivar of choice should be one that increases leaf area and supports 
greater yield, not one with vegetative growth that curbs yield.
    Plant density must balance the beneficial effect of capturing the 
greatest amount of sunlight and the harmful effect of increased plant 
competition for water and nutrients.
    Irrigation supplies essential moisture to plants, but in excess can 
create waterlogged conditions that inhibit root growth with increased 
water cost.
    Because weather patterns proceed through annual cycles, changing 
the planting date alters the daylength, rainfall, solar radiation, and 
temperature the plant is exposed to. As previously discussed, seasonal 
daylength, in conjunction with the daylength sensitivity of the soybean 
cultivar, greatly affects plant size and yield potential.
    Cyclical rainfall governs soil moisture status that influences 
water stress and irrigation frequency as planting date changes. With an 
inverse relation to rainfall, solar radiation exhibits an annual cycle 
that affects yield as plants compete to intercept the sun's energy. 
Planting date has important implications on yield as affected by plant 
size, soil moisture, and plant competition.
    Given the above information, estimates on profit can be based on 
the expected yield and the expected costs of seed, water, and 
``overhead.'' However, this information is inadequate to provide 
options to make a decision on the best production scheme since a trade-
off exists between seed and water costs and revenue, and that tradeoff 
depends on weather that changes from year to year.
Selecting the Best Management Scheme
    The better management schemes based on economic profit and 
riskiness show that generating more revenue can overcome the extra 
costs incurred to increase grain yield. For each location, the mean 
economic profit per hectare for each management scheme was plotted 
against its standard deviation for the 20 seasons (Fig. 9). The better 
schemes are those found along the outer edge of the upper left quadrant 
in the scatter. These schemes have high profit, low risk, or both. 
Generally, these better schemes result when fields are planted with 
`Bragg' or `Clark', are planted in April or May, and mostly irrigated 
when the soil moisture reaches 50 percent of field capacity. The plant 
density for the better schemes range from 300 to 600 thousand per 
hectare. While irrigation and high seeding rate increased the cost of 
production, the revenue generated from higher yield of irrigated crops 
planted in these 2 months offset the cost.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The best management scheme is the same for the three locations, but 
the expected profit is different. Stochastic dominance analysis was 
applied only to the better management schemes. The best management 
scheme is identified as the function furthest to the right that does 
not cross over other functions (Fig. 10). The best management scheme 
was `Bragg' planted in April at 600, 000 plants per hectare with 
irrigation triggered when soil moisture reached 50 percent of field 
capacity. This management scheme was the best for all three locations. 
The expected profits for Kawaihapai, Waialua, and Opaeula were $789, 
$811, and $829 per hectare, respectively.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The worst schemes, in terms of mean economic profit, had several 
management practices in common. A negative mean economic profit 
resulted from schemes with any one of the following practices: cultivar 
`Evans', a plant density of 150,000 plants per hectare, rainfed, or a 
planting date in January, February, July, August, September, October, 
November, or December. The cultivar `Evans' had consistently lower 
yields, because of early flowering as discussed previously, that did 
not generate enough revenue from yield to compensate for the costs 
incurred for basic production. Planting at a density of 150,000 per 
hectare was too low to produce high yield. Rainfed crops lacked the 
moisture to produce adequate yield and planting from July to February 
either did not place the crop in favorable moisture or solar radiation 
conditions to yield well as previously discussed.
Conclusions
    This study shows that an agronomic model and economic analysis are 
useful tools for agricultural decision-making. In Hawaii, the 
agricultural environment is complex due to the fact that crops can grow 
year-round and topographical influences on weather and the many soil 
types create many unique niches. Finding agricultural management 
practices to deal with this complexity has been difficult but is 
possible with careful extrapolation of results from field experiments. 
However, field experiments are time-consuming and do not quantify the 
variation in yield that can be expected from month to month and year to 
year. The soybean model coupled with economic analysis helps to 
overcome both of these problems.
    In this study, crop models shortened the time needed to test and 
determine suitable management schemes to produce crops in specific 
locations. This analysis took approximately 1 week to complete. To 
achieve the same results, 768 field experiments would have had to be 
done over 20 years. The faster result is possible because the crop 
model has the ability to integrate weather, soil, and management 
information from a site and make realistic predictions on crop 
performance. With predicted yields, a fast economic analysis can be 
done to identify feasible management schemes based on profit and risk.
    Predicting crop performance can have a profound impact on land-use 
decisions requiring this information. For this study, the question of 
whether soybean can be produced on the North Shore was answered from 
the viewpoint of an entrepreneur. Others who may benefit from this 
information include farmers who want to know whether alternative crops 
can be produced on their land, bankers who need to quantify the risk 
involved in an agricultural enterprise applying for a loan, and 
policymakers who need information on land capabilities. Armed with this 
information, decisions to commit a plot of land or investment capital 
to crop production are not answered with a simple yes or no but with 
estimates of economic profit, options for management practices to 
produce this profit, and an assessment of risk.
Acknowledgments
    The authors extend their appreciation to Dr. PingSun Leung for his 
help with the economic analysis, Dr. Robert Osgood for making weather 
data available, Dr. Michael McLean for providing the cost-of-production 
spreadsheet, and Ms. Juvi Pagba for production assistance with this 
publication.
    This work was supported in part by the U.S. Department of 
Agriculture through a special research grant under the Tropical/
Subtropical Agricultural Research program Special Agreement No. 93-
34135-8811 managed by the Pacific Basin Advisory Group (PBAG) and a 
contract with the Rural Economic Transition Assistance program.
References
    AVRDC, 1991. 1990 Progress Report. Asian Vegetable Research and 
Development Center. Shanhua, Tainan, Republic of China.
    Egli, D.B. and W. Bruening, 1992. Planting date and soybean yield: 
Evaluation of environmental effects with a crop simulation model: 
SOYGRO. Agricultural and Forest Meteorology 62:19-29.
    Hoogenboom, G., J.W. Jones, P.W. Wilkens, W.D. Batchelor, W.T. 
Bowen, L.A. Hunt, N.B. Pickering, U. Singh, D.C. Godwin, B. Baer, K.J. 
Boote, J.T. Ritchie, and J.W. White. 1994a. Volume 2-2: Crop models. 
In: Tsuji et al, op. cit.
    Hoogenboom, G., J.W. Jones, K.J. Boote, N.B. Pickering, W.T. Bowen, 
and W.D. Batchelor, 1994b. A new and improved soybean simulation model: 
CROPGRO-Soybean. World Soybean Research Conference V, Chiang Mai, 
Thailand, Feb. 20-27, 1994.
    Ikawa, H., H.H. Sato, A.K.S. Chang, S. Nakamura, E. Robello, Jr., 
and S.P. Periaswamy, 1985. Soils of the Hawaii Agricultural Experiment 
Station, University of Hawaii: Soil survey, laboratory data, and soil 
descriptions. HITAHR Res. Ext. Series 022.
    Soil Conservation Service, 1976. Soil survey laboratory data and 
descriptions for some soils of Hawaii. Soil Conservation Service, U.S. 
Dept. of Agriculture, Soil Survey Investigations Report No. 29, U.S. 
Government Printing Office 212-613.
    Swaney, D.P., J.W. Jones, W.G. Boggess, G.G. Wilkerson, J.W. 
Mishoe, 1983. Real-time irrigation decision analysis using simulation. 
Trans. American Society of Agricultural Engineers 26:562-568.
    Thornton, P.K., G. Hoogenboom, P.W. Wilkens, and J.W. Jones, 1994. 
Volume 3-1: Seasonal Analysis. In: Tsuji et al., op. cit.
    Tsuji, G.Y., G. Uehara, and S. Balas (eds), 1994. DSSAT v3. 
University of Hawaii, Honolulu, Hawaii.
Conversions
    1 kg = 2.2 lb
    1 lb = 0.454 kg

    1 hectare (ha) = 2.47 acre
    1 acre = 0.405 hectare

    $1.00/ha = $0.405/acre

    1 kg/ha = 1.12 lb/acre
    1 lb/acre = 0.89 kg/ha

    1 mm = \4/100\ inch
    1 inch = 25.4 mm

    20 +C = 70 +F, 25 +C = 77 +F

    The Chairman. All right, thank you very much, Dr. Uehara. 
Your testimony has been most helpful.
    I think I should point out a few facts of life in the 
Congress.
    After about 30 years, I'm pleased to tell you that my 
Committee passed a fuel efficiency law. It was carried out with 
the opposition, powerful opposition, of automobile companies 
and such, but it's now part of the laws of the United States.
    The Center that you spoke of, Dr. Kim, and the other 
programs, like the Tropical Agricultural Center on the Big 
Island, and the grants that you speak of, have been calculated, 
but they're all earmarks. I'm certain you've heard of that 
nasty word ``earmark,'' and ``add-ons.''
    As you know, I've been condemned because of my success in 
getting these earmarks, and I'm not embarrassed by them. If we 
didn't have the earmarks, you wouldn't have your Center, you 
won't have the Tropical Agricultural Center on the Big Island. 
So, it may interest you to know, although you're not involved 
in it, the very popular East-West Center is an earmark.
    And so, you'll hear all of these politicians speaking about 
doing away with earmarks. I hope they'll look at the 
Constitution, because the Constitution says the Congress of the 
United States has a role to play.
    Well, if these grants and earmarks were not provided, what 
would your operation be like, Dr. Kim if your Center wasn't 
there?
    Dr. Kim. Well, the Center provides a tremendous opportunity 
to do things that we are doing right now, but to a much larger 
scale. In part, what we have is a tremendous amount of 
research, good research, outstanding, world-class research 
that's conducted at the University of Hawai`i. What's needed is 
to translate this research into effective policies, programs 
and training programs. And what's needed is some special 
sensitivities that, I believe, that we have at the University 
of Hawai`i, and in this region.
    I mean, the first is our exposure to a broad range of 
natural hazards. The second issue that we have that makes us 
all the more important is our vulnerability--our remote 
location. It's the combination of these risks that we face, but 
also what would happen in the event that we have a very serious 
natural disaster occurring, and we've had so many recent 
disaster declarations that suggest this is a problem.
    So, it's something just about improving our community, but 
by developing effective programs to prepare, respond and 
recover from these hazards, we can really serve as a model. We 
can avert the disaster which happened with Katrina, and in 
other places as well, too, because we have both the resources 
and the concentration of policymakers and decisionmakers and 
others, in this community, that's really unlike any other place 
in the world.
    One of those things that I would like to point out, is I 
went to graduate school in Massachusetts, which has 351 cities 
and towns. As you're aware, in Hawaii, we have four units of 
local government. We have a tremendous degree of 
centralization, and good programs that have been developed at 
the local level, and a real opportunity to work closely with 
State, local, and Federal Government, and with the University 
of Hawai`i. I think that's unlike any other Center.
    And when I've talked with my counterparts, they realize 
that we do have certain locational advantages, both in terms of 
the hazards that we face, the vulnerabilities, but also the 
opportunities to build a training program.
    You know, I came from these meetings with the United 
Nations University, and there were many of our Pacific Island 
partners attending this meeting--from American Samoa, from 
Guam, from other parts of the flag territories, Vanuatu, Fiji, 
even places that are not part of the United States, but--and 
they really look to Hawaii for leadership, assistance, 
technical support, training in this area, and in other areas.
    And so, I think we have a broad mission, in addition to 
addressing the needs of the Nation, as a whole, coastal 
communities, in particular, others exposed to the range of 
similar natural hazards from flooding to earthquakes to 
hurricanes--I think we also have a special obligation and 
responsibility for work in the region.
    The Chairman. Well, I hope you'll speak up when someone 
says nasty things about earmarks.
    Dr. Kim. Absolutely.
    [Laughter.]
    The Chairman. Well, I can assure you that your 
Congressional delegation is well aware of the importance of 
Hawaii in this battle to keep our planet viable.
    We know, as Dr. Leong pointed out, 85 percent of the coral 
beds in the United States are found here. We also know that 
because of its isolation, Hawaii is the most dependent State on 
fossil fuels. As a result, we have been doing our best to bring 
in activities here that could make Hawaii a model, could make 
Hawaii a test lab.
    For example, it may interest you to know that the first 
military hydrogen bus operated here in Hawaii. And I can assure 
you, the military didn't want to get involved with that, 
because they said, ``It's none of our business,'' you know? The 
first electric bus was developed at the University of Hawai`i.
    And so, we do get involved in activities of this nature, 
and if it weren't for the grants, I think that your research 
program would be nil.
    Dr. Kim. That's correct.
    The Chairman. And, I'd like to, if I may, because these 
questions would take much concern, can we submit to you, 
questions that you can respond to? They are highly technical in 
nature, I want to be able to present to my Committee, a full 
portfolio of issues, reactions, and what we can do about it.
    So, with that, I'd like to thank you all for your 
testimony, it's been extremely helpful. And I can assure you 
that it won't be wasted.
    Thank you very much.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Fred T. Mackenzie, Ph.D.
    Question 1. NSF expects the impact of the FY08 cuts to be 1,000 
fewer new research grants awarded, 230 fewer Graduate Research Fellows 
hired, and several major solicitations delayed for at least a year, 
including in the areas of computer science, cyber-infrastructure, and 
mathematics and physical sciences. Do you anticipate your programs 
experiencing repercussions from the lower than expected FY 2009 
President's request?
    Answer. Yes, our programs have not been keeping up over the years 
with grant needs of excellent scientists and a budget that only meets 
last fiscal year's will result in proposal success rates that are at 
even lower levels than 10-20 percent.

    Question 2. Do you feel that more could or should be done to 
explicitly bolster education programs at the University of Hawaii and 
Hawai`i Pacific University?
    Answer. Yes definitely, and especially in earth system and global 
environmental science. Every educated university undergraduate student 
should be required to take such a course, just like they take freshman 
English.

    Question 3. Since 2004 the state has been making climate change 
mitigation and adaptation a priority through increased dedication and 
investment in the research and development of clean energy 
technologies. How has legislation passed in recent years benefited your 
research or commercial goals?
    Answer. No direct benefit and I do not feel the state is making the 
effort needed to meet the challenges of peak oil, the fact that 90 
percent of our energy comes from oil, mainly foreign, and is doing 
little to adapt to the global climate changes of the future. Mitigation 
is almost useless for Hawaii since we produce so little greenhouse gas 
relative to much of the rest of the world. We need to pay more 
attention to adaptation.

    Question 4. Dr. Mackenzie, in your testimony, you indicated that 
regional climate models are not yet as robust as global climate models. 
What do we need to get to the point where the regional models are as 
useful as the global models?
    Answer. I feel there are at least two major things we require--more 
regional data on climate variables like temperature, precipitation, and 
seawater CO<INF>2</INF> and carbon chemistry and development of new 
models for the influences of global climatic change on the regional 
scale ocean-atmosphere system and marine and terrestrial ecosystems. 
The model complexity needs to be on the order of the models that have 
been developed for El Nino-Southern Oscillation events. Data 
acquisition requires more use of satellite technology and in situ 
networks of instrumentation to measure the changes in the major 
physical variables of climate and the important physical, chemical and 
biological properties of the oceans on a regional scale.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Jo-Ann C. Leong, Ph.D.
    Question 1. Have you found evidence of increasing ocean temperature 
around Hawaii's reefs and have you observed a correlation to bleaching 
events or disease?
    Answer by Paul Jokiel, Research Professor, HIMB. HIMB scientists 
have been working on this question for the past 40 years. In the early 
1970s studies on the impact of elevated temperature on coral reefs were 
initiated by Paul Jokiel and Steve Coles in order to understand the 
possible impact of a proposed Hawaiian Electric Co. power plant in 
Kaneohe Bay. Their reports show that a warming of one degree above 
summer maximum temperature will lead to bleaching of corals and high 
mortality (Jokel and Coles 1974, 1977). Field and laboratory studies at 
Kaneohe Bay and at Enewetak Atoll led to the generalization that corals 
in the tropics as well as the subtropics are living within 1 degree of 
bleaching during the summer months (Coles et al., 1976). This 
generalization has been shown to be true throughout the world (Jokiel 
2004). Jokiel and Coles (1990) also predicted that Hawaii would 
experience a major coral bleaching event with rising sea water 
temperature in a manner similar to locations throughout the tropics. 
The first major bleaching occurred in the main Hawaiian Islands in 1996 
followed by bleaching in the Northwestern Hawaiian Islands in 2002. 
These events are documented in by Jokiel and Brown (2004), and they 
clearly link rising global temperature to the bleaching events. The 
history of Jokiel's involvement in this question is summarized in 
Fig.1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fig. 1. Increasing temperature in Hawaiian waters, prediction of 
bleaching (1990) and bleaching event summary.

    At the present time Paul Jokiel is continuing his global climate 
change studies in collaboration with Dr. Bob Buddemeier (Univ. Kansas) 
and others. They have produced a model that quantitatively describes 
the future changes on Hawaii coral reefs over the next century given 
various scenarios of carbon dioxide emissions (Buddemeier et al., in 
press). Other studies by Jokiel and colleagues show that ocean 
acidification, expected to occur in this century as a result of 
anthropogenic carbon dioxide emissions, will have severe impact on 
coral reefs (Kuffner et al., 2008, Jokiel et al., 2008).
References
    Jokiel, P.L., and S.L. Coles. 1974. Effects of heated effluent on 
hermatypic corals at Kahe Point, Oahu. Pac. Sci. 28(1):1-18.
    Coles, S.L., P.L. Jokiel and C.R. Lewis. 1976. Thermal tolerance in 
tropical versus subtropical Pacific reef corals. Pac. Sci. 30:156-166.
    Jokiel, P.L., and S.L. Coles. 1977. Effects of temperature on the 
mortality and growth of Hawaiian reef corals. Mar. Biol. 43:201-208.
    Jokiel, P.L. 2004. Temperature Stress and Coral Bleaching. 2004. 
pp. 401-425 In Coral Health and Disease (E. Rosenberg and Y. Loya 
Eds.). Springer-Verlag, Heidelberg.
    Jokiel, P.L. and Eric K. Brown. 2004. Global warming, regional 
trends and inshore environmental conditions influence coral bleaching 
in Hawaii. Global Change Biology 10:1627-1641.
    Kuffner, Ilsa B., Andreas J. Andersson, Paul L. Jokiel, Ku`ulei S. 
Rodgers, and Fred T. Mackenzie (2008) Decreased abundance of crustose 
coralline algae due to ocean acidification. Nature Geoscience 1: 114-
117.
    Jokiel, Paul L., Ku`ulei S. Rodgers, Ilsa B. Kuffner, Andreas J. 
Andersson, Evelyn F. Cox, Fred T. Mackenzie (2008) Ocean acidification 
and calcifying reef organisms: a mesocosm investigation. Coral Reefs 
DOI 10.1007/s00338-008-0380-9.
    Buddemeier, R.W., P.L. Jokiel, K.M. Zimmerman, D.R. Lane, J.M. 
Carey, G.C. Bohling, J.A. Martinich. (in press) A modeling tool to 
evaluate regional coral reef responses to changes in climate and ocean 
chemistry. Limnol Oceanogr.

    Question 2. NSF expects the impact of the FY08 cuts to be 1,000 
fewer new research grants awarded, 230 fewer Graduate Research Fellows 
hired, and several major solicitations delayed for at least a year, 
including in the areas of computer science, cyber-infrastructure, and 
mathematics and physical sciences. Do you anticipate your programs 
experiencing repercussions from the lower than expected FY 2009 
President's request?
    Answer by Steve Karl, Associate Research Professor at HIMB. An NSF 
Small Grant for Exploratory Research (SGER) funds our research on 
genetics and the health of coral reefs. These grants are ``. . . 
recommended for innovative, smaller-scale research ideas that are high-
risk/high-reward . . .'' (NSF website). We were very fortunate to have 
received this award because the research that we proposed is on a 
spatial scale (micro--i.e., meter and centimeter) commonly ignored but 
not known to be irrelevant and an idea that has never been tried 
(understanding the genetic relatedness of every coral colony on a 
reef). Through this research we hope to better understand the physical, 
ecological, and genetic spatial heterogeneity in a reef and its 
relationship to coral reef robustness, resilience, and health. With 
overall risk-adverse nature of the NSF and reduced funding, these types 
of grants are likely to be hardest hit. Although it will not directly 
effect our research, other high-risk proposals that also have the 
potential for high-reward will likely be strongly reduced.
    We are in the process of writing a larger proposal to NSF that uses 
what we've learned to expand to the most exciting and rewarding areas 
our results support. Given that the NSF Biological Oceanography funding 
rate currently hovers around 10 percent, under the best of 
circumstances it is unlikely that we will be successful in our first 
submission. Currently, due to the number of worthy proposals exceeding 
the available funds, even worthy and well-founded research proposals 
are very unlikely to be granted in the first submission. Worthy 
proposals that were not accepted this year due to lack funds have a 
better chance if resubmitted and considered in subsequent years. Since 
we will be submitting for the first time, it is unlikely (regardless of 
the quality of the science) we will be funded. A smaller budget for NSF 
makes this more likely to happen this year and again next year when we 
resubmit. Unfortunately, some of the momentum that we have in the 
research simply won't last 2+ more years for funding to be approved. 
Since no other agency funds this type of fundamental research we likely 
will be forced to change the direction to applied questions that are 
more attractive to other funding sources (e.g., Sea Grant). Experience 
has shown, however, the innovation frequently comes from basic 
research. Applied research is generally too narrowly focused to result 
in fundamentally new ideas. NSF is the only real source for basic, non-
medical science.
    Answer by Malia Rivera, Faculty Marine Education Coordinator at 
HIMB. In addition to research grants, NSF funds projects associated 
with education targets at various levels, including graduate, 
undergraduate and K-12 students (e.g., REU, NSF GK-12, COSEE), as well 
as informal public audiences (e.g., ISE and CRPA). Presumably, cuts in 
the overall NSF budget will impact not only research, but these types 
of important science education related programs as well. Marine science 
education programs associated with academic research institutes such as 
those at the Hawai`i Institute of Marine Biology are uniquely 
positioned to create and deliver educational opportunities that bridge 
and leverage real scientific research (which engages graduate and 
undergraduate students) with meaningful science education and 
scientific literacy at the K-12 and public audience levels. Certainly 
it would be expected that the projected cuts to the President's request 
would diminish the availability of these opportunities that otherwise 
would have served to contribute to the enhancement of science literacy 
in the public audiences and encouragement of the pursuit of higher 
education in science disciplines by local students.

    Question 3. What resources are needed to carry out the proper level 
of monitoring and research of coral reefs?
    Answer by Steve Karl, Associate Research Professor at HIMB. A 
considerable amount of funding is going to environmental sensing on 
global and broad regional scales such as NSF Ocean Research Interactive 
Observatory network (ORION). This view of the physical marine 
environment is useful for things like predicting the frequency and 
severity of hurricanes in the Atlantic, understanding how El Nino and 
La Nina contribute to changing climates, and assessing the role of 
elevated sea surface temperature in the 1997-1998 Indo-Pacific and 2005 
Caribbean mass coral bleaching events. The success of an individual, 
however, is more strongly dependent on very small-scale processes that 
the individual experiences throughout its life. These small-scale 
processes likely are not reflected in the larger, more regional studies 
that are more common. Our research in Kaneohe Bay, Hawaii, however, is 
indicating that there is micro-spatial heterogeneity on coral reefs and 
that these differences are stable over time. We have been monitoring 
the water temperature at points 4 meters apart across a patch reef. We 
are finding that adjacent sites separated by 4 meters can be nearly a 
degree different in temperature. Even more surprising is that these 
differences are stable over time and not associated with the depth of 
the water. This is significant because other researchers have shown 
that coral bleaching occurs at a threshold temperature and temperatures 
even one-degree higher cause coral bleaching. Furthermore, if the 
temperature is sustained the coral colony is unlikely to recover and 
will die.
    Currently, we are collecting the temperature data by using small 
temperature data loggers. These loggers record the temperature every 25 
minutes and store it in memory. Within a month the memory is full and 
we retrieve the data loggers, download the data, clear the memory, and 
put them back out in the field. This is exceedingly time consuming. We 
would also like to collect other measurement (solar irradiance, 
salinity, water movement, etc.) but this is time prohibitive. What is 
urgently needed to further this sort of monitoring are wireless, 
underwater data loggers. Since we have over 100 temperature data 
loggers, it is untenable to have them wired to a central receiver. 
Currently, the technology for underwater wireless communication of data 
is lacking. The appropriate types of monitors would also need to be 
developed so that micro-spatial analyses were possible. In general, 
considerably more resources need to be directed to understanding the 
dynamics at all physical scales from the micro to an ocean basin.

    Question 4. Do you feel that more could or should be done to 
explicitly bolster education programs at the University of Hawai`i and 
Hawaii Pacific University?
    Answer by Judy Lemus, Faculty Academic Programs Specialist at HIMB. 
Undergraduate enrollment in science majors is declining all over the 
country and I think it would be helpful to look at that more closely, 
specifically within the context of Hawaii and develop objectives at UH 
that could help to reverse that trend. Certainly engaging more minority 
and underrepresented groups is needed as the demographics of 
universities move toward parity with the general population. But more 
broadly, I think it also has to do with changing our approach to 
teaching science in a way that keeps up with contemporary culture, is 
more enriching and engaging, and is better in tune with career 
opportunities. So this would require investments in revising curricula 
and also providing more resources for immersive and authentic science 
experiences for undergraduates. I think there is potentially a huge 
need for this at the University of Hawai'i.
    Toward outreach education, the university functions within the 
continuum of a broader educational system and culture, including K-12 
education and free-choice, life-long learning of adult citizens. As 
such, and as the pinnacle of the formal education system, the 
university should certainly be engaged in bolstering education 
throughout that continuum. For science in particular, if the academic 
science community disregards the education needs and interests of the 
public, it risks alienating that public audience and potentially 
eroding support for publicly funded science, and therefore diminishing 
our capcity in science and technology (two of the fastest growing 
sectors of the global economy). We have already seen how difficult it 
is to enage any disenfranchised sector of the public. For the 
University of Hawai`i, there needs to be better coordination of the 
many worthwhile outreach efforts that are happening.
    Answer by Malia Rivera, Faculty Marine Education Coordinator at 
HIMB. In early 2007 the HIMB Education Program, with the help of the 
University of Hawai`i Office of Institutional Research, compiled 
statistics from the Fall 2006 semester on the number students at UH 
Manoa (UHM) majoring in undergraduate degrees from majors associated 
with the School of Ocean and Earth Science and Technology (SOEST--of 
which HIMB is a part), in Zoology, and in Marine Biology (the latter 
two departments whose curricula are most closely associated with the 
mission of HIMB). Despite an overall student body at UHM made up of 60 
percent undergraduate students that graduated from Hawaii high schools 
(that is, students presumably from the State of Hawaii), the proportion 
of students from Hawaii that have declared majors in SOEST was only 15 
percent, in Zoology only 17 percent, and in Marine Biology only 27 
percent. In other words, most of the undergraduates majoring in these 
disciplines do not enter UHM as residents from the state, but rather 
are from either the mainland or other countries. Given recent efforts 
by the state to encourage STEM education to help diversify Hawaii's 
future economy away from its reliance on tourism, there is a need to 
create more opportunities for our local students to pursue science and 
technology disciplines as a course of study and as an eventual career. 
To do this, pathways that help students journey through the sciences 
from the K-12 through the undergraduate and graduate levels of study, 
and eventually job placement, are critical. While the good news is that 
more and more programs like these are emerging, the numbers of our 
students enrolling in these types of majors are still markedly low. 
Cuts to funding at NSF that have supported these efforts would likely 
thwart the progress made thus far.

    Question 5. Since 2004 the state has been making climate change 
mitigation and adaptation a priority through increased dedication and 
investment in the research and development of clean energy 
technologies. How has legislation passed in recent years benefited your 
research or commercial goals?
    Answer by Jo-Ann Leong, Professor and Director of HIMB. The America 
COMPETES Act with the reauthorization of NSF has been instrumental in 
providing funding for many of the HIMB faculty. The importance of this 
funding is documented in the previous answers. As of May 2008, 10 of 15 
HIMB faculty members have competitive research grants from NSF. The 
cumulative amount of this funding, i.e., for multiyear grants, is 
$3,844,288. Some of that funding will end in 2008 and, like all faculty 
members in academic research units, are working very hard to renew 
their funding. Projected cuts will have a major impact on these 
efforts.

    Question 6. What types of trends have you witnessed in regard to 
the erosion of corals here in Hawaii?
    Answer by Charles Fletcher, Professor and Chairman, Dept. of 
Geology and Geophysics, School of Ocean and Earth Science and 
Technology, UH-Manoa. ``No trends have been witnessed in this regard . 
. . coral erosion is not a worry--bleaching and acidification are 
worries and perhaps they are referring to this. The reason no trends 
have been witnessed is that no one is watching. There are no moitoring 
programs set up to look for this effect, and the effect is not expected 
to be manifest for several decades in any case. Of far greater concern 
are coastal run-off, poor water quality in restricted circulation 
areas, and other human impacts.''

    Question 7. Have we seen an increase in the last decade of disease 
events on corals reefs? If so, do you believe this to be attributed to 
increasing ocean temperatures or another event?
    Answer by Greta Aeby, Assistant Researcher, Hawai'i Institute of 
Marine Biology, OEST, UH-Manoa. Dr. Greta Aeby, in her response to your 
question regarding research on corals' resistance to climate change, 
documents the evidence that suggests a correlation between bleaching 
and disease.

    Question 8. Is HIMB conducting any long-term monitoring and 
research of threats to coral reefs such as coral bleaching?
    Answer by Jo-Ann Leong, Professor and Director at HIMB. The Hawai'i 
Coral Reef Assessment and Monitoring Program (CRAMP) was created during 
1997-98 by leading coral reef researchers, managers and educators in 
Hawaii . The initial task was to develop a state-wide network 
consisting of over 30 long-term coral reef monitoring sites and 
associated database. Upon completion of the monitoring network the 
focus was expanded to include rapid quantitative assessments and 
habitat mapping on a state-wide spatial scale. Today the emphasis is on 
using these tools to understand the ecology of Hawaiian coral reefs in 
relation to other geographic areas. Led by Paul Jokiel, Ku`ulei 
Rodgers, Eric Brown, and Alan Friedlander, CRAMP is housed at HIMB and 
the data gathered by the Hawaii CRAMP over the last 7-years from 32 
sites across the Main Hawaiian Islands has been utilized by county, 
state and Federal managers in their efforts to manage the resources of 
Hawaii.

    Question 9. What resources are needed to carry out the proper level 
of monitoring and research of coral reefs?
    Answer by Florence Thomas, Associate Research Professor at HIMB. 
One of the major tasks facing ocean scientists in the 21st century is 
to unravel the complex interaction of physical, chemical, and 
biological processes that underlie the function of oceanic ecosystems. 
We are in an era of rapidly developing technology and are beginning to 
approach science in a cross disciplinary fashion which is providing a 
means to examine these complex interactions rather than focusing on 
single processes or disciplines. Thus we are poised to examine oceanic 
ecosystems in a way that has previously been impossible.
    Over the past 10 years there has been considerable development of 
sensors capable of monitoring aspects of the environment at 
increasingly small scales and with accuracy that meets the level of 
biological responses. To fully understand how corals and coral 
associated organisms respond to a changing environment we need to 
invest in the deployment of small-scale sensor arrays in locations 
where corals and associated organisms can be continually monitored for 
responses using modern molecular and more traditional methods.
    Many biological processes are influenced by the physical and 
chemical characteristics of the environment. For example, hydrodynamic 
regime can determine the rate at which chemicals are delivered to or 
from an organisms or community. This rate in turn can impact biological 
processes such as photosynthesis, nutrient uptake, coral bleaching, and 
algal productivity. Further changes in light and temperature may impact 
normal biological function. While we know from land-based experiments 
that these physical parameters can impact biology, little is known 
about the small-scale fluctuation in physical parameters in the field 
and how organisms in situ respond to naturally occurring changes. To 
date, we do not know which scales of environmental variation may be 
most important in driving changes in ecosystem function. By mapping 
measures of response at the gene, metabolism, and community scale onto 
shifts in environmental parameters taken continuously at scales 
relevant to organisms we can begin to determine the factors underlying 
such shifts. Knowing how organisms respond to large scale and long-term 
perturbations in environmental parameters singly is not enough. We need 
real-time, small scale monitoring of multiple environmental factors at 
the scale of the organism if we are to understand changes in coral reef 
ecosystems.

    Question 10. Research has shown that some corals are able show a 
greater tolerance to climate change and coral bleaching than others due 
to the different species of algae that live within their tissues. What 
research has been done to explore resistance of Hawaiian corals to 
climate change?
    Answer by Greta Aeby, Assistant Researcher, HIMB. Corals have a 
narrow range of thermal tolerance and so are extremely susceptible to 
temperature stress. Studies are now starting to show there is a link 
between coral disease and ocean warming. Several diseases show seasonal 
patterns where higher levels of disease are found during the warm water 
seasons. For example, Willis et al., (2004) found a fifteen fold 
increase in acroporid disease on the GBR during the summer surveys as 
compared to winter surveys. Disease outbreaks have also been found to 
follow water temperature anomalies or bleaching events. On the GBR, 
Bruno et al., (2007) found a significant relationship between frequency 
of warm temperature anomalies and the incidence of white syndrome and 
Miller et al., (2006) found significant coral mortality (26-48 percent 
losses in coral cover) from coral disease on reefs in the U.S. Virgin 
Islands following an extensive bleaching event. High temperature 
anomalies may drive outbreaks of disease by hindering the corals' 
ability to fight infection and/or by increasing the pathogen's 
virulence (Harvell et al., 2007).
    In Hawaii, we are just now developing the capacity to determine 
whether ocean warming, is currently or will in the future, result in 
increases in coral diseases on the reefs of Hawaii. Within the past 
couple of years, baseline disease surveys have been completed and 
focused studies on diseases of concern initiated. So while we do not 
yet know whether water temperatures have affected coral disease levels 
on the reefs of Hawaii, disease outbreaks have already been documented 
in both the northwestern Hawaiian Islands (Aeby 2006) and in Kaneohe 
Bay, Oahu within the main Hawaiian Islands (Aeby et al., unpub. data). 
The recent disease outbreaks in Hawaii are worrisome and raise concerns 
about Hawaii's reefs ability to tolerate conditions associated with 
global climate change. Research is desperately needed to understand 
coral disease processes in Hawaii and thus be able to predict the 
trajectory of the health of Hawaii's reefs in the face of increasing 
anthropogenic stressors and warming ocean temperatures.
Literature cited
    Aeby, G.S. 2006. Outbreak of coral disease in the Northwestern 
Hawaiian Islands. Coral Reefs 24(3):481.
    Bruno, J., Selig, E., Casey, K., Page, C., Willis, B., Harvell, D., 
Sweatman, H. and A. Melendy. 2007. Thermal Stress and coral cover as 
drivers of coral disease outbreaks. PLoS Biology 5(6):e124. 
Doi:10.1371/journal.pbio.0050124.
    Harvell, D., Johdan-Dahlgren, E., Merkel, S., Rosenberg, E. 
Raymundo, L., Simth, G., Weil, E. and B. Willis. 2007. Coral disease, 
environmental drivers, and the balance between coral and microbial 
associates. Oceanography 20(1):59-81.
    Miller, J., Waara, R., Muller, E. and C. Rogers. 2006. Coral 
bleaching and disease combine to cause extensive mortality of reefs in 
U.S. Virgin Islands. Coral Reefs 25:418.
    Willis, B., Page, C. and E. Dinsdale 2004. Coral disease on the 
Great Barrier Reef. Pages 69-104 in E. Rosenberg and Y. Loya (eds). 
Coral Health and Disease. Springer-Verlag, Germany.

    Question 11. I have heard that Hawaii is an ideal place for the 
establishment of carbon offset forestry. Does using forestry to offset 
Hawaii's CO<INF>2</INF> emissions seem like a viable option?
    Answer by Jo-Ann Leong, Professor and Director of the Hawai'i 
Institute of Marine Biology. This is a very interesting question and 
should best be answered by an expert in Forest CO<INF>2</INF> 
sequestration. I have referred it to Boone Kauffman, Director, 
Institute of Pacific Islands Forestry, Pacific Southwest Research 
Station, USDA Forest Service, 60 Nowelo Street, Hilo, Hawaii 96720. 
Here are some factors that might help in the discussion:

        1. Hawaii in 2005 was generating approximately 23.05 million 
        metric tons of CO<INF>2</INF> (EPA, Comparison of EPA State 
        Inventories and the Inventory of U.S. Greenhouse Gas Emissions 
        and Sinks, last updated Feb. 25, 2008).

        2. Hawaii's existing forests are already acting as a carbon 
        sink for 108 million tons of CO<INF>2</INF> (EPA State Action 
        Policies: Hawaii, at the following website: http://
        yosemite.epa.gov/gw/statepolicyactions.nsf/uniqueKeyLookup/
        BMOE5P9LGZ?OpenDocument).

        3. The State of Hawai'i Action Plan (koa reforestation and 
        longer rotation of high value forest plantations) indicates 
        that reforestation has the potential to sequester an additional 
        26 million tons of carbon.

        4. According to the DBEDT plan, the reforestation projection is 
        economically viable as a carbon sequestration strategy.

    Please note that these figures are just estimates. I was not able 
to verify the figure for Hawaii's forests as tons or metric tons.

    Question 12. Scientific evidence has suggested that one potential 
impact of climate change will be the increased expansion of invasive 
species. Hawaii has already suffered as the result of more than 70 
marine invasive species. What kinds of monitoring and research are 
being performed to address invasive species in the Hawaiian Islands and 
what do we need to do to prevent future invasions?
    Answer by L. Scott Godwin, Research Specialist, Hawai`i Institute 
of Marine Biology, SOEST, UH-Manoa. The native species of the marine 
and terrestrial environments of the Hawaiian Archipelago arrived as 
natural biological invasions through historical time, and through 
evolution and adaptation became the present communities associated with 
the ecosystem. The advent of modern history has created new human-
mediated biological invasions through non-natural mechanisms. The 
natural species invasion process is measured in geologic time but the 
invasions attributed to human-mediated sources are occurring at greater 
frequency than by natural means.
    Disturbance, both natural and man-made, can create a situation in 
which competition dynamics can be altered in coral reef habitats. 
Physical damage, whether by storms or anchor damage, can lead to gaps 
that can be exploited by both native and non-native species. Once this 
has begun it is nearly impossible to take measures that can halt the 
process. From the standpoint of non-native species invasions, measures 
to minimize the likelihood of exposure by new non-native species are 
the best approach for resource managers. These measures take the form 
of monitoring both the marine communities that can be affected and the 
mechanisms that can expose these communities to non-native species.
    Monitoring of marine communities involves baseline surveys to 
determine what native and non-native species exist so that new 
introductions can be identified and the spread of established non-
natives can be followed (and possibly prevented). The baseline survey 
of organisms in marine communities is a lengthy process and requires 
taxonomic expertise to identify both native and non-native species. 
This expertise is rarely centered in the location of the survey efforts 
and requires collaboration with institutions throughout the world.
    Identifying the mechanisms of non-native species transport requires 
a ``pathway analysis'' that takes into account all present and future 
vectors that could affect a region. Most pathways are associated with 
the movement of commercial commodities via maritime and air shipping 
hubs but other means also exist. Activities of public and private 
sector research and conservation entities can also be responsible for 
transport.
    In Hawaii, a variety of surveys conducted under the auspices of the 
Hawaii Biological Survey (http://hbs.bishopmuseum.org/) and the Hawai`i 
Institute of Marine Biology (HIMB) have identified marine non-native 
species throughout the archipelago and the common transport mechanisms. 
The majority of the species are associated with natural and man-made 
shorelines in conjunction with maritime shipping hubs but there are 
many species established in shallow and deep water coral reef habitats. 
Most species are found within the Main Hawaiian Islands but some have 
become established in the Papahanaumokuakea Marine National Monument 
(PMNM). Specific management focus on marine non-native species and 
transport mechanisms for the PMNM has been conducted by the Hawai`i 
Institute of Marine Biology (http://cramp.wcc.hawaii.edu/Downloads/
Publications/TR_Godwin_et_
al%20_Invasives_Final%20Draft.pdf). A pro-active management plan that 
requires surveys of all maritime vessels applying for permits for entry 
into the PMNM was developed in conjunction with HIMB and has been in 
place since 2006. Presently, HIMB is also conducting work in the PMNM 
involving the survey of established non-native species populations to 
determine if expansion is occurring and the level of transport 
associated with derelict fishing gear. Researchers are providing 
developing genetic techniques for early detection of marine non-native 
species and taxonomic expertise for surveys of native and non-native 
species.

    Question 13. Warmer seas are believed to contribute to increased 
numbers of harmful algal blooms. These blooms produce toxins which can 
be passed onto humans through the seafood that we eat. Will it be 
necessary to increase seafood monitoring and testing to protect 
Hawaiians from shellfish poisoning?
    Answer by Jo-Ann Leong, Professor and Director, Hawai`i Institute 
of Marine Biology. Senate Bill 2688: Commercial Seafood Consumer 
Protection Act, if enacted should provide much needed capacity for the 
FDA and NOAA to carry out ``testing and other activities'' to ensure 
seafood safety for the American public. Current data indicate that the 
spatial and temporal incidence of harmful algal blooms is increasing 
and despite the cause, warmer seas or increased pollution (phosphorus 
and/or nitrogen in the environment), Hawaii will have to increase its 
capacity to test for and make predictions regarding harmful algal 
blooms that might impact its seafood.

    Question 14. There has been concern that climate change could 
result in increases in the prevalence of diseases, specifically dengue 
fever. Does Hawaii need to worry about potential increases of diseases 
that have not been historically abundant?
    Answer by Jo-Ann Leong, Professor and Director, Hawai`i Institute 
of Marine Biology. The World Health Organization in its report on 
Climate Change and Human Health (2003) points to observations that 
mosquito-borne diseases like malaria increases around five-fold in the 
year after an El Nino event (Bouma and van der Kaay, 1998). The 
Environmental Protection Agency (EPA 236-F-98-007e, Sept. 1998) reports 
that warming and other climate changes may expand the habitant and 
infectivity of disease-carrying insects, increasing the potential for 
transmission of diseases such as malaria and dengue fever. Although 
dengue fever is currently uncommon in the United States, conditions 
exist in Hawai`i that make it vulnerable to the disease. Dengue 
outbreaks have also occurred in Hawaii. Warmer temperatures resulting 
from climate change could increase this risk.
    Bouma, M. and H. van der Kaay, The El Nino Southern Oscillation and 
the historic malaria epidemics on the Indian subcontinent and Sri 
Lanka: an early warning system for future epidemics? Tropical Medicine 
and International Health, 1(1): p. 86-96. (1996).

    Question 15. One of many effects of sea level rise will be salt 
water contamination of drinking water. What efforts are being taken to 
look into salt water purifying systems to ensure that Hawaiians will 
have fresh water to drink?
    Answer by Charles Fletcher, Chairman and Professor, Geology and 
Geophysics, School of Ocean and Earth Science and Technology, 
University of Hawai`i at Manoa. In reality we use no drinking water 
from the coastal plain--our drinking water comes from higher elevations 
above the reach of sealevel impacts. There are real threats to drinking 
water, i.e., decreased rainfall in an El Nino type future (one of many 
model results), lowering water tables and rising chlorinity levels, but 
these are from over-use and sea level rise will not have an important 
impact. Hence, sea level rise is not a threat to drinking water. The 
low lying coastal plains are where we inject our waste water on all 
islands through thousands of injection wells . . . sea level rise may 
impact these, but the injection is already done into the salty ground 
water, so I don't think this is a major concern. There are potentially 
severe impacts from sea level rise you may want to consider: beach loss 
and accelerated coastal erosion, increased vulnerability to tsunami and 
storm surge, loss of coastal plain drainage into storm drains, stream 
flooding where they meet the ocean, increased frequency of wave 
overtopping on crucial highways . . . and others.

    Question 16. Corals and other marine resources in Hawaii may be 
significantly impacted by both climate change and ocean acidification. 
Changes in temperature, salinity, and sea level would directly impact 
coral reefs and related fisheries. Corals are susceptible to small 
increases in temperature, which may result in deadly coral bleaching. 
Studies have also confirmed that our oceans are becoming more acidic 
due to increased levels of carbon dioxide in the atmosphere. These 
conditions are predicted to adversely impact coral growth, and may also 
be harmful to commercially important fish and shellfish larvae. Such 
organisms are also important food sources for other marine species. 
Approximately half of all federally-managed fisheries depend on coral 
reefs and related habitats for a portion of their life cycles. The 
National Marine Fisheries Service estimates that the annual dockside 
value of commercial U.S. fisheries from coral reefs exceeds $100 
million. For Hawaii, however, the economic value of coral reefs is 
estimated at more than $360 million annually, when reef-related tourism 
and fishing are taken into account. Coral reefs in Hawaii are not just 
critical habitats for marine animals, they also support the economy 
through fishing and tourism. Which is the more pressing issue for the 
health of Hawaii's coral reefs, ocean acidification or the increasing 
sea surface temperatures? Why?
    Answer by Jo-Ann Leong, Professor and Director, Hawai`i Institute 
of Marine Biology. Ocean acidification and increasing sea surface 
temperatures are considered the result of rising concentrations of 
CO<INF>2</INF> in the atmosphere. Thus, increased sea surface 
temperature and acidification are related phenomena. Many of us 
consider both to be important. In the case of sea surface temperatures, 
if the increase in temperatures happens rapidly (over decades rather 
than centuries) there will be bleaching and some corals and their 
symbionts will be unable to adapt to prolonged exposure to higher 
temperatures. There should be corals that survive the temperature 
increase, but we cannot predict what species will survive and how many 
of these species will remain. Measuring resilience of coral reefs is 
critically important to determine whether coral reefs will be available 
in the future to provide habitat for fisheries and to protect our 
coastline.
    Ocean acidification may reduce the recruitment of coralline 
crustose algae, the ``glue'' that holds the reefs together and provides 
the signal for coral larvae to settle. Other studies have shown that 
stony corals will lose their calcareous skeleton and essentially look 
like soft corals under acidic conditions in the laboratory. Again, we 
don't have enough data to predict the effects of ocean acidification on 
coral reef ecosystems (not single coral pieces in aquaria). We are in 
need of research facilities in the United States with large mesocosms 
that house coral reef ecosystems where water temperatures and seawater 
acid pH balance can be manipulated.

    Question 17. What role does Hawaii play in providing answers for 
the impact of climate change and ocean acidification on coral reefs?
    Answer. The Hawaiian Archipelago is the most isolated archipelago 
in the world. It is a site where 70 percent of the Nation's reefs 
reside and these reefs are situated on sites that were derived from 
geological processes operating on a well established time line, 30+ mya 
(Kure Atoll) to less than 1 mya (Hawaii Island). The marine environment 
of the different high islands, atolls, and reefs in the Hawaiian 
Archipelago are microcosms of environmental diversity with exposure to 
anthropogenic stresses in the southern part of the chain (Main Hawaiian 
Islands) to the relatively pristine part of the chain (Northwestern 
Hawaiian Islands). Hawaii is also close to the northernmost latitude 
for shallow water coral reefs and thus, climate changes are predicted 
to reach this site rather early. The number of species in Hawaii's 
coral reefs is largely unknown but estimates place the number at 7,000 
and approximately 20-25 percent of these species are found nowhere else 
in the world.
    All of these characteristics make Hawaii the prime place for the 
study of climate change on coral reefs. Nowhere else are there similar 
reefs distributed along a gradient of anthropogenic stress, gradient of 
geologic age, a gradient along a North-South longitude, and isolation 
from the influence of large land masses. The Federal, state, and 
university research and management enterprises in Hawaii have made a 
major investment in hiring experts to study coral reefs. A ``critical 
mass'' of talent is available in Hawaii to conduct these studies. The 
proximity of coral reefs to modern, technologically equipped 
laboratories is also a major advantage. Moreover, Hawaii can play a 
role in providing research capabilities and education opportunities for 
the six jurisdictions that the U.S. maintains in the Pacific including 
American Samoa, Guam, the Commonwealth of Northern Mariana Islands, the 
Republic of Palau, the Republic of Marshall Islands, and the Federated 
States of Micronesia.

    Question 18. What is the trend with regards to the erosion of 
corals here in Hawaii?
    Answer by Charles Fletcher, Chairman and Professor, Geology and 
Geophysics, SOEST, UH-Manoa. In Hawaii, sea-level rise resulting from 
global warming is a particular concern. Riding on the rising water are 
high waves, hurricanes, and tsunami that will be able to penetrate 
further inland with every fraction of rising tide. In addition, the 
coastal groundwater table is likely to crop out above ground level and 
lead to widespread flooding. The physical effects of sea-level rise 
fall into 5 categories. These are:

        1. Marine inundation of low-lying developed areas including 
        coastal roads,

        2. Erosion of beaches and bluffs,

        3. Salt intrusion into aquifers and surface ecosystems,

        4. Higher water tables, and

        5. Increased flooding and storm damage due to heavy rainfall.

    Assessing the impact of these on Hawaii requires identifying a 
likely global sea-level scenario. Global sea level is principally the 
product to two phenomena: (1) melting ice on Antarctica, Greenland, and 
among alpine glaciers, and (2) thermal expansion of seawater due to 
surface warming. The first detailed observations of Antarctic ice 
reveal net melting; the melting rate on Greenland has increased 250 
percent in the past decade; there is widespread retreat and thinning of 
mountain glaciers, and together these major ice sources contribute 
about 2.0 mm/yr to global sea-level rise. Thermal expansion is 
calculated from the amount of heat stored in the upper ocean as 
revealed by increased water temperature. While changes in water 
temperature over past decades have been difficult to measure, studies 
indicate that thermal expansion increased from an average rate of about 
0.36 mm/yr in past decades, to 1.6 mm/yr in the most recent decade. The 
total contributions to global sea level (3.6 mm/yr) agree remarkably 
well with the observed rate of rise (3.4 mm/yr) as measured by 
satellites.
    The Intergovernmental Panel on Climate Change has predicted future 
sea-level changes to the year 2100 in the range 18 to 58 cm. However, 
these projections do not include a component based on ice behavior, and 
hence, are widely considered to underestimate the potential for 
flooding. Two studies published in 2007, both by German climate 
researcher Stefan Rahmstorf and colleagues, indicate a more likely 
scenario of future climate change and sea-level rise. In one study, 
Rahmstorf compared projections of future atmospheric warming and sea-
level rise made in 1990 by the IPCC to observations in 2006. Results 
indicate that the climate system, in particular sea level, may be 
responding to global warming more quickly than models specify. Observed 
temperature changes are in the upper part of the range projected by the 
IPCC and sea level has been rising faster than even the extreme 
scenarios projected by the models. Notably, Rahmstorf found that the 
rate of sea level rise for the past 20 years is 25 percent faster than 
the rate of rise in any 20-year period in the preceding 115 years. In 
his second paper of 2007, Rahmstorf estimates 21st century sea-level 
change on the empirical relationship between 20th century temperature 
changes and sea-level changes. The study establishes a proportionality 
constant of 3.3 cm of sea-level rise per decade per +C of global 
temperature warming. When applied to future warming scenarios of the 
Intergovernmental Panel on Climate Change, this relationship results in 
a projected sea-level rise in 2100 of 0.5 to 1.4 m above the 1990 
level. On the basis of Rahmstorf's research, and the documented 
accelerations in melting of both the Greenland and Antarctic ice 
sheets, it seems highly likely that a sea level of approximately 1 m 
above present could be reached by the end of the 21st century.
    In Hawaii, as the ocean continues to rise, natural flooding occurs 
in low-lying regions during rains because storm sewers back up with 
saltwater, coastal erosion accelerates on our precious beaches, and 
critical highways shut down due to marine flooding. The Mapunapuna 
industrial district of Honolulu adjacent to the airport is a good 
example. If heavy rains fall during monthly highest tides portions of 
the region flood waist deep because storm drains are backed up with 
high ocean water. The undercarriages of trucks suffer a rust problem 
because floodwaters become salty at high tide. Even when it does not 
rain, the area floods with salt water as it surges up the storm drain 
into the streets and local workers report seeing baby hammerhead sharks 
in the 2-foot deep pools.
    Using sensitive topographic data collected by NOAA and the Army 
Corps of Engineers, it is possible to map the contour line marking 1 m 
above present day high tide. This ``blue line'' identifies the portion 
of our communities that fall below sea level when seas reach the 1 m 
mark later in the century. This dramatic map has roughly 30 cm 
accuracy. Those lands that are closer to the ocean are highly 
vulnerable to inundation by seawater during high waves, storms, 
tsunami, and extreme water levels. Hotel basements will flood, ground 
floors will be splashed by wave run-up, and seawater will come out the 
storm drains on most of the streets in Waikiki and along Ala Moana 
Boulevard.
    Don't think that waves will be rolling down the streets and 
reaching the blue line. More likely, lands lying below sea level in the 
future will be dry at low tide during arid summers. But they will have 
high water tables, standing pools of rainwater, and backed up storm 
drains when it rains and tides are high. Beaches will be mostly gone 
and we'll have built large seawalls lining most of our shores. Despite 
the wet conditions, most of the buildings will probably still be 
inhabited and residents will have to time their movement between the 
tides, just as they do today in Mapunapuna. Back up in the McCully and 
Makiki areas residents won't see any seawater, they will see the 
wetlands of the 19th century reemerging as the water table rises above 
ground level in some areas (not all areas). Under these conditions, 
when it rains, we will have a real problem. The runoff will raise the 
water table, the storm drains will be full of seawater except at the 
very lowest state of the tide, and standing pools of water will 
accumulate throughout the region without a place to drain. Travel will 
be limited and many lands will turn to wetlands, there may be some 
areas of permanently standing water.
References:
    Rahmstorf, S., 2007, A semi-empirical approach to projecting sea 
level rise. Science, 315, 368-370.
    Rahmstorf, S., et al., 2007, Recent climate observations compared 
to projections. Science, 316, 709.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. The blue line marks the contour of high tide when sea 
level is 1 m above present. Lands makai of the line are highly 
vulnerable to coastal hazards. These are targets for redevelopment to 
increase resiliency to natural hazards.

    Question 19. Have we seen an increase in the last decade of disease 
events on corals reefs? If so, could this be attributed to increasing 
ocean temperatures or another event?
    Answer by Jo-Ann Leong, Professor and Director, Hawai`i Institute 
of Marine Biology. Surveys of coral reefs for disease status was not 
undertaken in Hawaii until 2002 and in the short period of time since 
then, there appears to be an increase in the incidence of disease 
events in coral reefs. We do not have sufficient data to attribute 
increasing ocean temperatures to coral disease incidence in Hawaii. A 
critical need we have identified is a quarantine facility that will 
enable researchers to conduct laboratory studies that would lead to the 
identification of pathogenic agents of coral disease and an 
understanding of the possible responses of coral to infection and 
physical insult. Please see Dr. Greta Aeby's response to Question 7 
above.

    Question 20. Invasive species cause damage by diminishing 
fisheries, fouling ships, clogging intake pipes, and spreading disease. 
The United States spends $120 million annually to control and repair 
damage from more than 800 invasive species. Hawaii has 73 known marine 
invasive species, 42 percent of which are considered harmful. I 
understand that climate change may contribute to an increase in the 
number of invasive species. Given that Hawaii is already affected by 
more than 70 marine invasive species, what kinds of monitoring and 
research are being conducted here to address this?
    Answer by Jo-Ann Leong, Professor and Director, Hawai`i Institute 
of Marine Biology. CRAMP (Coral Reef Assessment and Monitoring 
Program), a program with partners in NOAA-PIFSC, HIMB at UH-Manoa, 
Bishop Museum, and Hawaii Dept. of Land and Natural Resources, and the 
Hawai'i Biological Survey based at the Bishop Museum have been 
monitoring different reef ecosystem in the Main Hawaiian Islands for 
potentially invasive organisms on an annual basis and selected reef 
ecosystems in the Northwestern Hawaiian Islands once every 2 years. 
There is not enough funding or manpower to monitor the entire Hawaiian 
Archipelago as often as is needed. Ships that enter the 
Papahanaumokuakea Marine National Monument undergo hull inspections. 
There is certainly a need for more monitoring and research that targets 
the pathways for marine invasions, i.e., hull fouling and ballast 
water, and provides methods to reduce or eliminate these pathways for 
marine invasions.

    Question 21. What can we do to prevent future invasions?
    Answer by Jo-Ann Leong, Professor and Director, Hawai`i Institute 
of Marine Biology. I would refer you to the report available at the 
CRAMP website by L. Scott Godwin: http://cramp.wcc.hawaii.edu/
Downloads/Publications/TR_Godwin_et_al%20_Invasives_Final%20Draft.pdf.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                      Richard E. Rocheleau, Ph.D.
    Question 1. Historically, Hawaii has had some of the highest 
utility and fuel costs in the Nation. This is in large part due to 
Hawaii's isolated location, which makes it difficult to connect a power 
grid. In addition, over 90 percent of the state's energy production 
comes from costly imported fossil fuels.
    In recent years, Hawaii has taken impressive strides to address 
these issues by investing in the research and development of clean 
renewable energy technologies. By becoming a test bed for clean energy 
technologies, Hawaii has positioned itself to attract investment and to 
cut the state's dependence on costly imported fossil fuels. What 
renewable technologies are best suited to the state?
    Answer. Hawaii is blessed with a varied and substantial abundance 
of renewable energy resources such that nearly all commercial renewable 
technologies can contribute to Hawaii's energy mix. Unfortunately, not 
all technologies are at a state of technical readiness to contribute. 
Additionally, the small grid systems with no interconnections between 
islands impose a number of practical constraints on the use of many of 
the technologies that will require additional effort and investment in 
order to maximize their contribution.
    Wind, solar, and geothermal technologies are well-suited to Hawaii 
but each has limitations to their deployment. Biofuels are also 
expected to play a significant role but water resources, cost, and 
competing land-use are significant issues that may limit their 
availability from local sources. In the future, ocean energy 
technologies and advanced bioenergy systems such as algae could play a 
significant role but they are as yet unproven at the commercial scale. 
Although not normally included in a discussion on renewable 
technologies, end-use energy efficiency and energy efficient buildings 
is an area that is critically important to Hawaii and all other states. 
Additional but brief comments on each of these technologies follow.
    Wind: Without doubt, wind is one of the best technologies for use 
in Hawaii. Overall, Hawaii has an excellent wind resource and wind 
technology is very mature and cost effective. The islands of Hawaii and 
Maui already get a significant amount of their energy from wind and 
both have the resources and potential sites for substantially more. At 
high penetration levels wind can, however, have negative impacts on the 
operability of the grid. The intermittency and difficulty of 
forecasting also can limit the maximum amount that can be accepted. 
Storage can help mitigate these effects but storage at this scale 
remains costly. HNEI is working with GE Global Research Center and the 
utilities to address these issues to allow higher penetration. Oahu, 
whose energy use is many times that of the other islands, is limited by 
resource and by siting. Efforts to develop wind on Molokai and/or Lanai 
for export to Oahu are underway, but land use is an issue and cost/
permitting for an interconnection cable of the needed size are 
significant issues.
    Solar: Solar photovoltaics (PV) is another technology that is 
extremely well-suited to Hawaii. PV is proven albeit somewhat expensive 
technology. Applications include utility scale, commercial roof, or 
residential roof systems. Tax credits are very important to help 
mitigate the current high cost of PV. As is the case for wind, solar is 
an intermittent resource and so PV may be limited in the total 
penetration level that can be achieved before grid operability is 
affected.
    Geothermal: Geothermal is a reliable and cost effective renewable 
energy technology in areas where the resource exists. The best resource 
is on the island of Hawaii. Undersea cabling from Hawaii to the other 
islands has been examined in the past. Water depth and resource issues 
make that a very complex issue to overcome. Hot spots also exist on 
other islands (e.g., Maui) but technology to economically extract 
energy from these lower temperature resources remains unproven. 
Engineered Geothermal Systems (EGS) which extracts heat by creating a 
subsurface fracture system to which water can be added through 
injection wells is a technology currently under development that may be 
a candidate for Hawaii.
    Biofuels: Solid (direct fired) and liquid biofuels have the 
potential to make significant contributions to both the electricity and 
transportation sectors. Historically, bioenergy in Hawaii took 
advantage of waste biomass from the various agricultural sectors (e.g., 
bagasse from the sugar industry). This contribution has decreased in 
recent years as agriculture has decreased. Hawaii also has regulations 
requiring 10 percent ethanol in gasoline. This ethanol is currently 
imported from the national and international markets. Large scale local 
production of feedstock for biofuels is envisioned but will be 
complicated by a number of issues including availability of water, 
competing land uses, and social issues (e.g., food vs. fuel). The State 
of Hawaii has contracted the Hawaii Natural Energy Institute to develop 
a comprehensive plan for the development of bioenergy systems in 
Hawaii. Significant effort will also be needed to identify the best 
crops and agricultural practices for these to be sustainable 
activities. Crop development must be coordinated with the availability 
of conversion technologies. The Federal Government continues to have 
active programs supporting the development of conversion technologies.
    There has been substantial discussion recently about the potential 
for photosynthetic algae to be a significant contributor to the 
biofuels energy mix. If commercial economically viable algal systems 
can be developed, the high growth rates and the absence of competition 
for food crops would be significant advantages. However, there are both 
biological and process engineering questions that remain unanswered at 
this time. Certainly, given the potential and the many unanswered 
questions, continued support of this research area is warranted.
    Ocean Energy: Ocean energy can include wave energy, current, and 
ocean thermal technologies. Hawaii has some of the Nation's best wave 
energy resources and has near-shore sites with temperature 
differentials that make ocean thermal energy conversion (OTEC) 
possible. Planning studies and/or pilot scale testing is underway in 
Hawaii in both these areas. While promising for the future, neither 
wave nor OTEC can be considered commercially available or economically 
viable at this time. Although energy from ocean currents is somewhat 
more developed than either wave or OTEC, Hawaii does not have a 
significant tidal range and only a very limited ocean current resource.

    Question 2. The European Union (E.U.) has become a world leader in 
renewable energy technologies; it possesses half the world renewable 
market and its industry employs 300,000 people with annual revenues of 
$20 billion. The E.U. has committed to investing $1.5 billion in 
renewable technology and energy efficiency, a 40 percent increase over 
the previous commitments. How does the United States compare to others 
around the world in the renewable energy technologies industry?
    Answer. REN21 estimates that $71 billion was invested in renewable 
energy capacity worldwide in 2007, up from $55 billion in 2006 and $40 
billion in 2005. Almost all of this increased investment was in solar 
PV and wind power with much smaller amounts in solar hot water, 
hydropower, biomass, and geothermal. PV and wind then provide useful 
technologies to use for comparison of the U.S. to others around the 
world in the renewable energy technologies industry.
    It is almost a cliche answer, but it is fair to say that in many 
instances the U.S. has led the world in the research and development of 
various renewable energy technologies only to see other countries adopt 
their use, develop manufacturing capability, and eventually surpass 
U.S. industry in the manufacture and sales of these technologies. This 
is most clearly the case for photovoltaics. The development of wind 
technology occurred among a more diverse mix of countries, but, while 
the U.S. is currently seeing some of the strongest growth in the 
installation of wind systems, U.S. industry is not gaining market share 
in this field. The attached charts show current installation and 
manufacturing specifications for these two technologies.
    Figure 1 shows the annual installation of photovoltaic systems by 
country or region between 2000 and 2007. The substantial increase of PV 
installations in Germany is a direct result of the large subsidy for PV 
in that country. The same was true for Japan. More relevant to this 
question is Figure 2 which shows annual PV production worldwide. The 
U.S. was the largest producer in the world through 1998 before falling 
behind Japan. By 2007, the U.S. was only the 4th largest producer, 
behind Japan, Europe, China, and Taiwan.
    China, which almost tripled production in 2006 and then doubled it 
again in 2007 is poised to gain an ever larger share of the worldwide 
market. Although a late entry to the marketplace, China's Suntech is 
now the 3rd single largest producer of PV modules.
    The picture for wind, while somewhat different than PV in that 
installation of wind turbines in the U.S. is keeping pace with 
installations in other countries (see Fig. 3) shows similar troubling 
trends in turbine manufacturer. While GE, the only U.S. turbine 
manufacturer in the top 10 worldwide in 2007 retained its ranking as 
the 3rd largest manufacturer worldwide, its market share slipped, from 
17.5 to 15.5 percent in 2007, behind Vestas (Denmark) and Gamesa 
(Spain). Merrill Lynch reports that ``GE will face fierce competition 
for market share from new entrants to its markets and without a high 
level of vertical integration, it also looks disadvantaged in the near-
medium term'' Enercon (Germany) and Suzlon (India) have both seen 
increased market share during this period. Currently, there are no 
Chinese companies exporting turbines. However, many recent reports 
indicate that two Chinese companies, Goldwind and Sinovel, have big 
export plans with others not far behind. The Chinese companies are 
expected to present a formidable challenge to existing turbine 
companies.

    Question 3. Do you think we are at risk of falling behind others in 
research and development? Is it conceivable that if we don't make the 
proper investments, we may end up importing this technology from other 
countries in the future, just as we are importing oil today?
    Answer. The U.S. has long been a leader in research and development 
of renewable energy technologies. It is imperative that industry, 
state, and Federal Government continue to invest in renewable energy 
R&D, especially in the emerging technologies such as future generation 
photovoltaics, biofuels, ocean energy technologies, and advanced end-
use efficiency technologies. However, using PV and wind as examples, it 
seems apparent that investment in R&D is not sufficient to ensure that 
the U.S. will not become an energy technology importer as it is today 
for oil. There must be sufficient support to validate emerging 
technologies so that end-users (e.g., utilities and large scale energy 
users) will accept them and to assist companies to move promising 
technology beyond the demonstration phase and into the marketplace. 
These are complicated issues that go beyond the support of research 
that has been typical of U.S. energy programs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Dr. Goro Uehara
    Question 1. While the many conversations about climate change 
revolve around carbon dioxide, other gases such as nitrous oxide and 
methane also contribute to climate change. What impact are these gases 
having on Hawaii's climate?
    Answer. Agriculture clearly contributes to NO<INF>X</INF> and 
methane emissions, but carbon dioxide from burning of imported fossils 
fuels is clearly the dominant green house gas in Hawaii. NO<INF>X</INF> 
and methane are primarily generated in our taro fields and wetlands, 
but taro production in Hawaii is declining so human generated 
NO<INF>X</INF> is most likely not a major factor in climate change for 
Hawaii. We need to be aware of other green house gas emissions, but out 
main efforts at this point should be focused on carbon dioxide.

    Question 2. The Hawaii Climate Change Action Plan presents several 
options to utilize abandoned sugarcane and pineapple farmlands for 
forest cultivation. Is forestry something we should consider as a way 
to absorb carbon dioxide?
    Answer. Farmland formerly in sugarcane and pineapple is too 
valuable for growing trees to absorb carbon dioxide. Hawaii has a great 
opportunity to show the tropical world how the state's agriculture and 
economy can be transformed from a fossil to a fiber based clean, energy 
future by using its land for energy crops production. Plant fiber 
consists mainly of cellulose, hemicellulose and lignin which can be 
converted into biofuels through biochemical or thermal conversion 
processes. Each ton of fiber can be converted into 70 gallons of 
ethanol by biochemical mean and/or 110 gallons of ethanol by thermal 
conversion processes. In tropical Hawaii, where we enjoy year long 
climate for crop production, each acre of land can produce from 20 to 
40 tons of fiber annually or 2,200 to 4,400 gallons of ethanol from 
each acre of land each year. Hawaii needs to be ready for the day when 
commercial scale cellulosic conversion technology becomes a reality.
    Hawaii has a huge potential for taking advantage of carbon trading 
based on a carbon offset market. This will, however, depend on the 
price of offset carbon and what is permitted as offset carbon. This is 
especially true in Hawaii, where 90 percent of our energy needs is now 
based on fossil fuels.

    Question 3. In many of our island communities, we rely on fossil 
fuels for electricity. To what extent can agriculture contribute to 
carbon capture to mitigate the effects of centralized power plants of 
the type we have in Hawaii?
    Answer. Renewable energy in the form of solar, wind, and geothermal 
is probably better suited to replace fossil fuel for power and heat 
generation in Hawaii than bioenergy from agriculture. Agriculture's can 
play a more important role in replacing gasoline and diesel for 
transportation fuel with biodiesel and ethanol in Hawaii.

    Question 4. In the longer term is it possible to establish 
decentralized or distributed electric generating system and, if so, can 
agriculture play a role in carbon capture at these distributed systems?
    Answer. Bioenergy is ideally suited for developing a distributed 
electric energy systems in isolated rural communities such as those 
that exits in the outer island. Biomass is bulky and transporting it 
over long distances to a central location defeats the purpose of 
lowering energy costs. Small, compact gasification units that convert 
biomass into syngas for power generation can provide electricity for 
farms and small communities and even generate income by returning 
excess power to the grid. With households on outer island currently 
paying as much as 40 cents per kilowatt hour, distributed power 
generation systems need to be evaluated for outer island communities. 
Feedstock for operating such systems can be agricultural waste, 
invasive plants and high yielding energy crops specifically cultivated 
for conversion into biofuels or electricity.

    Question 5. If agriculture provides carbon capture opportunities, 
will the ``revenue streams'' from carbon capture be sufficient to 
justify agricultural production? Or, will multiple product systems of 
the type ``sugar, molasses, bagasse, electricity'' be required to 
justify a long term investment in agriculture in our island 
communities?
    Answer. Historically, agriculture was practiced to produce food, 
feed and fiber. In the coming century, agriculture's new challenge is 
to add clean, renewable energy to the list of items it produces. Our 
ancestors depended on fiber (wood) for heating and cooking. We now need 
to use fiber to produce transportation fuel. Today, each acre of 
pineapple after the last fruit is harvested is burned or plowed to 
clear the land of biomass. In the future, we can convert the 30 tons of 
pineapple fiber that is now burned into 3,000 gallons of ethanol or ten 
tons of charcoal. Charcoal can be used to substitute for potting 
material imported by the plant nursery industry, as a metal reductant 
(e.g., for producing silicon for photovoltaics), and as a soil 
amendment. We are currently testing charcoal as a soil amendment to 
rejuvenate degraded soils as was done centuries ago in the Terra Preta 
soils of the Amazon jungles by natives living there.
    Charcoal has a half life of more than an thousand years so it can 
replace compost as a permanent means to improve soils quality. We are 
just beginning to appreciate the potential of biomass not only for 
energy, but for its potential to produce new bioproducts and 
biochemicals.
    In the long term, a sustainable bioenergy and bioproduct producing 
agroecosystem must have four characteristics. First it must be highly 
productive and profitable; second, it must be stable and be free from 
``feast to famine'' fluctuations in productivity; third, it must be 
highly resilient and be able to recover quickly from perturbations and 
stresses imposed on it such as climate change, and fourth, it must be 
highly equitable so that there is equal sharing of the benefits derived 
from the system.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                              Bill Thomas
    Question 1. Hawaii has positioned itself as a leader on many fronts 
addressing the impacts of climate change. What do you see as the big 
questions that we need to focus on answering now for the impacts of 
climate change on island communities?
    Answer. A broad set of potential climate change impacts have been 
identified; these include deteriorating coastal conditions, increased 
severity of coastal hazards, storm surge and erosion, shifts in 
regional water supplies, increased energy demand, greater public health 
threats, enhanced probability of flooding, and ecological changes. 
Potential climate impacts on Pacific Island coastal communities are 
highlighted here because of the likelihood that coastal communities 
will be more negatively affected by climate change than inland 
communities. For example, coastal communities face higher risk of 
coastal flooding and greater exposure of residents, their property, and 
coastal wetlands to inundation from sea level rise. The transportation 
infrastructure is also vulnerable to potentially hazardous flooding 
events. The possible costs associated with damages and losses to 
coastal communities, environments, and infrastructure in the Pacific 
Islands are extremely large.
    In order to address these regional impacts, NOAA's Pacific Region 
has developed several programs that use an integrated approach to 
dealing with issues of climate change in the Pacific. These programs--
the Pacific Risk Management `Ohana, the Pacific ENSO (El Nino Southern 
Oscillation) Application Center, the Pacific Climate Information 
System, the Pacific Islands Regional Integrated Science and Assessment, 
and the Pacific Region Integrated Coastal Climatology Program--have 
provided innovative approaches and a governance structure to address 
the ever-increasing need for information, products and services. These 
Pacific Regional programs work in concert with the public and private 
sector, as well as non-governmental organizations, to collaboratively 
address these issues of mutual concern.
    The following highlights the major questions these groups have 
focused on, to address the impacts of changing climate conditions on 
our island communities:

        1. How do changing climate conditions affect individual island 
        groupings and communities in the Pacific? In order to 
        understand this, improvements in the regional resolution of 
        climate models, better documentation of current conditions and 
        trends through enhanced observing systems as well as general 
        improvements in our ability to document, model and assess the 
        impacts of changing climate conditions on ecosystems and 
        natural resources in the Pacific region is required. This also 
        requires research on the local impacts of climate change on 
        ecosystems, communities and businesses in the region as well as 
        support for vulnerability assessment programs that support a 
        collaborative, participatory process through which scientists, 
        decision-makers and other public leaders can explore effective 
        options for climate change mitigation and adaptation.

        2. How do changing climate conditions affect extreme events 
        such as hurricanes, strong wind and high wave events, droughts 
        in the Pacific? NOAA is working toward improvements in models, 
        as well as enhanced understanding of how climate change will 
        affect the intensity, frequency and tracks of hurricanes and 
        other storm events. This also involves the analysis of the 
        historical context for extreme events. A related question 
        involves developing an improved understanding and ability to 
        model/predict how climate change will alter patterns of El 
        Nino/La Nina events which are the primary drivers of changes in 
        rainfall, temperature and tropical cyclones in the Pacific on a 
        year-to-year basis.

        3. How does climate change affect sea level and patterns of 
        coastal storms? In most Pacific islands, the people, 
        agricultural land, tourist resorts and infrastructure 
        (including roads and airports) are concentrated in the coastal 
        zones, and are thus especially vulnerable to any rise in sea 
        level. Determining how severe this problem is, or might be, is 
        complicated by natural shifts in sea level associated with the 
        recurring ice ages. Increased global temperatures are causing a 
        rise in sea level from thermal expansion as the sea warms up 
        and from melting of the planet's ice caps. However, while most 
        recent data have shown that changes in sea level are related to 
        many variables, accurate forecasting of these changes is years 
        away. Thus, NOAA is engaged in activities to understand long-
        term sea level rise and how sea level rise combines with 
        changing patterns of strong winds, high seas and heavy rains to 
        produce coastal flooding along with a vulnerability assessment 
        program to support the development of effective adaptation 
        measures and policies.

        4. How does ocean acidification affect coral reefs and other 
        critical coastal and marine resources? Ocean acidification is 
        an emerging issue that may have long-term implications for the 
        global carbon cycle and climate, although the range and 
        magnitude of biogeochemical and biological effects and their 
        socio-economic impacts are currently too uncertain to 
        accurately quantify. However, such impacts are likely to be 
        substantial. Consequently, especially important in this context 
        will be understanding the combined effects of rising 
        temperatures, sea level rise and lower pH on coral reefs. NOAA 
        has a burgeoning ocean acidification research program.

        5. What are public agencies in the region doing to develop 
        adaptations to a changing climate? Some public agencies in the 
        Pacific region, especially in Hawaii, have begun planning to 
        help the region adapt to climate change impacts. This includes 
        considering the environmental, human health, water management, 
        and infrastructure issues associated with a changing regional 
        climate. Public agencies at all levels (national, regional, 
        state, county, metropolitan, and city) have begun to 
        investigate plans or actions for adaptation to climate change. 
        Much of what is happening now is focused on research and risk 
        assessment. The research deals with a range of topics including 
        human health, water management, and protection of the built and 
        natural environment. NOAA's Office of Oceanic and Atmospheric 
        Research has invested in a long-term grant that looks at many 
        of these issues through the Pacific Islands Regional Integrated 
        Science and Assessment. This grant will be recompeted in Fiscal 
        Year 2009.

        6. What role can the private sector play in adapting to climate 
        change? Many in the private sector, especially multinational 
        corporations and regionally-based business coalitions have 
        begun to address the issue of adaptation to climate change. 
        Although many private sector activities are focused on reducing 
        greenhouse gas emissions through energy efficiency, such 
        activities improve the region's capacity to deal with warming 
        in general and heat waves in particular.

        7. What are the impacts of climate change on the cultural 
        resilience (i.e., cultural identity, traditional knowledge, and 
        customary practices) of island economies? Over the next 100 
        years, a major concern will be the potential loss of cultural 
        identity and connection as a result of mitigation efforts. For 
        example, relocating indigenous coastal communities out of flood 
        zones or after major storms; further loss/erosion of ancestral 
        land connections due to sea level rise and coastal inundation; 
        loss of traditional knowledge in impacted areas; shifts in 
        artisinal and customary resource use patterns; and occupational 
        shifts due to loss of livelihoods.

        In island communities that are prepared for such impacts and 
        ready to respond and adapt to climate impacts, cultural 
        resilience will be higher and socioeconomic impacts to the 
        islands will be reduced (e.g., meeting basic dietary/protein 
        needs of human populations following major natural hazard 
        events thanks to resilience in the fishing community). NOAA's 
        National Integrated Drought Information System and Regional 
        Integrated Sciences and Assessments (RISA) program have been 
        funding a pilot program since 2007 to look at Local and 
        Indigenous knowledge networks in climate and drought. This is a 
        collaboration between the Pacific, Southwest and Alaska RISAs 
        to build expertise in strategies for coping with drought and 
        increasing climate resilience.

    Question 2. Where is the greatest gap or deficiency in scientific 
research and information?
    Answer. NOAA agrees with the scientific findings of the 2007 Fourth 
Assessment Intergovernmental Panel on Climate Change's (IPCC-AR4). 
IPCC-AR4 states that small island communities, like those in the 
Pacific, are particularly vulnerable to climate variability and change. 
The IPCC-AR4 identified several key uncertainties and research gaps 
with respect to climate science and small islands:

  <bullet> Observations: Ongoing observations are required to monitor 
        the rate and magnitude of changes and impacts, over different 
        spatial and temporal scales. For example, in situ observations 
        of sea level help to understand relative sea level change on 
        regional and local scales. Two examples of regional observing 
        networks are: the Pacific Islands Global Climate Observing 
        System and the Intergovernmental Oceanographic Commission Sub-
        Commission for the Caribbean and Adjacent Regions Global Ocean 
        Observing System;

  <bullet> Improved Models: Projections for changes in precipitation, 
        tropical cyclones, and wind direction/strength are critical for 
        small islands, and are currently limited by climate model 
        resolution. Projections based on outputs at finer resolution 
        are needed to inform the development of reliable climate change 
        scenarios for small islands (e.g., regional climate models and 
        statistical downscaling techniques). Further, hydrological 
        conditions, water supply, and water usage on small islands pose 
        different research problems from those in continental 
        situations. These need to be investigated and modeled over the 
        range of island types (different geology, topography and land 
        cover).

    In addition to the climate science gaps identified above, the IPCC-
AR4 identified several key gaps in contemporary research on the impacts 
of climate change on small islands. These include:

  <bullet> The role of coastal ecosystem (mangroves, coral reefs, 
        beaches) in providing natural defenses against sea-level rise 
        and storms;

  <bullet> Establishing the response of terrestrial upland and inland 
        ecosystems (including woodlands, grasslands, wetlands) to 
        changes in mean temperature and rainfall extremes;

  <bullet> Considering how commercial agriculture, forestry, and 
        fisheries will be impacted by the combination of climate change 
        and non-climate-related forces;

  <bullet> Expanding knowledge of climate-sensitive diseases in small 
        islands through national and regional research (vector-borne as 
        well as skin, respiratory, and water-borne diseases);

  <bullet> Identifying the most vulnerable island sectors and systems; 
        and

  <bullet> Increasing understanding of climate in decision-support, 
        including how to translate climate information into tools and 
        products that are easily accessible and interpreted by 
        decision-makers.

    Question 3. What impacts should we be most concerned about? Over 
what time scales?
    Answer. NOAA agrees with the scientific findings of the 2007 
Intergovernmental Panel on Climate Change's IPCC-AR4, which contains 
updated projections of changing climate conditions (i.e., temperature, 
rainfall, sea level, and extreme events) and the impacts for Pacific 
Islands and other small island states. IPCC-AR4 confirms the 
vulnerabilities identified in the 2001 Pacific Islands regional 
assessment, and provides insights into climate-related challenges such 
as ocean acidification. The time scale for these impacts varies 
broadly, ranging from decades to multidecadal.
    The IPCC-AR4 and similar climate assessment reports state that 
small island communities, like those in the Pacific, are particularly 
vulnerable to climate variability and change. Small island impacts 
include:

  <bullet> Deterioration of coastal conditions is expected to affect 
        local resources and reduce their value as tourist destinations 
        (e.g., the combined effect of increased ocean temperatures and 
        ocean acidification on coral reef resources);

  <bullet> Sea level rise is expected to exacerbate coastal hazards 
        such as inundation, storm surge and erosion as well as 
        reduction of freshwater availability due to saltwater 
        intrusion, especially in low-lying islands;

  <bullet> Climate change is projected to reduce water resources in 
        many small islands (Pacific and Caribbean) to the point where, 
        by mid-century, resources may be insufficient to meet demand 
        during low rainfall periods;

  <bullet> Invasion of non-native species is expected to occur with 
        rising temperatures; and

  <bullet> Climate change will exacerbate other existing human 
        influences on fisheries and marine ecosystems such as over-
        fishing, habitat destruction, pollution, and excess nutrients.

    Question 4. What are the top three actions we should take now to 
improve our ability to mitigate and adapt to the impacts of climate 
change?
    Answer. NOAA is committed to expanding climate services for all 
user communities and enhancing climate research. The FY 2009 
President's budget request identifies three key, specific climate-
related activities for which NOAA has requested increases: developing 
the National Integrated Drought Information System; investigation into 
ocean current circulation and its relationship to abrupt climate 
change; and the development of satellite climate sensors. Combined with 
continued support for NOAA's existing climate-related projects, these 
activities will improve our ability to mitigate and adapt to climate 
change.
    In addition to the key climate-related research activities 
highlighted in the FY 2009 President's Budget Request, NOAA's Pacific 
Region is engaged in a number of ways to help the Pacific Islands plan 
for, mitigate against, and adapt to climate change (please see response 
to Question 6 for a detailed list of activities). NOAA's Pacific Region 
will continue to work with our island communities to develop tools, 
products, and services to move toward realizing NOAA's vision of, ``an 
informed society that uses a comprehensive understanding of the role of 
the oceans, coasts and atmosphere in the global ecosystem to make the 
best social and economic decisions.''

    Question 5. In recent weeks, articles have been circulated among 
Members of the Congress that suggest the climate change issue is 
overstated, and that what is actually happening is a natural 
phenomenon. What do you think about this suggestion?
    Answer. NOAA agrees with the scientific findings of the 2007 
Intergovernmental Panel on Climate Change's (IPCC-AR4) that warming of 
the climate system is unequivocal, and most of the observed increase in 
globally averaged temperatures since the mid-20th century is very 
likely due to the observed increase in greenhouse gases caused by 
humans. The IPCC-AR4 also pointed out that uncertainties remain, such 
as the rate of warming, including the potential for abrupt and extreme 
changes, as well as region-specific climate variation and change.
    NOAA's responsibility is to provide critical information on the 
amount of greenhouse gases in the atmosphere and their impact on 
climate, so that policymakers can make informed decisions about what is 
best for our Nation.

    Question 6. The 2007 Intergovernmental Panel on Climate Change 
Assessment reports that global temperature has increased substantially 
over the last 100 years, due in large part to the burning of fossil 
fuels. Increases in carbon dioxide (CO<INF>2</INF>) in the atmosphere 
lead to increased ocean temperatures, which threaten coral reef 
ecosystems through more frequent and severe coral bleaching, rising sea 
levels, and possibly storm activity. What future programs or products 
is NOAA planning for the Pacific to monitor the oceans' response to 
growing carbon dioxide levels? What information will be provided for 
decision-makers for guidance on mitigation options?
    Answer. NOAA's Pacific Region is engaged in a number of ways to 
help the Pacific Islands plan for, mitigate against, and adapt to 
climate change. NOAA's Pacific Region will continue to work with our 
island communities to develop tools, products, and services to move 
toward realizing NOAA's vision of, ``An informed society that uses a 
comprehensive understanding of the role of the oceans, coasts and 
atmosphere in the global ecosystem to make the best social and economic 
decisions.'' Highlighted below are some prominent efforts:
The Pacific Risk Management `Ohana
    The Pacific Risk Management `Ohana (PRiMO) is a network of partners 
and stakeholders involved in the development and delivery of risk 
management-related information, products, and services in the Pacific, 
and is led by the NOAA Pacific Services Center. Established in 2003, 
this multi-agency, multi-organizational, multi-national group brings 
together representatives from agencies, institutions, and organizations 
involved in Pacific risk management-related projects and activities 
with the overall goal of enhancing communication, coordination, and 
collaboration among the `Ohana (family) of partners and stakeholders 
involved in this work. As a result of this collaboration, several ideas 
that emerged over the years have led to the development of decision-
support and community planning tools that aid a cross section from 
managers to the general public in better understanding risks and in 
making the best possible socio-economic decisions. Examples of these 
collaborations include:

Decision Support Tools

  <bullet> Hazard Assessment Tools have been developed in partnership 
        with NOAA's Pacific Region, local governments in American 
        Samoa, Guam, and Hawaii (County of Kauai). These tools use 
        Geographic Information Systems maps to integrate hazard risk 
        information, such as sea level rise projections, along with 
        local information on infrastructure, natural resources, and 
        administrative boundaries to improve both short and long term 
        decisionmaking.

  <bullet> The Hazard Education and Awareness Tool is a template which 
        allows any organization the ability to create a simple website 
        which provides public access to local hazard maps for their 
        community. Additional information on appropriate response and 
        preparedness actions are also included.

  <bullet> The Nonpoint Source Pollution and Erosion Comparison Tool is 
        a decision support tool which allows coastal managers to 
        compare potential water quality impacts of land cover change 
        that may occur from changes in climate.

Data

  <bullet> The Coastal Change Analysis Program (C-CAP) is a nationally 
        standardized database of land cover and land change 
        information, developed using remotely sensed imagery, for the 
        coastal regions of the United States. C-CAP products inventory 
        coastal intertidal areas, wetlands, and adjacent uplands with 
        the goal of monitoring these habitats by updating the land 
        cover maps every 5 years. Its primary objective is to improve 
        scientific understanding of the linkages between coastal 
        wetland habitats, adjacent uplands, and living marine 
        resources. Land cover data from C-CAP has been developed for 
        Hawaii from satellite images acquired in both 2000 and 2005. 
        High resolution elevation data for Hawaii was collected in 2005 
        using Interferometric Synthetic Aperture Radar. This elevation 
        data provides resource managers with the highest resolution 
        elevation data currently available for Hawaii. This data is 
        invaluable for determining potential impacts of changes in 
        climate, such as sea level rise, in areas where higher 
        resolution data may not be available.

Community Planning Tools

  <bullet> The Coastal Community Resilience Guide presents a framework 
        for assessing resilience of communities to coastal hazards. The 
        work was the result of a partnership funded through the Indian 
        Ocean Tsunami Warning System Program and is being piloted for 
        application in Hawaii. The framework, developed in concert with 
        over 140 international partners, encourages integration of 
        coastal resource management, community development, and 
        disaster management for enhancing resilience to hazards, 
        including those that may occur as a result of climate change.
The Pacific ENSO Application Center
    Pacific Island communities continually deal with dramatic seasonal 
and year-to-year changes in rainfall, temperature, water levels and 
tropical cyclone patterns associated with the El Nino Southern 
Oscillation (ENSO) cycle in the Pacific. This dynamic system involving 
the Pacific Ocean and the atmosphere above it can bring droughts, 
floods, landslides, and changes in exposure to tropical storms. 
Fourteen years ago, NOAA joined forces with the University of Hawai`i, 
the University of Guam, and the Pacific Basin Development Council to 
begin a small research pilot project designed to develop, deliver, and 
use forecasts of El Nino-based changes in temperature, rainfall, and 
storms to support decisionmaking in the American Flag and U.S.-
Affiliated Pacific Islands. That pilot project--the Pacific ENSO 
Applications Center (PEAC)--continues its work today as part of the 
operational National Weather Service programs in the Pacific. The PEAC 
experience has demonstrated the practical value of climate information 
for water resource management, disaster management, coastal resource 
planning, agriculture, and public health.
The Pacific Climate Information System
    The experience gained from PEAC and the Pacific RISA has helped 
inform the emergence of a comprehensive Pacific Climate Information 
System (PaCIS). As an integrated organization that brings together 
NOAA's regional assets as well as those of its partners, PaCIS 
provides, on a regional scale, a programmatic framework to integrate 
ongoing and future climate observations, operational forecasting 
services, and climate projections, research, assessment, data 
management, communication, outreach and education that will address the 
needs of American Flag and U.S.-Affiliated Pacific Islands. Within this 
structure, PaCIS will also serve as a United States' contribution to 
the World Meteorological Organization's Regional Climate Centre for 
Oceania and represents the first integrated, regional climate service 
in the context of emerging planning for a National Climate Service.
    Scientists and decision-makers in Pacific Island communities are 
now engaged in individual and collaborative efforts to understand the 
nature of the climate change impacts described in IPCC-AR4 and explore 
our options for both mitigation and adaptation. This shared effort 
involves NOAA, other Federal programs, state agencies, university 
scientists, community leaders and nongovernmental organizations. 
Together these groups are focusing their unique insights and 
capabilities on a number of critical climate programs and activities 
including: contributions to global and regional climate and ocean 
observing systems; operational forecasts of seasonal-to-inter-annual 
climate variability; development and analysis of improved models that 
provide long-term projections of climate change; multi-disciplinary 
assessments of climate vulnerability, climate data stewardship, the 
development of new products and services to support adaptation and 
mitigation in the Pacific; and education and outreach programs to 
increase the climate (and environmental literacy) of Pacific Island 
communities, governments, and businesses.
    Future planning for a number of climate programs in the Pacific 
will be organized in the context of PaCIS including building upon the 
PEAC, the Pacific Islands Regional Integrated Science and Assessment 
(Pacific) program and other related climate activities in the region. 
In addition to meeting the specific needs of U.S. affiliated 
jurisdictions in the Pacific, PaCIS will also provide a venue in which 
to discuss the role of U.S. contributions to other climate-related 
activities in the Pacific including, for example, observing system 
programs in the region, such as the Pacific Islands Global Climate 
Observing System (PI-GCOS) and the Pacific Islands Global Ocean 
Observing System, as part of an integrated climate information system.
    In order to further define the roles and capabilities of PaCIS, a 
steering committee has been established, made up of representatives of 
institutions and programs working in the fields of climate 
observations, science, assessment, and services in the Pacific 
(including PEAC, the Pacific RISA, PI-GCOS, and the National Weather 
Service), as well as selected individuals with expertise in similar 
regional climate science and service programs in other regions. The 
PaCIS Steering Committee will provide a forum for sharing knowledge and 
experience and guide the development and implementation of this 
integrated, regional climate information program.
The Pacific Region Integrated Coastal Climatology Program
    Over the past decade, discussions with disaster management agencies 
and coastal managers in the Pacific Islands have highlighted concerns 
about sea level rise, and the associated coastal inundation, as one of 
the most significant climate-related issues facing coastal communities 
in the Pacific. In light of this need, NOAA, through its IDEA Center, 
with support from the Pacific Services Center, and working with 
colleagues throughout NOAA, the U.S. Army Corps of Engineers, U.S. 
Geological Survey and university scientists in Hawaii, Guam, Alaska, 
and Oregon, initiated the Pacific Region Integrated Coastal Climatology 
Program (PRICIP). PRICIP recognizes that coastal storms and the strong 
winds, heavy rains, and high seas that accompany them pose a threat to 
the lives and livelihoods of the people of the Pacific. To reduce their 
vulnerability, decision-makers in Pacific Island governments, 
communities, and businesses need timely access to accurate information 
that affords them an opportunity to plan and respond accordingly. The 
PRICIP project is helping to improve our understanding of patterns and 
trends of storm frequency and intensity within the Pacific Region, and 
develop a suite of integrated information products that can be used by 
emergency managers, mitigation planners, government agencies, and 
decision-makers in key sectors including water and natural resource 
management, agriculture, fisheries, transportation, communications, 
recreation, and tourism.
    As part of the initial build-out, a PRICIP web portal is serving a 
set of historical storm ``event anatomies.'' These event anatomies 
include a summary of sector-specific socio-economic impacts associated 
with a particular extreme event as well as its historical context 
climatologically. The intent is to convey the impacts associated with 
extreme events and the causes of them in a way that enables users to 
easily understand them. The event anatomies are also intended to 
familiarize users with in situ and remotely-sensed products typically 
employed to track and forecast weather and climate.
Hawaiian Archipelagic Marine Ecosystem Research
    The Hawaiian Archipelagic Marine Ecosystem Research Plan is a 
collaborative planning process to develop sustainable conservation and 
management throughout Hawaii's marine ecosystem through improved 
understanding of the unique physical and biological attributes of the 
Hawaiian archipelagic marine ecosystem, their interconnected dynamics, 
and their interactions with human beings. By using Hawaii as a large-
scale archipelagic laboratory for the investigation of biophysical 
processes, comparing the protected Northwestern Hawaiian Islands to the 
heavily used Main Hawaiian Islands and integrating socioeconomic 
information, Hawaii and comparable marine ecosystems worldwide should 
realize improvements in resource management and community response to 
changes in climate.
    While this project is in its formative stages, the information 
generated by this projected 10-year multi-agency, collaborative program 
will:

  <bullet> Fill critical and important research gaps in the underlying 
        science of marine ecosystem dynamics;

  <bullet> Complement national, international, and state ecosystem 
        research initiatives;

  <bullet> Improve understanding of the behavior of humans in a marine 
        ecosystem approach to conservation and management;

  <bullet> Formulate predictive theory of ecosystem dynamics relative 
        to physical and biological variables; and

    Generate useful information for conservation managers.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Karl Kim, Ph.D.
    Question 1. Climate change experts have forecasted changes in the 
worldwide climate that will impact forest productivity, ecosystems, 
agriculture, water resources, and energy. Among these impacts is sea 
level rise, increased and intensified flooding, and higher storm surges 
along vulnerable coasts. A combination of these possibilities could 
pose a threat for Hawaii in the form of intensified storms and other 
natural disasters.
    In the 9/11 bill, the Committee authorized the creation of the 
National Disaster Preparedness Training Center. This purpose of the 
center is to develop plans to prepare for, mitigate, and respond to 
disasters in Hawaii. The Center would serve as a databank, develop 
scientific models and tools for monitoring natural disasters, and 
evaluate potential risks to urban populations. As an island community, 
Hawaii must be proactive in preparing for varied natural threats, as 
well as manmade. Can you tell us about the potential for adverse 
impacts from sea level rise on the population centers of the Central 
and Western Pacific, particularly with respect to port and road 
infrastructure, coastal habitats, living marine resources, and 
vulnerability of towns and villages to extreme coastal events like 
tsunami?
    Answer. There are a wide range of adverse consequences now being 
predicted with increasing levels of probability for Hawaii, the Central 
and Western Pacific, and Pacific region generally. The State of Hawaii, 
in its 2007 Multi-Hazard Mitigation Plan, utilizes the Fourth 
Assessment of the Intergovernmental Panel on Climate Change as a source 
for information about impacts and vulnerabilities, and researchers at 
the University of Hawai`i are also generating useful primary data and 
modeling tools to assess the potential effects of sea level rise. Some 
consensus points on expected impacts include:

        Coastal areas are projected to be exposed to increasing risks 
        of coastal erosion, and this will be exacerbated by population 
        pressures in the coastal areas.

        Flooding will increase in coastal areas, particularly the low-
        lying areas, and the increase is expected to accelerate over 
        the coming decades.

        Salt water incursion into water tables will increase, with 
        particularly severe consequences for small island communities 
        with already tenuous water supplies.

        Low-lying zones are heavily correlated with population density 
        and urbanization throughout the Pacific region, compounding the 
        vulnerability of these zones to other hazards, such as tropical 
        storms and localized coastal erosion and subsidence.

        Coastal and low-lying zones are also heavily correlated with 
        structural infrastructure, i.e., roads, ports, business 
        districts, airports, fuel depots, and communications networks. 
        Sea level rise and related increased levels of inundation, 
        storm surge and coastal erosion pose heightened threats to 
        vital infrastructure.

    These infrastructural vulnerabilities will have direct adverse 
effects on livelihoods and island economies. Deterioration of coral 
resources due to sea rise-related thermal changes may impact fisheries, 
and loss of beaches and related natural resources will have detrimental 
effects on tourism, a major economic activity on island communities. To 
illustrate the potential impact, a one meter rise in sea level would 
inundate most of Honolulu's Waikiki district, essentially eliminating a 
major component of the state's economic activity.

    Question 2. Where are the most vulnerable areas, and how are they 
kept informed and prepared?
    Answer. Vulnerability is widespread in the Pacific region, and 
differs based upon considerations such as geography, geology, 
bathymetry, atmospheric conditions and other environmental variables. 
Along with environmental science based parameters, vulnerability has a 
distinct social character, with variability based upon income, access 
to education and communications technologies, experience with recent 
disasters and development of coping skills, and the level of local 
government proactivity, as examples.
    Vulnerability mapping models are being developed to provide 
improved understanding of the location of vulnerable populations, and 
these technologies are also useful in disaster response planning and 
implementation, improving situational awareness at all stages of the 
disaster management process. Despite these advances, remote areas and 
localized concentrations of persons disadvantaged due to socio-economic 
factors, linguistic minorities, persons with disabilities and other 
issues continue to present challenges to effective messaging about, and 
preparation for, disasters.

    Question 3. What is the current state of Hawaii's disaster 
preparedness and is it adequate to address Hawaii's unique and varying 
threats?
    Answer. Following the devastation of Hurricane Iniki in 1992, the 
State of Hawaii has made disaster preparedness a priority. State and 
local Civil Defense operates at a high level of professionalism, and 
local first responders have been sensitized to the need to be prepared 
for the wide variety of natural disasters which may occur in Hawaii. 
Numerous state and Federal agencies are working individually and 
collectively to identify and mitigate hazards in Hawaii and the region. 
However, funding constraints, gaps in training and educational 
resources, and the twin challenges of rapidly accelerating hazard and 
disaster threats and rapidly expanding populations in hazardous areas 
illustrate the need for a significant increase in preparedness at all 
levels.
    As one example, Hawaii State Civil Defense has effectively promoted 
the development of tsunami inundation maps, and disseminated these 
widely through placement in all telephone books in the state, improving 
public awareness of hazard zones and evacuation procedures. With newly 
developed modeling methods, significantly improved maps are now 
possible which will greatly improve the utility of these maps, but 
creating them will require new commitment of funding, engineering and 
information management skills and talents. In other words, risk levels 
continue to rise, and mitigation technologies are improving, but 
demands on resources often outstrip local capacity.
    The indelible lesson of Hurricane Iniki, reinforced by recent 
natural disasters in other tropical coastal areas, is that given the 
vulnerability of Hawaii's tropical island location, the remoteness of 
any feasible outside relief assets, and the difficulties inherent in 
inter-island transport in a crisis, island communities must develop a 
high level of local resilience, or remain vulnerable to catastrophic 
loss when extreme events occur.

    Question 4. How would the National Disaster Preparedness Training 
Center fill any gaps in Hawaii's current disaster preparedness program?
    Answer. The NDPTC, as part of the National Domestic Preparedness 
Consortium, will aim at addressing disaster preparedness in Hawai'i and 
the U.S. Pacific Islands on the one hand, and sharing the experience of 
training for disaster in one of the most hazard vulnerable regions with 
our collaborating centers and the national disaster community as a 
whole on the other. These are mutually reinforcing roles, and will aid 
in addressing gaps in disaster preparedness both locally and 
nationally.
    Based at the University of Hawai`i, the central focus of this 
center is to address knowledge gaps in the natural disaster management 
system. Universities have a unique and increasingly critical 
contribution to make in disaster risk reduction research as well as in 
institutional capacity building for disaster response. Universities 
house the basic scientific research and applied technology development 
relevant to disaster risks, and train future professionals in vital 
constituent disciplines. The University of Hawai`i has particular 
strengths in Ocean and Earth Sciences, Civil, Ocean and Environmental 
Engineering, Urban and Regional Planning, Architecture, Tropical 
Agriculture and Natural Resource Management, Medicine and Public 
Health, and Law that are highly relevant to disaster risk management.
    The NDPTC will address the knowledge gap by adapting leading edge 
findings from academic sources and the best practice experience of our 
dynamic community of disaster management organizations to create 
training and education products for every level of practitioner. The 
need to broaden understanding of the technical nature of hazards and 
increase familiarity with the latest tools, models and methods used in 
mitigating their impacts, extends from first responders right up 
through management and planning to policy and decision-making. 
Increasing the level of knowledge held in common across disciplinary, 
agency and community boundaries will have a direct effect in improving 
the coherence of disaster planning, and the promotion of community 
resilience.
    The training and education products developed at the NDPTC will 
substantially improve readiness in Hawaii and the U.S. Pacific Island 
jurisdictions. However, these same products will be made available for 
training programs throughout the U.S. As the first of the National 
Domestic Preparedness Consortium institutions to focus specifically on 
natural disasters, the NDPTC will also contribute to the effort to 
assure that all hazards are addressed, and that preparation 
incorporates a broad view of the nature of hazard.

                                  <all>

</pre></body></html>
